<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 110-91]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-91
 
                    MISCELLANEOUS PUBLIC LANDS AND 
                             FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

S. 205                  H.R. 276                     S. 390                                H.R. 356                S. 647                       H.R. 865                           S. 1139 

                               __________

                              MAY 3, 2007

                       Printed for the use of the
               Committee on Energy and Natural Resources





                     U.S. GOVERNMENT PRINTING OFFICE

36-767 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            LARRY E. CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                JIM DeMINT, South Carolina
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
          Thomas Lillie, Republican Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     3
Carter, Kevin S., Director, Utah School and Institutional Trust 
  Lands Administration, Salt Lake City, UT.......................    46
Cobb, Ty, Board Member, Grand Canyon Trust, Flagstaff, AZ........    51
Hughes, Jim, Acting Director, Bureau of Land Management, 
  Department of the Interior.....................................    21
Moe, Richard, President, National Trust for Historic Preservation    10
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     9
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................    15
Salazar, Hon. Ken, U.S. Senator from Colorado....................     1
Schrader, Martha, Chair, Clackamas County Board of Commissioners, 
  Oregon City, OR................................................    40
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     7
Sterling, John, Executive Director, The Conservation Alliance, 
  Bend, OR.......................................................    43
Stevens, Hon. Ted, U.S. Senator from Alaska......................     2
Suppah, Ron, Chairman, the Confederate Tribes of the Warm Springs 
  Reservation of Oregon, Warm Springs, OR........................    35
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                                APPENDIX

Additional material submitted for the record.....................    59


              MISCELLANEOUS PUBLIC LANDS AND FORESTS BILLS

                              ----------                              


                         THURSDAY, MAY 3, 2007

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    The purpose of today's hearing is to receive testimony on 
several land use bills. These include S. 205 and H.R. 865, to 
grant rights-of-way for electric transmission lines over 
certain Native allotments in the State of Alaska; S. 390, to 
direct the exchange of certain lands in Utah; S. 1139, to 
establish the National Landscape Conservation System; H.R. 276, 
to designate the Piedras Blancas Light Station and the 
surrounding public land as an outstanding natural area to be 
administered as part of the National Landscape Conservation 
System; H.R. 356, to remove certain restrictions on the Mammoth 
Community Water District's ability to use certain property 
acquired by that District from the United States; and S. 647, 
the Lewis and Clark Mount Hood Wilderness Act, a bill that 
Senator Smith and I introduced, to increase the existing 
Wilderness Act on the most visited forest in Oregon.
    I'm going to have an opening statement in a little bit, but 
first I see that our good friend, Senator Bennett has arrived, 
and Senator Smith has arrived. I think with Senator Smith's 
indulgence, what I'd like to do is let Senator Bennett make his 
presentation and then I would make a statement about the Mount 
Hood Wilderness legislation. I know my good friend wants to as 
well.
    Senator Bennett, we welcome you and know that you have a 
great interest in S. 390, and please proceed in any way that 
you choose.
    [The prepared statements of Senators Salazar and Stevens 
follow:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Mr. Chairman, thank you for holding this hearing today and for 
including S. 1139, a bill to establish the National Landscape 
Conservation System, on today's agenda. I was pleased to work with 
Chairman Bingaman on this bill. I welcome Richard Moe, President of the 
National Trust for Historic Preservation, and thank him for testifying.
    The National Landscape Conservation System was created 
administratively in 2000 to guide the management of the national 
monuments, national conservation areas, national wild and scenic 
rivers, wilderness areas, wilderness study areas, and national historic 
and scenic trails that are under the BLM's authority. The NLCS, as it 
is called, encompasses the 26 million most spectacular acres of the 260 
million acres that the Bureau of Land Management oversees.
    Many of these lands are on par with our national parks in their 
beauty and value to the American people. Unfortunately, the National 
Landscape Conservation System has taken a back seat in our country's 
land conservation efforts. We are hearing a growing number of reports 
that natural, cultural, and archaeological sites on NLCS lands are 
being overrun or destroyed.
    At Colorado's Canyons of the Ancients National Monument, home to 
the highest density of cultural sites in America, 47 ancestral Puebloan 
sites were looted in the first half of 2006. With only one law 
enforcement officer for the entire monument, it is almost impossible to 
prevent this type of vandalism.
    At McInnis Canyon National Conservation Area, also in Colorado, one 
archaeologist splits time with the rest of the 1.3 million acres 
managed out of the BLM field office. How is one individual to complete 
the archaeological surveys under way in the area's booming oil and gas 
fields while still ensuring that the conservation area's petroglyphs, 
fossils, and archaeological treasures are documented and protected?
    The Secretary of the Interior took a good step in 2000 when he 
established the National Landscape Conservation System. The BLM should 
have additional resources and tools for the management of lands that 
the American people have determined to be of exceptional natural, 
cultural, recreational, scenic, or historic value.
    S. 1139 would strengthen the NLCS system by writing it into 
statute, ensuring its permanence. The NLCS Act gives Congressional 
support and direction to the system, without changing how any unit is 
managed. The bill has no effect on water rights, grazing rights, or any 
existing law directing management.
    In Director Hughes' written testimony expressing the 
Administration's support for this bill, he writes that S. 1139 ``will 
assure that these landscapes of the American spirit would be conserved, 
protected, and restored for the benefit of current and future 
generations.''
    I fully agree. It is time for our laws to reflect the fact that the 
lands in the NLCS are of immense and growing value to the American 
people. I hope that we can move this bill through the Committee as soon 
as possible.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Prepared Statement of Hon. Ted Stevens, U.S. Senator From Alaska
    Chairman Bingaman, Ranking Member Domenici, distinguished Members 
of the Committee, thank you for holding this hearing. I am grateful for 
the opportunity to speak in support of S. 205, the Copper Valley Native 
Allotment Resolution Act.
    This Act is intended to resolve a long-standing dispute unwittingly 
put in motion by Congress and the Federal government. This disagreement 
now threatens relations in the Copper Valley and jeopardizes future 
infrastructure development for those who live in this region.
    The Constitution and a number of federal laws establish our 
nation's policy towards Native Americans. From 1906 through 1970, 
Alaska Natives were granted the authority to claim up to 160 acres of 
land. This framework proved unworkable, prompting Congress to undertake 
a new path to settle unresolved land claims--first with the passage of 
the Alaska Native Claims Settlement Act in 1971, and then with the 
passage of the Alaska National Interest Lands Conservation Act in 1980.
    As part of an effort to ensure basic services were available to 
Alaskans, the Federal government also began granting rights of way for 
transportation and utility corridors during this time. In most cases, 
these rights were conveyed before Alaska Native allotment claims had 
been filed and processed.
    In an attempt to settle the outstanding land claims of Alaska 
Natives and provide for the welfare of all Alaskans, Congress 
unintentionally created a conflict between Native allotees and utility 
right-of-way holders. Several allotees received land also designated 
for use by rural energy providers. Today, compensation for these rights 
of way is the subject of several lawsuits.
    The swift resolution of this matter is vitally important to 
Alaskans in the Copper Valley region. The Copper Valley Electric 
Association (CVEA), which is at the center of this dispute, is a rural 
electric cooperative founded in 1954 pursuant to terms in the Rural 
Electrification Act. This is not a multi-state, multi-million dollar 
energy company, but instead a nonprofit run by members of local 
communities. In fact, the CVEA serves only 3,600 customers. Forcing it 
to compensate Native allotee owners for its transmission lines would 
compel the CVEA to increase its rates and place an undue burden on its 
consumers. I remind the members of this Committee--this dispute was 
brought on by the actions of our Federal government.
    At my request, the Government Accountability Office (GAO) reviewed 
this situation and issued a report with recommended solutions. The GAO 
found that existing remedies will not resolve these conflicts.
    S. 205 incorporates one of the GAO's recommended solutions--the 
establishment of a federal fund. It would compensate the owners of the 
Native allotments and ensure local utility companies remain able to 
provide residents with the infrastructure and services they need. I 
believe this is the most equitable solution available. This was the 
Federal government's mistake; it should be our obligation to pay for 
its remedy.
    I look forward to working with the Committee to ensure the Copper 
Valley Native Allotment Resolution Act accomplishes its goals--to 
adequately compensate Native allotees and allow the CVEA to continue 
operating without undue burdens on its customers.

  STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR FROM UTAH

    Senator Bennett. Thank you very much for your courtesy, Mr. 
Chairman. I will ask that my entire written statement be 
imprinted in the record.
    Senator Wyden. Without objection, so ordered.
    Senator Bennett. As you may know, when Utah was made a 
State in 1896, the Statehood Act created, roughly, 3.5 million 
acres of lands that are called School Trust lands. These are 
parcels that are scattered across the State in checkerboard 
fashion. If you look at a map of the State, you almost think 
that the State has chicken pox, with little pieces of land 
here, there, and everywhere.
    At the time, of course, no one knew where the development 
was going to take place in the State and so the Statehood Act 
said, ``We'll put School Trust lands virtually everywhere and 
that way, when the land gets developed, the proceeds off the 
land will go to help pay for education for Utah's school 
children.''
    Well, now you have State Trust lands inside of wilderness 
study areas, you have State Trust lands in areas that we know 
are environmentally sensitive, and they get in the way of the 
Bureau of Land Management's management of land, because they 
constitute in-holdings that are put there virtually arbitrarily 
and at random.
    The logical thing to do is to take these lands and swap 
them for lands that are outside of sensitive areas, lands that 
the BLM has that would make sense to develop, but for one 
reason or another, the Federal Government doesn't want to be 
involved in the development.
    It's such a logical idea, that it's very hard to get done. 
My father tried to do this when he was a U.S. Senator. Governor 
Mathison, the Democratic Governor of Utah tried to do this when 
he was Governor. We kept working on it, we've worked on it all 
the way through. We've now made some progress and there have 
been some land swaps. All I want to do is build on that 
progress and move this bill forward.
    It exchanges 40,000 acres of School Trust land for 40,000 
acres of public land, sets up an appraisal process that is a 
common-sense approach to this, and makes sure that neither side 
takes advantage of the other. So, the lands will be swapped on 
an equal-value basis and it will allow money to come into Utah 
School's Trust and it will allow BLM managers to have more 
control over lands that they want.
    That's the sum and substance of where we are. We were very 
close to getting this passed in the last Congress, and to my 
knowledge, there was no particular opposition to it, but it 
simply got caught up in the frantic nature of the lame-duck 
session as transitions took place and people decided they 
wanted to go home and get out of Congress. This was one of the 
casualties of that last minute crunch, which is why I'm 
grateful to you for considering it this early in the session 
and hope it will receive favorable consideration from this 
subcommittee.
    [The prepared statement of Senator Bennett follows:]
  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah
    Chairman Wyden, and members of the subcommittee, thank you for 
taking the time to hold this hearing on S. 390, the Utah Recreational 
Land Exchange Act of 2007. This bill should look familiar to the 
committee; it was very close to becoming the Utah Recreational Land 
Exchange Act of 2006, but was held up on the floor during the waning 
days of the 109th Congress. I appreciate this opportunity to update the 
legislative record, and am hopeful that this legislation can move 
quickly this session.
    Utah has approximately 3.5 million acres of school trust lands. 
When Utah was admitted to the Union in 1896, these lands were set aside 
to support public education. The School and Institutional Trust Lands 
Administration, known as SITLA, manages these lands.
    Revenue derived from state lands goes into the State School Fund--a 
permanent, income-producing endowment that Congress created for Utah's 
school children. This revenue includes dollars from oil and gas 
leasing, mining, land sales, recreation, timber, grazing, and other 
natural resource development. I often hear from our rural schools about 
the importance of state trust land funds. For example, Koosharem 
Elementary--a school with 52 enrolled students--recently used funds 
from the school trust lands to purchase science, math, and social 
studies textbooks. These funds are critical for our schools, both rural 
and urban.
    Unfortunately, managing the trust lands is not an easy task. If you 
look at a map of Utah where land ownership is defined, you will see a 
checkerboard pattern throughout most of the state. The pattern is 
caused by isolated sections of state trust lands that are surrounded by 
public lands. State trust lands that are found within federal 
wilderness study areas, for example, will probably never create revenue 
for the State School Fund, and make managing a unified area of land for 
wilderness characteristics impossible for the Bureau of Land 
Management.
    There is only one solution to this problem--we must consolidate 
land ownership. Consolidation makes sense for both sides: the federal 
government will acquire state lands that require special management or 
otherwise make management difficult for the agency, and the state 
acquires public land in blocks, making it possible to send more revenue 
to our school children. That is what this bill does.
    This bill exchanges approximately 40,000 acres on both sides, 
giving the taxpayers and Utah's school children a fair deal. It also 
establishes a common-sense valuation process for resources that are 
often either overlooked or overvalued because of their highly-
speculative nature. It exchanges critical and sensitive areas along the 
Colorado River Corridor to the federal government for lands that are 
difficult for the federal agencies to manage. It is the result of 
collaboration and compromise that has included local governments, the 
state, the recreation and environmental communities, and concerned 
citizens. We look forward to working with this committee toward a 
successful resolution of this proposed exchange during this Congress.
    Again, I thank the chairman for the opportunity to support our 
efforts to fund the education of our children in Utah and to protect 
some of this nation's truly great land. I urge support of the Utah 
Recreational Land Exchange Act of 2007.

    Senator Wyden. My good friend and co-sponsor of the Healthy 
Americans Act, does outstanding work as usual. I've directed 
the staff, and I know Senator Bingaman will be involved, as 
well, to work very closely with you and to get this processed 
as quickly as possible. We really appreciate your coming, and I 
look forward to talking to you later today about other matters, 
as well. I thank you.
    Senator Bennett. Thank you.
    Senator Wyden. Do any of the other Senators have questions 
for Senator Bennett?
    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate your courtesy.
    Senator Wyden. Thank you, and we'll move this legislation 
quickly. I am certain of it.
    Let us begin. I was going to make a short statement on the 
legislation that Senator Smith and I have, and then we welcome 
all of our colleagues who've come, who have bills as well.
    First up, the Oregon Senators: I'd especially like to thank 
the witnesses that have come from our State--Martha Schrader, 
Clackamas County Commissioner; Chairman Ron Suppah of the 
Confederated Tribes of the Warm Springs Reservation; and John 
Sterling, Executive Director of the Outdoor Industry 
Conservation Alliance. We greatly appreciate your helping us to 
bring an improved version of the legislation that Senator Smith 
and I pushed in the last session. Last year's bill stems from 
an awful lot of input we got from the people of Oregon, and we 
are going to try to move this bipartisan legislation as quickly 
as possible.
    Our Mount Hood is a special State treasure. It is a wild 
place, often photographed and visited and enjoyed by scores of 
citizens. What we have tried to do in this legislation is to 
build on the existing Mount Hood Wilderness Area, adding more 
wild and scenic rivers, and also providing opportunities for a 
diverse set of recreational activities.
    We protect the lower elevation forests surrounding Mount 
Hood and the Columbia River Gorge. The protected areas include 
vistas as Lewis and Clark would have seen them. More than 
128,000 acres of wilderness and the addition of nine free-
flowing stretches of river to the National Wild and Scenic 
river system.
    From what the two of us have heard, our legislation, and 
the places that we have proposed, are the right choices for 
wilderness protection in 2007. In the 22 years that have 
elapsed since there's been any new wilderness designated on 
Mount Hood, the population of the local counties has increased 
dramatically, 25 percent in Multnomah County, 24 percent in 
Hood River County, and 28 percent in Clackamas County.
    Our forest is now the seventh most-visited forest in the 
country. The increased visitation and population growth have 
raised a number of issues that I and Senator Smith have been 
working on, with a number of organizations, to address. We did 
this by adding the most desired areas for protection, while 
providing for increased resources in order to make sure that 
recreation and recreational opportunities would be afforded to 
the many who have talked specifically to us about that.
    Overall, we've heard the desire for more wilderness and 
more recreation opportunities. There are currently 189,000 
acres of designated wilderness on the Mount Hood National 
Forest. S. 647 would increase that amount by designating 
approximately 128,600 new acres of wilderness.
    In response to the concerns that the two of us heard from 
mountain bikers, and to ensure that their use of the mountain 
not be unfairly curtailed, Senator Smith and I have proposed a 
National Recreation Area. This area was so popular the last 
time we discussed it, that we have decided to expand it to 
include 34,640 acres, an increase of over 16,000 acres. It's 
going to offer greater permanent environmental protection to 
those beautiful areas, while providing mountain bikers and 
other recreational users an opportunity to continue to recreate 
in these areas.
    The proposal seeks to protect more than 79 miles of wild 
and scenic rivers and some of the most pristine rivers in our 
State. Protection for the undeveloped North side of the 
mountain has also been a very important part of our 
legislation. We sought to honor the community-driven solution 
to development challenges by providing for essential land 
exchanges that have adequate safeguards.
    To address concerns on forest health, the bill provides 
protections for healthy older trees that are the most resistant 
to fire and disease, while directing that thinning and 
restoration work be done on the huge backlog of overcrowded 
plantation second-growth.
    We've also incorporated provisions of local and tribal 
relationships, emphasizing the rich history of the Mount Hood 
region and affirming the right of Native peoples to access the 
mountain resources as they have for generations.
    I want to assure all my colleagues on the subcommittee that 
this will be the longest opening statement I will make during 
the course of the year, but the people of our State do feel 
strongly about Mount Hood.
    Let me recognize now, Senator Smith, and then both of our 
colleagues who've also come.
    Senator Smith.
    [The prepared statement of Senator Wyden follows:]
     Prepared Statement of Hon. Ron Wyden, U.S. Senator From Oregon
    The Subcommittee will come to order. The purpose of today's hearing 
is to receive testimony on several land use bills. These include:

  <bullet> S. 205 and H.R. 865, to grant rights-of-way for electric 
        transmission lines over certain Native allotments in the State 
        of Alaska;
  <bullet> S. 390, to direct the exchange of certain land in Grand, San 
        Juan, and Uintah Counties, Utah;
  <bullet> S. 1139, to establish the National Landscape Conservation 
        System;
  <bullet> H.R. 276, to designate the Piedras Blancas Light Station and 
        the surrounding public land as an Outstanding Natural Area to 
        be administered as a part of the National Landscape 
        Conservation System; and
  <bullet> H.R. 356, to remove certain restrictions on the Mammoth 
        Community Water District's ability to use certain property 
        acquired by that District from the United States.
  <bullet> And S. 647 the Lewis and Clark Mount Hood Wilderness Act a 
        bill Senator Smith and I introduced to increase the existing 
        wilderness on the most visited forest in Oregon, the Mount Hood 
        National Forest, by almost 70%.

    Before we begin, I would like to say a few words about this 
important legislation. I would also like to thank the witnesses that 
have come all the way from Oregon: Martha Schrader, Clackamas County 
Commissioner, Chairman Ron Suppah of the Confederated Tribes of the 
Warm Springs Reservation of Oregon, and John Sterling, Executive 
Director of The Outdoor Industry Conservation Alliance. Thank you for 
being here. I am confident that your testimony will help my colleagues 
on this Subcommittee understand what Mount Hood means to those of us in 
the State of Oregon. I would also like to welcome all the other 
witnesses here today.
    The Mount Hood wilderness legislation before us is an improved 
version of the bill that Senator Smith and I introduced in the last 
Congress. It builds on last year's legislation as a result of broad-
based feedback from our constituents. The bill also includes input from 
the Energy and Natural Resources Committee, which we hope will help 
speed the bill's passage.
    Oregon's Mount Hood is a cherished state treasure. This wild place 
is often photographed, visited and enjoyed by scores of Oregonians and 
non-Oregonians.
    Our legislation builds on the existing Mount Hood wilderness, adds 
more wild and scenic rivers, and provides a recreation area to allow 
diverse recreational opportunities.
    Our bill protects the lower elevation forests surrounding Mount 
Hood and the Columbia River Gorge. The protected areas include vistas 
as Lewis and Clark would have seen them--more than 128,000 acres of 
wilderness and the addition of nine free-flowing stretches of rivers to 
the National Wild and Scenic River System.
    From what I and Senator Smith have been hearing about our 
legislation and the places that we have proposed for wilderness 
protection, I think we've gotten it right.
    In the 22 years that have elapsed since any new wilderness has been 
designated in the Mount Hood area, the population in local counties has 
increased significantly--25% in Multnomah County, 24% in Hood River 
County, and 28% in Clackamas County. The Mount Hood National Forest is 
the seventh most visited National Forest in the United States.
    The increased visitation and population growth raise a number of 
important issues that we have tried to address in this bill. We did 
this by adding the most desired areas for protection while providing 
for increased resources and opportunities to maximize recreational 
opportunities.
    This legislation responds to the thousands of comments I received 
on both of my previous bills.
    Overall we heard the desire for MORE wilderness and more recreation 
opportunities: There are currently 189,200 acres of designated 
wilderness on the Mount Hood National Forest. S. 647 would increases 
that amount by designating approximately 128,600 new acres of 
wilderness.
    In response to the valid concerns raised by mountain bikers that 
their use of the mountain not be unfairly curtailed, we proposed the 
National Recreation Area. This area was so popular in our last bill, 
that Senator Smith and I decide to greatly expand it to include 34,640 
acres--an increase of over 16,700 acres. It will offer greater, 
permanent environmental protections to those beautiful areas, while 
providing mountain bikers, and other recreational users, an opportunity 
to continue to recreate in these areas.
    Our proposal seeks to protect over 79 miles of wild and scenic 
rivers on nine free flowing rivers. This includes some of the most 
pristine and beautiful rivers in Oregon.
    Protection for the undeveloped North side of the mountain is also a 
key aspect of our legislation--Senator Smith and I sought to honor the 
community-driven solution to development challenges by providing for 
key land exchanges, with adequate safeguards.
    To address concerns on forest health our bill offers protections 
for healthy, older trees that are the most resistant to fire and 
disease while directing thinning and restoration work on the enormous 
backlog of over-crowded, plantation, second-growth. My bill includes 
provisions that would give the Forest Service a mandate to prepare an 
assessment for promoting forests resilient to fire, insects and 
disease. This also includes provisions to study and encourage the 
development of biomass in conjunction with forest health work.
    I have also incorporated provisions on local and tribal 
relationships emphasizing the rich history of the Mount Hood region and 
affirming the rights of Native peoples to access the mountains 
resources, as they have for generations.
    I look forward to passing this legislation through committee and by 
the full Senate, and seeing its swift adoption by Congress thereafter. 
Then the grandeur of Mount Hood and other Oregon treasures can be 
assured for future generations.

        STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Senator Wyden. I am so grateful 
for your undaunted commitment of finding a workable solution to 
protecting Mount Hood for current and future generations of 
Oregonians.
    This is the third hearing on Mount Hood wilderness, and 
we've come a long way towards reaching a legislative solution 
that takes into consideration the many users of the Mountain.
    Mount Hood is an icon of our State. As such, it is also 
emblematic of the conflict between various uses of, and visions 
for, public land. Oregon is at a significant crossroads. Our 
counties face an uncertain future with respect to safety net 
payments for timber receipt sharing. Implementation of the 
Northwest Forest Plan is now 10 years late, is now only 
beginning to fully materialize, and a recovery plan for the 
threatened Spotted Owl is 17 years late, but it is in its draft 
phase.
    All of these challenges require a balanced and long-term 
vision and I believe this Mount Hood legislation achieves both. 
I'm sensitive to the need for more sustainable and predictable 
levels of timber harvest from the Mount Hood National Forest. 
Last year the forest harvested less than 6 percent of what it 
did in 1984.
    In this bill we work to protect areas with high 
recreational and scenic value without impacting the need to 
treat areas at high risk of wild fire and areas allocated for 
timber use under the Northwest Forest Plan. Since last year's 
bill, we have removed numerous areas from both wilderness and 
national recreation areas that posed conflict between 
management and protection. We've also expanded the National 
Recreation Areas. I believe this could be a unique tool to 
protect land for recreation without protecting it from 
recreationists. This means that mountain biker and snowmobilers 
will be able to enjoy the vast tracks of protected landscape.
    The last thing I want to mention is the tribal components 
of this legislation. I understand that there are some technical 
changes, and perhaps others, for other interests to ensure--in 
this case, that of the Warm Springs tribe--that this bill will 
be helpful and not harmful to their interests on the mountain, 
in terms of huckleberry gathering, spiritual use, and 
transportation planning. I want the tribe to know that I agree 
with their suggestions and will work to clear them on both 
sides of the aisle.
    I also want to credit members of the Oregon House 
Delegation for their work that they have done on this issue. It 
has been considerable and it is admirable. I regret that we 
were not able to reach final agreement last Congress, but the 
work goes on and I think we will finish this time. We have to 
legislate the possible not the perfect. My door and my mind are 
open to any and all possibilities of reaching unanimous support 
from the entire Oregon congressional delegation.
    With that, Mr. Chairman, I thank you.
    Senator Wyden. I thank my colleague and look forward to 
getting this legislation passed.
    Senator Thomas.
    Senator Thomas. I gave you my time.
    Senator Wyden. Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
you hearing today two bills that relate to a rural electric 
cooperative in the Eastern part of the State of Alaska.
    This is the Copper Valley Electric Association, or CVEA; 
they had constructed their power lines across rights-of-way 
from the Federal Government that at the time they believed to 
be valid. Today, they've been led to believe, that the 
Government's rights-of-way are invalid, and they are liable to 
Native alottees for damages in trespass.
    CVEA is a rural electric co-op that began in 1952, prior to 
Statehood. It's been delivering electricity to its customers 
since 1959, and it's served the part of the State centered in 
Glenn Allen, other communities in the Wrangell St. Alias 
National Park area, and it's also providing electricity to 
Valdez. It serves about 3,600 people in the State.
    As a member-owned cooperative, we know that its liabilities 
are passed along to its rate payers, many of whom are Alaska 
Natives, and very few are particularly wealthy. We're talking 
about unemployment rates in this part of the State in the 10 to 
11 percent range. Median personal incomes in the service area 
range from $28,000 a year to $34,000 a year, just to give you a 
sense of the part of the State that we're talking about.
    The Alaska Allotment Act of 1906 authorized the Secretary 
of the Interior to allot not more than 160 acres of land in 
Alaska to Alaska Natives as a homestead. Now, this Act was 
repealed by the Native Claims Settlement Act of 1971, but the 
pending allotment applications were grandfathered at that time.
    In 1980, Congress legislatively approved all but a few 
pending allotments because the BLM adjudication process was 
bogged down, and the process was potentially going to take 
decades to conclude. These allotments were approved subject to 
valid existing rights-of-way, which CVEA's rights-of-way were 
assumed to be.
    Then in 1986, the Interior Board of Land Appeals applied 
the doctrine of relation-back to rights-of-way, such as CVEA's 
to Alaska Native allotments. This decision effectively voids 
CVEA rights-of-way where Native use and occupancy is claimed to 
predate the date that CVEA was granted its rights-of-way.
    We've got 14 cases where this theory of relation-back was 
applied. Since the IBLA rulings, the Bureau of Indian Affairs 
has engaged in periodic efforts to levy trespass claims against 
CVEA. The BIA, through real estate contractors, has also 
periodically threatened litigation to either void these rights-
of-way or to collect on alleged trespass claims. Needless to 
say, this has been very costly and very disruptive to CVEA.
    The threat of further litigation has been held in abeyance 
while Congress considers the legislation that we have before 
this subcommittee today. It was at Senator Stevens' request 
that the GAO looked into the situation, and validated the 
facts, and the need for a legislative solution, through which 
the rights-of-way of Copper Valley Electric are validated and 
the cost of compensating the alottees is borne by the Federal 
Government on which Copper Valley relied, in constructing their 
electrical system.
    I would like to submit that report for the record.* I would 
also ask that the written testimony of Copper Valley Electric 
Association be submitted for the record. They weren't able to 
fly back for the hearing, but they do appreciate, a great deal, 
that you have scheduled this hearing today.
---------------------------------------------------------------------------
    * The information referred to follows has been retained in 
subcommittee files.
---------------------------------------------------------------------------
    I thank you and look forward to hearing from the witnesses 
this afternoon.
    Senator Wyden. Without objection, we'll enter those 
documents into the record. Just as we figured out the old-
growth issue yesterday with the help of Mr. Gladics and those 
numerous forestry encyclopedias he carries around, we'll go to 
work on your legislation and I look forward to working with my 
friend from Alaska.
    All right. Let's do some brief administrative matters. We'd 
like each witness to summarize the key points of their 
testimony and to limit their remarks to about 5 minutes; 
written statements will be included, in full, in the record.
    I think next up in our panel is Mr. Moe with the National 
Trust for Historic Preservation. He has asked that he be 
allowed to go first and receive questions, as he has to depart 
for an early flight.
    Mr. Rey is here; is that acceptable to you, Mr. Rey? Thank 
you for your courtesy.
    Let's bring Mr. Moe up, who has done wonderful work in the 
public interest for many, many years. We welcome him and 
recognize the good work of the Trust. I'll let us hear from Mr. 
Moe first. Then let the Senators proceed to their questions. 
Then we will go next to Mr. Rey.
    Mr. Moe, welcome.

    STATEMENT OF RICHARD MOE, PRESIDENT, NATIONAL TRUST FOR 
                     HISTORIC PRESERVATION

    Mr. Moe. Thank you very much, Mr. Chairman. My name is 
Richard Moe, and I'm president of the National Trust for 
Historic Preservation. I very much appreciate your scheduling 
this hearing and accommodating my flight. I'm very grateful.
    I'm speaking to you today in support of S. 1139, a bill 
introduced by Senator Bingaman, that would recognize the 
National Landscape Conservation System. These are the lands 
that comprise the crown jewels of the Bureau of Land Management 
inventory. The National Trust is very pleased and grateful that 
Senator Bingaman, together with Senator Salazar, is leading the 
effort to codify this system.
    The National Landscape Conservation System is really a 
network of the last places where you can experience the history 
and the wild beauty of the American West. The 26-million acre 
system was established by the Secretary of the Interior in 
2000, to recognize and protect the most significant of the 
lands and waters managed by BLM.
    The Conservation System brings together, really, the crown 
jewels of BLM's 264 million acres. Specifically, all of the 
National Monuments, the National Conservation areas, the Wild 
and Scenic Rivers, the National Scenic and Historic Trails, and 
the wilderness and wilderness study areas. With more than 866 
individual units, it comprises 10 percent of the land managed 
by BLM.
    S. 1139 is a very simple piece of legislation that would 
codify the system, which has been administratively supported by 
recent Presidents, but it has not yet received the 
congressional stamp of approval. Currently it exists as an 
administrative function of the Agency, and codification, in our 
view, would provide it with additional recognition.
    Americans want these conservation lands preserved, but only 
Congress can protect them with the sound standard of a 
permanent National system. Codification will recognize a 
single, unifying system in which these extraordinary lands will 
belong, raising the profile of these outstanding areas instead 
of each unit standing alone.
    Like many Americans, I thought for a long time that 
historic preservation was about saving grand old historic 
architectural landmarks. There's no question that there's a lot 
to that. But, the more time I spent in the West--and I spend a 
good deal of time in the West--the more I realize that 
preservation is much more than that.
    It's also about the very first imprints that man made on 
the land--the rock art, the cliff dwellings, the pueblos, the 
kivas, and the other remnants of the earliest civilizations 
that flourished here. These cultural resources represent the 
opening chapters in the story that is America. They represent 
the heritage of the first Americans, and that's our part of our 
common heritage.
    Canyons of the Ancients National Monument is in the far 
Southwestern corner of Colorado. The mesas and canyons of this 
place encompass an incredibly rich collection of archeological 
sites. More than 6,000 have already been recorded and thousands 
more are believed to exist, up to 300 sites per square mile in 
some areas, the highest known density of archeology in the 
United States.
    The full sweep of the region's history can be traced in 
this landscape, from the early ranchers whose descendants still 
live here, all the way back to the ancient hunters who crossed 
the area 10,000 years ago. I wish every American could 
experience the Canyons of the Ancients. I spent a lot of time 
there and believe me, there's no place like it.
    At Canyons of the Ancients, the sheer size and remoteness 
of the place puts many of these important resources at risk. 
The Monument spreads across 164,000 acres, that's more than 256 
square miles, or almost twice the land area of the city of 
Denver. One ranger is responsible for law enforcement in that 
vast area, so it's practically impossible to prevent vandalism, 
looting, and other activities that damage or destroy the 
resources that are both fragile and irreplaceable.
    Agua Fria National Monument is located 40 miles north of 
Phoenix. While it's not nearly as large as Canyons of the 
Ancients, Agua Fria is abundantly rich in archeological 
resources, including more than 130 pueblo sites, stone forts, 
terraced agricultural fields, and a stunning array of rock art.
    Remoteness is not the problem at Agua Fria; in fact, it's 
just the opposite. Because of its close proximity to Phoenix, 
the monument is experiencing explosive growth in visitation, 
from 15,000 visitors in 2000 to 77,000 in 2004, a five-fold 
increase in just 4 years. And again, there's only one ranger to 
protect the resources from the looting and the vandalism that 
are on the increase.
    So, I urge your support, Mr. Chairman and members of the 
subcommittee, for this important legislation. Official 
statutory status would raise the recognition of these unique 
cultural and natural resources. This obviously does not mean 
that BLM should abandon its multiple-use mandate; on the 
contrary, clearly, people should have wide access to them and 
be able to enjoy them. In fact, codification of the 
conservation system would not impact private in-holdings or 
lands managed by other agencies, would not alter existing oil 
and gas or grazing leases or other grandfathered uses, would 
not limit access or activities, such as fishing or hunting, or 
in any way affect units that are co-managed with other Federal 
agencies.
    As only BLM lands would be included in the system, it would 
not affect the underlying enabling legislation for individual 
units. The National Landscape Conservation System includes 
landscapes that allow us to see the West through the eyes of 
its original inhabitants, or as it appeared to the first 
European explorers and settlers. They also include the tangible 
remains of thousands of years of human interaction with the 
land, ranging from the ruins of prehistoric Native American 
pueblos to the wagon ruts left by westward bound pioneers, and 
the remnants of mine shafts and farm houses left by those who 
sought to make a living out of the rock and soil of the Western 
frontier.
    Whether natural or cultural, these resources open windows 
to the past, often a glimpse, often the only glimpse available 
to us, of the people who were here before us, the land they 
found here, and the lives they lived on it.
    S. 1139, Mr. Chairman, will permanently establish, perhaps 
the last great American system of protected lands. By enacting 
codification legislation, Congress will ensure the system's 
permanence and an enduring legacy of the West's natural and 
cultural heritage for future generations.
    Finally, Mr. Chairman, I have a letter of support from 45 
national regional organizations supporting this legislation, 
and I would ask that it be submitted for the record.
    Thank you, sir.
    [The prepared statement of Mr. Moe follows:]
   Prepared Statement of Richard Moe, President, National Trust for 
                         Historic Preservation
    Mr. Chairman and members of the Subcommittee, my name is Richard 
Moe and I am the President of the National Trust for Historic 
Preservation. I am speaking to you today in support of S. 1139, a bill 
introduced by Senator Bingaman that would recognize the National 
Landscape Conservation System, lands that comprise the crown jewels of 
the Bureau of Land Management (BLM) inventory. The National Trust is 
very pleased and grateful that Senator Bingaman, along with Senator 
Salazar, is leading the effort to codify the Conservation System and I 
urge your support for this measure.
                    background on the national trust
    For more than 50 years, the National Trust for Historic 
Preservation has been helping to protect the nation's historic 
resources. Chartered by Congress in 1949, the National Trust is a 
private, nonprofit membership organization dedicated to protecting the 
irreplaceable. Recipient of the National Humanities Medal, the Trust 
leads a vigorous preservation movement that is saving the best of our 
past for the future by preserving America's diverse historic places and 
revitalizing communities. Its Washington, DC headquarters staff, six 
regional offices and 29 historic sites work with the Trust's quarter-
million members and thousands of local community groups in all 50 
states. Its mission has expanded since its founding in 1949 just as the 
need for historic preservation has grown. When historic places are 
destroyed or allowed to deteriorate we lose a part of our past forever.
                  s. 1139 and the conservation system
    S. 1139 provides an important Congressional stamp of approval by 
affording the BLM's National Landscape Conservation System permanent 
statutory recognition. Like many Americans, I thought for a long time 
that historic preservation was just about saving grand historic and 
architectural landmarks. There is no question that this is part of what 
preservation is all about. But the more time I have spent in the West, 
the more I have realized that preservation is much more than that. It 
is also about the very first imprints that man made on the land--the 
rock art, cliff dwellings, pueblos, kivas and other remnants of the 
earliest civilizations that flourished there. These cultural resources, 
mostly found in the West, represent the opening chapters in the story 
of America. They represent the heritage of the first Americans and thus 
are part of our heritage as well. Not all of these tremendous places 
are in the Conservation System's inventory, but those that are 
represent the top tier of this country's acreage under the Bureau of 
Land Management.
    The National Landscape Conservation System is a network of the last 
places where you can experience the history and wild beauty of the 
American West. The 26-million-acre System was established by the 
Secretary of the Interior in 2000 to recognize and protect the best of 
the lands and waters managed by the Bureau of Land Management. The 
Conservation System brings together the crown jewels of BLM's 264 
million acres--specifically, all the agency's National Monuments, 
National Conservation Areas, Wild and Scenic Rivers, National Scenic 
and Historic Trails, Wilderness, and Wilderness Study Areas. With more 
than 866 individual units, it comprises 10 percent of the land managed 
by the BLM.
    Formal codification would provide the System with the heightened 
recognition it deserves. Without authorization, there currently is no 
guarantee that the System will be around five years from now.
                    icons of the american experience
    This month we celebrate the 400th anniversary of the founding of 
Jamestown, the first permanent settlement in English-speaking America. 
But, for thousands of years before the first Europeans arrived, there 
were people on this continent who represented highly developed 
civilizations and who were proficient in art, architecture, agriculture 
and astronomy. These were the first Americans, and their story is also 
part of our common heritage. The National Landscape Conservation System 
contains a number of important areas rich in artifacts from these 
civilizations. Let me share with you two examples.
    Canyons of the Ancients National Monument lies in the far 
southwestern corner of Colorado. The mesas and canyons of this place 
encompass an incredibly rich collection of archaeological sites. More 
than 6,000 have been recorded, and thousands more are believed to 
exist--up to 300 sites per square mile in some areas, the highest known 
density in the United States. The full sweep of the region's history 
can be traced in this landscape--from the early ranchers whose 
descendants still live here, all the way back to the ancient hunters 
who crossed the area 10,000 years ago. I wish every American could 
experience Canyons of the Ancients. There is no other place like it.
    The Agua Fria National Monument is located 40 miles north of 
Phoenix. While it's not nearly as large as Canyons of the Ancients, 
Agua Fria is abundantly rich in archaeological resources, including 
more than 130 pueblo sites, stone forts, terraced agricultural fields 
and a stunning array of rock art. Scientists have linked many of these 
sites to the Perry Mesa Tradition, a previously unknown culture that 
flourished here from 500 to 700 years ago. More recent history is 
reflected in the remnants of Basque sheepherders' camps, mining 
structures and military sites--all scattered across a landscape that 
makes the monument a scenic, as well as cultural, treasure.
    I urge your support of Senator Bingaman's legislation before the 
Subcommittee today. Congress should codify the Conservation System. 
Official statutory basis would raise recognition of the unique 
archeological and cultural resources of the Conservation System. This 
does not mean that BLM must abandon its traditional multiple-use 
mandate. Clearly, people should have wide access to BLM lands and be 
able to enjoy them. In fact, Codification of the Conservation System 
would not impact private in-holdings or lands managed by other 
agencies; alter existing oil and gas or grazing leases or other 
grandfathered uses; limit public access or activities such as fishing 
and hunting; or in any way affect units that are co-managed with other 
federal agencies, as only BLM lands would be included in the System. It 
would not affect the underlying enabling legislation for individual 
units.
                               conclusion
    The National Landscape Conservation System includes landscapes that 
allow us to see the West through the eyes of its original inhabitants, 
or as it appeared to the first European explorers and settlers. It also 
includes the tangible remains of thousands of years of human 
interaction with the land, ranging from the ruins of prehistoric Native 
American pueblos to the wagon ruts left by westward-bound pioneers and 
the remnants of mineshafts and farmhouses left by those who sought to 
make a living out of the rock and soil of the Western frontier. Whether 
natural or cultural, these resources open windows to the past, offering 
a glimpse--often the only glimpse available to us--of the people who 
were here before us, the land they found here and the lives they lived 
on it.
    S. 1139 will Congressionally recognize perhaps the last great 
American system of protected lands. By enacting codifying legislation, 
Congress will ensure the System's permanence and an enduring legacy of 
the West's natural and cultural heritage for future generations.

    Senator Wyden. Without objection, it's so ordered.
    Colleagues, any questions?
    Senator Thomas. Yes, Mr. Chairman. Just generally, I 
understand, and I don't have any particular problems with this, 
but the National Landscape Conservation System was established 
by the Department in 2000. This bill does not create any new 
management authority or doesn't change the authorities at all, 
so I guess I ask: why is it necessary to do this? It's already 
Federal property, it's already designated, so, why are we doing 
this?
    Mr. Moe. Well, as I tried to indicate in my statement, 
Senator Thomas, we're hopeful that by creating a unified system 
of Federal lands that have particular significance, we're 
asking the Congress to recognize that not all BLM lands are 
created equally.
    Senator Thomas. Well, this is already called the National 
Landscape Conservation System.
    Mr. Moe. Yes, but we're hopeful that with this 
congressional imprimatur that, ultimately, greater funding will 
come to these units, greater protection will come to these 
units, that there's no question. But that they need greater 
attention than some of the other BLM lands that don't receive 
this attention.
    Senator Thomas. Okay. Thank you.
    Mr. Moe. Thank you, sir.
    Senator Wyden. Mr. Moe, Godspeed, you do awfully good work. 
Chairman Bingaman has made it clear that this is an important 
piece of legislation, as has Senator Salazar. I'm going to 
support it fully and work closely with my colleagues and 
continue to prosecute the good cause that you represent for the 
Historic Trust.
    Mr. Moe. Thank you, Mr. Chairman, very much.
    Senator Wyden. Thank you.
    Okay. Our next panel is the Honorable Mark Rey, Under 
Secretary, Natural Resources and Environment, Department of 
Agriculture and Mr. Jim Hughes, Acting Director, Bureau of Land 
Management at the Department of the Interior.
    Gentlemen, welcome.
    Let us start with Mr. Rey, a frequent testifier at this 
subcommittee and this committee. Welcome.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
             ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. It seems like just yesterday that I was here last.
    Mr. Chairman, members of the subcommittee, I appreciate the 
opportunity to appear before you today, to provide the 
Department's views on S. 647, the Lewis and Clark Mount Hood 
Wilderness Act of 2007.
    The administration recognizes that the bill's sponsors have 
conducted a considerable amount of outreach and work with a 
number of communities of interest, including local and State 
governmental entities, tribes, profit and non-profit 
organizations, and individuals in the development of S. 647.
    Last year the administration testified in hearings on two 
bills concerning the management of lands in and around Mount 
Hood, S. 3854 and H.R. 5025. We're gratified that a number of 
the suggestions offered at that time have been considered in S. 
647 and it is preferable to last year's Senate bill. However, 
we still have concerns regarding several provisions, which 
preclude our support for the bill, as presently written.
    The administration supports many of the concepts and 
provisions of the bill, including some of the Wilderness 
designations and most of the Wild and Scenic River 
designations, as well as the attention focused on recreation, 
watershed and forest health, and transportation issues on, and 
around, Mount Hood. We'd like to work with the committee and 
the bill sponsors to correct a number of technical items, and 
to resolve remaining concerns regarding the legislation.
    Including: first, the effects of some of the wilderness 
proposals; second, special use fee retention; third, 
restrictive management requirements on the Crystal Springs 
Watershed Management Unit; fourth, the requirement to enter 
into a land exchange, that in our consideration, is not in the 
public interest; and, finally, the requirement to undertake 
procedures required by the National Environmental Policy Act, 
and other laws, for a legislative land exchange when the 
statute leaves no discretion to take into consideration the 
information obtained by those procedures.
    The bill also authorizes approximately $2 million in 
appropriations and many new management activities without 
identifying sources of funding or proposed offsets. It requires 
some 20 different types of plans, studies, and management 
activities, without consideration for coordinating those with 
ongoing forest or regional priorities. It also sets a number of 
timelines that may be unachievable, given the volume of work, 
current staffing, and requirements for third-party 
participation desired in the bill.
    We, nevertheless, look forward to continuing to work with 
the committee and the bill's sponsors in the interest of seeing 
legislation enacted in this Congress.
    In addition to testimony on S. 647, the administration 
supports enactment of H.R. 356, to remove certain restrictions 
on the Mammoth Community Water District's ability to use 
certain property acquired by that District from the United 
States.
    The details of our remaining concerns with S. 647 are 
provided in my testimony for the record. With that summary, I 
will yield to Mr. Hughes.
    [The prepared statement of Mr. Rey follows:]
Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you to today to provide the Department's 
views on the bills which are on the agenda today.
     s. 647--the lewis and clark mount hood wilderness act of 2007
    The Lewis and Clark Mount Hood Wilderness Act of 2007 provides 
management direction for Mount Hood and its surrounding landscapes that 
emphasizes the importance of wilderness, recreation, and forest health, 
as well as cultural, historical, environmental and scenic values.
    The Administration recognizes that the bill's sponsors have 
conducted a considerable amount of outreach and worked with a number of 
communities of interest including local and state governmental 
entities, tribes, profit and non-profit organizations and individuals 
in the development of S. 647.
    Last year, the Administration testified in hearings on two bills 
concerning the management of lands in and around Mount Hood: S. 3854 
and H.R. 5025. We are gratified that several of the suggestions offered 
at that time have been considered in S. 647, and it is preferable to 
last year's Senate bill. However, we still have critical concerns 
regarding several provisions which precludes our support for the bill 
as written.
    Several of the provisions continue to be highly prescriptive and 
limiting, and we believe, could benefit from additional collaboration 
among all stakeholders. While we strongly support public involvement 
and community collaboration, the concept of legislating management 
direction is problematic. We find the land exchange provisions and 
several of the wilderness designations to be especially troubling. We 
would like to work with this committee and the sponsors to ensure that 
existing legal and cooperative frameworks for decision-making continue 
to be honored as we seek to meet the goals of the legislation.
                                overview
    S. 647 would expand the National Wilderness Preservation System and 
the National Wild and Scenic Rivers System, and designate national 
recreation areas, and a special resources management unit. It would 
provide for the retention of fees from recreation and other special 
uses and establish a recreational working group.
    In addition, the bill would direct the Secretary to work with 
State, local, and other Federal governments to develop an integrated 
multi-modal transportation plan, and, with the State of Oregon, study 
the feasibility of establishing a gondola connection and a multi-modal 
transportation center located near Government Camp.
    The bill would require the Secretary of Agriculture to conduct a 
Forest Stewardship Assessment to address forest health, to establish 
Memoranda of Understanding for watershed management between the Forest 
Service and irrigation districts or municipalities and to study long-
term biomass available on the Mount Hood National Forest. The bill 
would direct the Secretary to establish priority-use areas and provide 
for the gathering of first foods by members of Indian tribes with 
treaty-reserved gathering rights.
    The bill would require the Secretary to enter into specified land 
exchanges with private landowners and directs the Secretary to publish 
a prospectus to operate a ski area and inn that would be acquired in an 
exchange.
                                analysis
    The Administration supports many of the concepts and provisions of 
this bill, including some wilderness and wild and scenic river 
designations, and the attention focused on recreation, watershed and 
forest health and transportation issues on and around Mount Hood.
    We would like to work with the committee and sponsors to correct 
technical items and resolve concerns regarding the legislation 
including: 1) effects of some of the wilderness proposals; 2) special 
use fee retention; 3) restrictive management requirements of the 
Crystal Springs Watershed Management Unit; 4) the requirement to enter 
into a land exchange that, in our consideration, is not in the public 
interest; and 5) the requirement to undertake procedures required by 
the National Environmental Policy Act, the Endangered Species Act, and 
other laws for a legislated land exchange when the statute leaves no 
discretion to take into consideration the information obtained by these 
procedures.
    The bill also authorizes approximately $2 million in appropriations 
and many new management activities without identifying sources of 
funding or proposed offsets. It requires some 20 different types of 
plans, studies, and management activities without consideration for 
ongoing forest or regional priorities. It sets multiple timelines that 
are unachievable given the volume of work, current staffing, and 
requirements for third party participation.
                               wilderness
    S. 647 proposes to designate approximately 128,800 new acres of 
wilderness on the Mount Hood National Forest, and about 1,700 acres of 
wilderness on adjacent lands managed by the Bureau of Land Management. 
The Administration would support the designation of wilderness for 
areas that are consistent with the hallmarks of wilderness described in 
the Wilderness Act of 1964--areas dominated by the forces of nature, 
with primeval character and natural conditions that contrast with 
developed lands and offering outstanding opportunities for solitude or 
primitive and unconfined recreation.
    The best opportunities for achieving these conditions are within 
those proposed areas that are contiguous to existing wilderness areas. 
The additions that, in our opinion, could enhance existing wilderness 
areas include approximately 59,000 acres consisting of the following: 
Bull of the Woods (5,400 acres), Mount Hood (2,000 acres), Salmon-
Huckleberry (7,700 acres), Roaring River (31,000 acres), and Gorge Face 
(12,500 acres).
    We would like to work with the committee to seek agreement on 
mapping changes that would provide more manageable boundary locations 
and enhance the overall wilderness character of the proposed 
wildernesses. We also seek the flexibility in legislative language to 
make minor boundary adjustments prior to survey to exclude 
nonconforming uses such as power lines, roads and existing permitted 
operations. In addition, we understand that some of the maps referenced 
in the legislation have been modified since the bill was first 
introduced, and bill language should be amended to reflect the changes.
    We have specific concerns with other proposed wilderness 
designation including many of the smaller, isolated areas. These areas 
are currently managed for values and uses that are inconsistent with 
wilderness designation, including motorized access. Examples of 
proposed wilderness with limited or impaired wilderness character would 
include areas close to I-84 and Highways 35 and 26, and small 
extrusions and peninsulas extending from existing wilderness and from 
some of the proposed new wilderness. We believe these proposed areas 
would be adversely impacted from adjacent activities or from activities 
associated with the continuation of existing uses, such as mountain 
biking and motorized camping. We would like to work with the committee 
to explore alternatives that could meet the intent of protecting these 
areas for future generations short of wilderness designation.
    S. 647 proposes new wilderness within the boundary of the Columbia 
River Gorge National Scenic Area (CRGNSA) designated by Congress in 
1986. Most of the area within the CRGNSA covered under the bill is 
adjacent to urbanized areas and significant infrastructure (such as the 
cities of Hood River, Bonneville, and Cascade Locks, the unincorporated 
communities of Dodson and Warrendale, Bonneville Power Administration's 
high voltage power lines that traverse and transect the Gorge, 
Interstate 84, and the Union Pacific Rail Line). We believe that 
adjacent land uses, in conjunction with special provisions for existing 
rights such as the Army Corps of Engineers permit related to Bonneville 
Dam, could potentially conflict with and compromise the wilderness 
character of the proposed Gorge Face Wilderness. The CRGNSA designation 
has been highly successful in protecting and enhancing the scenic, 
cultural, and natural and recreation resources of the area while 
accommodating economic development consistent with these purposes.
    Section 106 would require the Secretary to construct a system of 
defensible fuel profile zones. Significant intergovernmental agency and 
community involvement has resulted in the development of the City of 
Cascade Locks Community and the Clackamas County Community Wildfire 
Protection Plans, completed in 2005. Implementation is being planned by 
the Forest Service and these partners at this time. However, it would 
be difficult to implement the proposed zones in a manner consistent 
with the Mount Hood National Forest Management Plan. The area around 
Government Camp is spotted owl habitat. Previous fuel reduction 
projects in this vicinity have been limited because effective treatment 
would change the stand composition, conflicting with spotted owl 
habitat. More flexibility in bill language would address this concern.
                    wild & scenic river designations
    The Department supports the wild and scenic river designations 
proposed by S. 647, with the exception of the Fifteen Mile Creek and 
the East Fork Hood River. The former did not rise to a level of 
significance for a wild and scenic river eligibility study during the 
Land and Resource Management Planning process and we believe it still 
does not merit further consideration. The East Fork Hood River was 
determined not a suitable addition to the National Wild and Scenic 
Rivers System in the Mount Hood Land and Resource Management Plan. The 
paragraphs amending Section 3(a) of the Wild and Scenic Rivers Act 
should not be numbered, and several river-specific proposals require 
further clarification. We look forward to working with the committee to 
address these concerns.
    The Forest Service is also concerned about its ability to protect 
wild and scenic river values with regard to particular wild and scenic 
river boundary locations; the language relative to water rights and 
flow requirements; culverts; and treatment of State highways. We prefer 
that the boundaries be adjusted to exclude potentially nonconforming 
activities to protect the values associated with these special 
resources. We would like to work with the committee on amendments to 
address these concerns.
                               recreation
    Title IX of the bill would, for a 10-year period, provide for 
retention of land use fees from special use authorizations, recreation 
residences, resorts (including winter recreation resorts), 
communication uses, linear rights-of-way, and other special uses. 
Revenues would be held in a special account for expenditure toward a 
variety of purposes, such as installation, repair, maintenance, and 
enhancement related to visitor enjoyment, access, and health and 
safety.
    We recognize the importance of outdoor recreation to the social and 
economic well-being of the Mount Hood region today and into the future. 
We share the sponsors' concerns with the challenges of managing complex 
and often conflicting recreation values and uses. However, the new fee 
retention authority for the Mount Hood National Forest as specified in 
the legislation is objectionable. The inclusion of new authority for 
retention and expenditure of land use fees would result in a loss of 
Treasury receipts which are used to fund ongoing programs.
    The proposed legislation would provide for the establishment of a 
Mount Hood National Forest Recreational Working Group that would be 
exempt from the Federal Advisory Committee Act (FACA). This working 
group would provide advice on planning and implementing recreational 
enhancements on the Mount Hood National Forest, including advice on how 
the retained fees should be expended. The FLREA already requires the 
creation of a Recreational Advisory Committee, with similar membership. 
We believe creation of any additional advisory council would be 
administratively burdensome and costly and would like to work with the 
Committee to develop a means to address the objectives of this 
provision.
    S. 647 would designate a Mount Hood National Recreation Area (NRA). 
The Administration supports this designation, which recognizes the 
variety of recreational activities that visitors currently enjoy in the 
proposed area. We also appreciate the significant changes in language 
reflected in this bill in response to Administration concerns with 
language in previous versions. We suggest that some of the smaller 
isolated tracts now proposed for wilderness would be better protected 
as additions to the proposed national recreation areas as an 
alternative to wilderness designation.
    The bill proposes only the Mount Hood NRA, although the maps 
reference two additional national recreation areas: the Fifteenmile 
Creek NRA, and the Shellrock Mountain NRA. As mapped, the Mount Hood 
NRA overlaps the proposed Badger Creek Wilderness (3,004 acres), the 
proposed Barlow Butte Wilderness Area (1,973 acres) and the proposed 
Twin Lakes Wilderness Area (6,359 acres). This dual designation would 
prove difficult to manage and could also be confusing to the public. We 
suggest that national recreation area designation for all of these 
areas is most appropriate. The bill should be amended to reflect the 
designation of the three separate national recreation areas referenced 
on the maps.
                             transportation
    The Administration supports collaboratively participating with the 
State of Oregon, local governments, and Federal departments in the 
development of a comprehensive, multi-modal transportation strategy for 
the Mount Hood region. We do not support language contained in Section 
402(e), which assigns responsibility for the transportation plan to the 
Secretary, or Section 402(f) which authorizes the appropriation of $2 
million to carry out the section. Existing funding mechanisms under 
section 1117 of the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU) (P.L. 109-
59) are already available to the Oregon Department of Transportation to 
address transportation planning. Indeed, the Mount Hood National Forest 
has recently secured $100,000 of funding under section 3021 of SAFETEA-
LU for the State to begin work on preliminary planning. The 
transportation plan will include a review and compilation of all 
existing studies related to transportation in the Mount Hood region.
    In addition to the transportation plan, the bill would require the 
Secretary to conduct a study of the feasibility of establishing a 
gondola connecting Timberline Lodge to Government Camp and an inter-
modal transportation center in close proximity to Government Camp. 
Given the complexity of conducting this study, we suggest that the 
Department of Transportation has the appropriate expertise to carry it 
out.
    A 2001 gondola feasibility study conducted with funding from the 
Federal Highway Administration estimated the cost to construct a 
gondola from Government Camp to Timberline Lodge ranged from $21 to $26 
million, and estimated the cost of the gondola from Government Camp to 
Mount Hood Meadows ranged from $37 to $56 million. We do not believe 
another study of the gondola feasibility would be needed and we would 
recommend including the completed study as part of the regional 
transportation planning process.
    Section 404 authorizes the Secretary to provide State and Private 
Forestry program grants to Cascade Locks and Hood River County for the 
burial of power lines, but the use of these funds is inconsistent with 
the purposes of the State and Private Forestry program. Section 405 
allows for activities not normally permitted in designated wilderness 
and wild and scenic rivers to repair, realign, expand capacity, and 
carry out other activities for Highway 35 and any other existing State 
highway. We would like to work with the sponsors to adjust the proposed 
wilderness and wild and scenic river boundaries to reduce the need for 
these types of activities within these designations while still 
allowing the State to respond to unforeseen emergencies.
                     forest & watershed stewardship
    We support the objectives of the Forest Stewardship Assessment in 
both bills to determine forest health needs. The Forest Service is 
currently developing an integrated vegetation management approach 
similar to the approach provided for in the legislation. The ability to 
use existing information and processes would expedite developing a 
forest stewardship assessment consistent with other agency efforts. 
However, the legislation requires commencement of implementation of the 
stewardship assessment projects within a limited time frame, and the 
Department is concerned this requirement will redirect other available 
funds allocated to meet higher priority needs. The bill, if enacted, 
therefore would require the Forest Service to utilize existing funds 
and displace other, more critical, ongoing work. Again, we would like 
to work with the committee to address this concern.
    We support the concept of assessing the amount of long-term 
sustainable biomass available in the Mount Hood National Forest. The 
Forest Service has already begun a study as part of a recent memorandum 
of understanding signed by the Confederated Tribes of Warm Springs and 
others to analyze the supply of biomass for a tribal cogeneration 
plant. The bill restricts biomass material to by-products from forest 
restoration activities. We would like to work with the sponsors to 
expand the definition of biomass to be consistent with the language in 
the memorandum of understanding with the Confederated Tribes of Warm 
Springs.
                       local and tribal relations
    The bills would encourage the Secretary of Agriculture to cooperate 
with the Tribes, Federal and State entities, and local communities. We 
support this general direction. We also support the requirement to 
identify, establish, develop, and manage priority-use areas for 
gathering of first foods by member of Indian tribes with treaty 
reserved rights (as provided in section 802(a) of S. 647.
                            land conveyances
    We appreciate the sponsors' efforts to resolve long-standing 
conflicts on Mount Hood with the Cooper Spur-Government Camp land 
exchange proposal, as well as the changes in the bill to address some 
of the valuation-related concerns expressed in previous testimony.
    While we support the direction in S. 647 to use nationally 
recognized appraisal standards, the Administration objects to the 
bill's requirements that depart from those standards. The 
Administration also objects to the additional requirements that the 
date of valuation be the spring of 2005 and that appraisal be approved 
by other parties, namely the County and Mt. Hood Meadows. To protect 
the public's investment, appraisals performed for any proposed exchange 
should be done as close to the date of transaction as is feasible. 
Approval of appraisals is normally solely at the discretion of the 
Secretary. Mount Hood Meadows and Clackamas County should have the 
opportunity to provide the appraisers with market information, but 
should not share approval authority with the Secretary because of their 
potential interest in the outcome. We have a number of suggestions for 
improving the land exchange proposal.
    First, we recommend reconsideration of the requirements that the 
Forest Service would take possession of an aging infrastructure, 
solicit a new concessionaire, and be prohibited from subsequent land or 
facility adjustments, because all could be problematic.
    Second, we suggest consideration of alternative exchange lands. The 
770 acres of private lands offered to the United States at Cooper Spur 
do not have national forest characteristics. They are heavily 
disturbed, fragmented and interspersed with roads, power-lines, and 
subdivisions.
    Third, we recommend re-evaluation of the unique resource 
implications of privatizing the two parcels of land at Government Camp. 
We have other concerns regarding the Cooper Spur land exchange process 
and would like to work with the committee on amendments to address 
these concerns.
    The Administration supports the proposed exchange with the Port of 
Cascade Locks to improve the Pacific Crest National Scenic Trail. The 
administration does not object to the Hunchback Mountain exchange with 
Clackamas County. We note that this exchange would require a legislated 
adjustment to the Mt. Hood National Forest Boundary and we would work 
with the committee to address this.
    Sec. 503(f)(1) provides that it is the intent of Congress that the 
Secretary complete all legal and regulatory processes required for the 
exchange of Federal land and the non-Federal land in 16 months. This 
timeframe is unachievable given the applicable requirements for 
environmental studies, public participation, evaluation of 
alternatives, Endangered Species Act consultation, additional third-
party consultation requirements in this legislation, and the 
limitations in sharing costs with the proponents, as well as conflicts 
with the Region's existing priorities for critical land exchange work.
    In addition, the requirement that provisions with legislated 
outcomes, such as the land exchanges, be subject to participatory 
environmental laws such as the National Environmental Policy Act is not 
consistent with the requirements of such laws since there is no ability 
for the agency or the public to effect adjustments to the proposal 
because the outcome is specified in the legislation.
    The Administration could support relevant conveyances if bill 
language is amended to address these concerns.
                                summary
    In summary Mr. Chairman, while we are encouraged by the sponsor's 
efforts on behalf of the Mount Hood National Forest, the Administration 
has significant concerns with S. 647 as presently written. 
Nevertheless, we see a great potential, working with the many 
stakeholders of the region and beyond, to meet the bills objectives to 
protect for future generations the recreation opportunities and 
resource values of the Mount Hood National Forest. We believe we can 
accomplish these objectives using existing authorities as well as some 
of the provisions of the bill. We strongly support negotiated 
agreements on land management and we are committed to continuing to 
work on the sections where we have concerns.
  h.r. 356--``to remove certain restrictions on the mammoth community 
   water district's ability to use certain property acquired by that 
                   district from the united states''
    Thank you for the opportunity to present our views on this bill, 
which would remove use restrictions included in the patent the Mammoth 
County [California] Water District received when it purchased 
approximately 25 acres of land from the U.S. Forest Service [Inyo 
National Forest] in 1987. The lands were purchased at market value by 
the District for a community sewage treatment facility, which up to 
that time had been authorized under a Forest Service Special Use 
Permit. The District has since upgraded their sewage treatment system, 
and their aeration ponds are no longer necessary. The District wishes 
to convert these ponds to a more suitable community use that would be 
compatible with the adjacent sewage treatment facility, but the use 
restriction from the patent must first be lifted.
    The Department supports the bill.
    Mr. Chairman and members of the committee, this concludes my 
testimony. I am happy to answer any questions you may have at this 
time.

    Senator Wyden. Very good.
    Mr. Hughes.

   STATEMENT OF JIM HUGHES, ACTING DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Hughes. Thank you for the opportunity to testify on a 
number of bills of interest to the Department of the Interior. 
I would ask that all four of my testimonies be included in the 
record and I'll briefly summarize.
    Senator Wyden. Without objection, it is so ordered.
    Mr. Hughes. H.R. 276, the Piedras Blancas Historic Light 
Station of Outstanding Natural Area Act--the Department of the 
Interior supports H.R. 276, which would designate the Piedras 
Blancas Historic Light Station, along the Central California 
coast, as an Outstanding Natural Area.
    H.R. 276 recognizes both the historical significance of the 
Light Station and the community support for its preservation. 
In order to safeguard the buildings and public lands 
immediately surrounding them, the bill provides protections for 
the area, while encouraging and enabling active community 
support and involvement.
    S. 205 and H.R. 865, the Copper Valley Native Allotment 
Resolution Act--the Department supports the goals of S. 205 and 
the House-passed H.R. 865 and the Copper Valley Native 
Allotment Resolution Act, which would grant right-of-way for 
electric transmission lines over certain Alaska Native 
allotments.
    The GAO identified 14 specific allotments where Copper 
Valley Electric Cooperative rights-of-way conflict with Native 
alottee ownership. S. 205 and H.R. 865 would resolve the 
dispute by granting to Copper Valley a right-of-way over the 
specific allotments listed in the bill. In exchange for the 
rights-of-way granted across each of the properties, owners of 
the listed allotments would each be compensated based on the 
results of an appraisal.
    While the Department appreciates changes made to the 
legislation from last year, we do have some continuing 
concerns, most notably the issue of past compensation.
    H.R. 1139, National Landscape Conservation System Act--the 
Department supports S. 1139, a bill that would legislatively 
establish the National Landscape Conservation System in order 
to conserve, protect, and restore nationally significant 
landscapes.
    The NLCS is a significant part of the BLM's conservation 
efforts is an integral to the BLM's overall multiple-use 
mission. The bill would not alter the management of the NLCS 
individual units, which include National Conservation Areas, 
National Monuments, National Historic and Scenic Trails, Wild 
and Scenic Rivers, and designated wilderness.
    It recognizes the diverse nature of the components of the 
BLM's NLCS by directing that the units be managed in accordance 
with laws related to each individual unit. As each individual 
unit is unique, we strongly support this recognition of their 
individual management framework.
    S. 390, the Utah recreational land exchange--this Act would 
legislate a large-scale land exchange between the Bureau of 
Land Management and the State of Utah.
    We look forward to working with the sponsors and the 
committee on S. 390, and could support the bill with some 
additional modifications. S. 390 directs the exchange of lands 
between the Utah School and Institutional Trust Lands 
Administration and the BLM in Utah. Many of the lands that the 
State is proposing to transfer to the BLM are lands that the 
BLM has a high degree of interest in acquiring, because they 
would consolidate Federal ownership within wilderness study 
areas, areas of critical environmental concern, and other 
sensitive lands. We support the provisions of the bill that 
establish the phasing process for the transfer of lands from 
STLA to the BLM.
    The bill also identifies a number of parcels for transfer 
to STLA from the BLM. Some of these would improve manageability 
and encourage appropriate local development. Other lands 
identified for transfer to the School Lands from the BLM would 
have high energy potential. The Department of Interior supports 
the intent of this legislation. Large-scale land exchanges can 
resolve management issues, improve public access, and 
facilitate greater resource protection. And, we support such 
exchanges.
    To that end, we're ready to work with the committee and the 
sponsor to resolve some issues that we've outlined in our 
written testimony.
    I'd be happy to answer any questions, sir.
    [The prepared statement of Mr. Hughes follows:]
   Prepared Statement of Jim Hughes, Acting Director, Bureau of Land 
                 Management, Department of the Interior
 s. 205 and h.r. 865, the copper valley native allotment resolution act
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify on S. 205 and H.R. 865, the ``Copper Valley 
Native Allotment Resolution Act of 2007.'' The Department supports the 
goals of this legislation, which would grant rights-of-way for electric 
transmission lines over certain Alaska Native allotments but, as 
discussed in more detail below, we do have some concerns with the 
bills.
Background
    The issues related to this bill are described in detail in a 
September 2004 Government Accountability Report titled ``Alaska Native 
Allotments: Conflicts with Utility Rights-of-Way Have Not Been Resolved 
Through Existing Remedies'' (GAO-04-923). As noted in the GAO Report, 
the Department and the State of Alaska have granted rights-of-way for a 
variety of uses, including electrical transmission lines, and some of 
these rights-of-way cross Alaska Native allotments, giving rise to 
conflicts between Alaska Natives and holders of rights-of-way. One such 
holder is Copper Valley, a rural nonprofit electric cooperative which 
provides electricity to about 4,000 members in Alaska's Valdez and 
Copper River Basin areas. According to the Report, as early as 1958, 
Copper Valley obtained rights-of-way permits from Interior, and later 
from the State of Alaska, to construct and maintain electric lines. 
However, in some instances it has been determined (either by the 
Department or the Alaska Realty Consortium, which provides realty 
services for over 160 Native allotments in south-central Alaska) that 
Copper Valley is trespassing or allegedly trespassing across Alaska 
Native allotments.
    Since the late 1980s, the Department has applied the ``relation 
back'' doctrine when addressing disputes between Alaska Native 
allotments and rights-of-way holders. Under that doctrine, the rights 
of Alaska Native allottees relate back to when each first started using 
the land, not when the allotment was filed or granted. Prior to that 
time, Alaska Native allotments generally were subject to rights-of-way 
existing at the time the allotment was approved. Federal courts have 
dismissed legal challenges to Interior's use of the relation back 
doctrine because of sovereign immunity.
Discussion
    The GAO identified 14 specific allotments where Copper Valley's 
rights-of-way conflict with Native Allottee ownership. S. 205 and H.R. 
865 would resolve the dispute by granting to Copper Valley a right-of-
way over the specific allotments listed in the bill. In exchange for 
the rights-of-way granted across each of the properties, owners of the 
listed allotments would each be compensated based on the results of an 
appraisal conforming with the Uniform Appraisal Standards for Federal 
Land Acquisitions, plus interest, using the date of enactment of this 
legislation as the date of valuation. We have not yet conducted any 
appraisals, but we do not expect these costs to be significant. Senate 
bill 205 provides that compensation would be paid from the Judgment 
Fund (31 U.S.C. 1304); the House bill is silent on this issue.
    As noted above, the Department supports the resolution of this 
matter, and we appreciate changes made to the bills prior to their 
introduction this year. However, we do have some concerns with the 
legislation. As an initial matter, we have a concern in S. 205 
regarding whether this is an appropriate use of the Judgment Fund. 
Alternatively, we note that H.R. 865, which has passed the House, does 
not identify a source for compensation payments. In the absence of a 
named source, we presume that any compensation awarded under this 
legislation would be taken from programmatic funding.
    Additionally, we strongly recommend that the legislation contain 
language ensuring that the allottees are provided compensation for the 
past occupancy of the rights-of-way. We think this is an important 
issue and one that should be addressed to ensure that the allottees are 
fully compensated. We look forward to working with you on this matter.
    Thank you for the opportunity to present this testimony. I will be 
happy to answer any questions.
              s. 390, utah recreational land exchange act
    Thank you for the opportunity to testify on S. 390, the Utah 
Recreational Land Exchange Act. The bill would legislate a large-scale 
land exchange between the Bureau of Land Management (BLM) and the State 
of Utah. We strongly support the completion of major land exchanges 
with the State of Utah. We look forward to working with the sponsors 
and the Committee on S. 390 and could support the bill with some 
additional modifications. As a matter of policy, we support working 
with states to resolve land tenure and land transfer issues that 
advance worthwhile public policy objectives.
Background
    The Utah School and Institutional Trust Lands Administration 
(SITLA) manages approximately 3.5 million acres of land and 4.5 million 
acres of mineral estate within the State of Utah primarily for the 
benefit of the schools of the State of Utah. Many of these parcels are 
scattered and interspersed with public lands managed by the BLM.
    Managing 22.87 million acres of land within the State of Utah, the 
BLM's mission is to sustain the health, diversity, and productivity of 
the public lands for the use and enjoyment of present and future 
generations. As the nation's largest Federal land manager, the BLM 
administers the public lands for a wide range of multiple uses, 
including energy production, recreation, livestock grazing, 
conservation use, forestry and open space. The Federal Land Policy and 
Management Act (FLPMA) provides the BLM with a clear multiple-use 
mandate which the BLM implements through its land use planning process.
    Section 206 of FLPMA provides the BLM with the authority to 
undertake land exchanges. Exchanges allow the BLM to acquire 
environmentally-sensitive lands while transferring public lands into 
private ownership for local needs and the consolidation of scattered 
tracts. Over the past five years, throughout the bureau, nearly 550,000 
acres of public lands were disposed of through exchange, while 370,000 
acres were acquired by the BLM through this process. During this same 
time period in Utah, the BLM has disposed of 110,178 acres while 
acquiring 112,842 acres through exchange. The vast majority of this was 
completed under the direction of Congress through the Utah West Desert 
Land Exchange Act (Public Law 106-301).
    The legislation before us references maps, but not specifically 
dated maps. The most recent maps completed by the BLM last year at the 
request of the House Resources Committee are dated September 22, 2006, 
and our discussion of the bill is based on those maps.
    S. 390 directs the exchange of approximately 42,000 acres of lands 
managed by SITLA for approximately 40,000 acres of BLM-managed Federal 
lands. Many of the lands that the State is proposing to transfer to the 
BLM are lands that the BLM has a high degree of interest in acquiring 
because they would consolidate Federal ownership within wilderness 
study areas, Areas of Critical Environmental Concern, or other 
sensitive lands. Among these are:

  <bullet> 640 acres on the eastern boundary of Arches National Park 
        which will provide important viewshed protections;
  <bullet> 1,280 acres and 420 acres along the Colorado River west and 
        east of Moab which includes Corona Arch and other popular 
        recreation sites within the BLM's Colorado Riverway Management 
        Area;
  <bullet> 4,500 acres within the Castle Valley watershed which also 
        has important wildlife habitat and scenic values;
  <bullet> 2,560 acres of land currently leased by the BLM and Grand 
        County from the State for recreation-related activities 
        associated with the Sand Flats Recreation Area and the famous 
        Slickrock Mountain Bike Trail; and,
  <bullet> 800 acres within the Nine Mile Canyon containing significant 
        cultural and recreational resources.

    We support the provisions of the bill that establish a phasing 
process for the transfer of lands from SITLA to the BLM. This will 
allow BLM to prioritize the use of Federal resources in the appraisal 
and review process on the lands with the highest resource value for 
acquisition.
    The bill also identifies a number of parcels for transfer to SITLA 
from the BLM. Some of these would improve manageability and encourage 
appropriate local development, including:

  <bullet> 2,800 acres of scattered parcels near the town of Green 
        River which are suitable for private agricultural development; 
        and
  <bullet> 80 acres adjacent to Canyonlands Field municipal airport 
        operated by Grand County, Utah which are suitable for private 
        development.

    In addition, some of the lands identified for transfer to SITLA 
from the BLM have high energy potential.
Valuation Issues
    In December of 2004, former Secretary Norton issued policy guidance 
to all of the bureaus on legislative exchanges and land valuation 
issues. On December 31, 2006, Secretary Dirk Kempthorne extended the 
policy guidance until August 31, 2007. A copy of that guidance 
(Secretary of the Interior Order No. 3258A2) is included for the 
record.* This policy was developed to ensure that land transactions are 
conducted with integrity and earn public confidence.
---------------------------------------------------------------------------
    * The information referred to has been retained in subcommittee 
files.
---------------------------------------------------------------------------
    The policy states that all real property appraisals performed by 
the Department shall conform to nationally recognized appraisal 
standards (i.e., the Uniform Appraisal Standards for Federal Land 
Acquisitions (UASFLA) and the Uniform Standards of Professional 
Appraisal Practice (USPAP)). Accordingly, the policy specifically 
prohibits the use by the Department of alternative methods of valuation 
in appraisals. However, the policy recognizes there may be times when 
Congress will direct, or the Department will propose, the use of 
alternative methods of valuation other than, or in addition to a 
standard appraisal. Under the policy guidance, if Congress directs the 
Department to use an alternative method of valuation in a specific 
transaction, the Department will expressly describe the alternative 
method of valuation applied; explain how the alternative method of 
valuation differs from appraisal methods applied under the Uniform 
Appraisal Standards or the Uniform Standards of Professional Appraisal 
Practice; and, if so directed by Congress, provide this material to the 
appropriate committees prior to or after completion of the transaction, 
as required by the direction.
    The Department's Inspector General has commented on the 
Department's appraisal reform efforts. In testimony given before the 
Senate Committee on Finance in June of 2005, he commended the 
Department for the significant changes it has made to the land 
appraisal program and process.
    As stated, there are circumstances in which the Congress or the 
Administration may decide that alternative methods of valuation are 
appropriate for achieving worthwhile public policy objectives. It is 
our duty to be clear and transparent about the details of proposed 
exchanges and to be clear that an alternative method of valuation is 
being used.
    S. 390 is not an Administration legislative proposal. It is a 
legislative proposal from Congress. Its stated purpose is to facilitate 
the exchange of certain Federal lands for non-Federal lands to further 
the public interest by exchanging Federal land that has limited 
recreational and conservation resources and acquiring State trust land 
with important recreational, scenic, and conservation resources for 
permanent public management and use. To meet these legitimate public 
policy objectives, Congress may determine that alternative methods of 
valuation are consistent with the intent of the legislation.
    S. 390 directs that all appraisals shall be in accordance with the 
requirements of FLPMA and with the BLM's regulations governing 
appraisals. However, we should point out that the FLPMA subsection 
referenced in the bill (subsection 206(d)) does not relate to appraisal 
standards. Subsection 206(f) of FLPMA relates to appraisal standards. 
The bill further directs the use of two alternative methods of 
valuation for two different purposes. I will describe the Department's 
view of each of these and the relative benefits or risks of using these 
methods.
    Under Sec. 5(b)(4), the Federal government reserves a share of 
potential future revenues from any mineral resource subject to lease 
under the Mineral Leasing Act. Mineral resources leasable under the 
Mineral Leasing Act include oil and gas and oil shale. However, the 
economic viability of energy production from oil shale is currently 
unproven but is under intensive study. This reserved interest 
arrangement is common in the private sector and protects sellers from 
disposing entirely of some unknown future mineral wealth.
    Sec. 5(b)(4) requires that, for Federal lands that are not under 
mineral lease at the time of appraisal, such lands shall be valued 
without regard to the presence of any minerals that are subject to 
leasing under the Mineral Leasing Act of 1920. This provision would not 
affect the appraisals for lands that contain no mineral values. 
Additionally, it would not affect the appraisals for those lands that 
are already under Federal mineral lease. Rather this provision would 
modify standard appraisal practice by directing that the appraisal be 
completed without regard to the presence and any value contribution of 
minerals that are eligible for lease under the Mineral Leasing Act but 
are not currently leased. For such lands, the value increment 
attributable to the minerals will not be determined and will not 
contribute to the transaction value of the lands in the exchange. In 
exchange for this reduction in value, the State or its successors in 
interest to the property (by virtue of covenant language in Section 
5(b)(4)(B)) would have to agree to pay the United States 50% of 
whatever bonus or rentals are paid to the State for any mineral 
development in the future; and an amount equal to the Federal royalties 
that would have otherwise been collected by any future mineral 
development conducted pursuant to the Mineral Leasing Act, minus 
amounts that would have otherwise been due to the State under Section 
35 of that Act.
    This is a complicated methodology that departs from a standard 
appraisal and valuation practice. We note that currently under standard 
appraisals oil shale, the mineral that, in addition to oil and gas, is 
likely to be found in the unleased lands that would be conveyed to the 
State, does not factor into the value because there are no comparable 
property transactions known to be driven by the economics of oil shale 
development, or there is no reasonably foreseeable oil shale 
development on the property. The result of using a standard appraisal 
process might therefore be that properties with significant oil shale 
resources will probably have no additional value attributed to them by 
virtue of the presence of this resource. This could lead to the 
criticism that the United States is ``giving away'' potentially 
millions of dollars in oil shale. The material purpose of the 
provisions contained in section 5(b)(4) is to address that risk by 
ensuring that the United States receives the value for any future oil 
shale or other leasable mineral development it would have received if 
the Federal government had retained the lands and leased them.
    We would like to work with the Committee to further refine this 
section. In particular, we would like the bill to clarify that under 
Section 5(b)(4), the royalty rate for which the State would compensate 
the Federal government in the event that currently unleased minerals 
are eventually developed is the standard Federal onshore rate 
established at the time the resource is developed. Also, it may be more 
appropriate to narrow the scope of this provision expressly to oil 
shale and allow for an appraisal that would capture the value of any 
other leasable minerals according to general appraisal standards. In 
addition, as currently drafted, the provision conditions the use of the 
alternative method of valuation on an agreement the State would make 
after conveyance of the lands. The lands, however, cannot be conveyed 
until they are valued.
    The second alternative method of valuation is found in Sec. 
5(b)(6)(B). This provision would apply only to parcels under Federal 
mineral lease at the time of the appraisal. Clause (ii) in that 
subparagraph would direct the BLM to reduce the value of an applicable 
appraisal by an amount equal to what would be the State's share under 
Section 35 of the Mineral Leasing Act. A standard appraisal would 
consider all potential uses of the property, including but not limited 
to, mineral resource production and the resulting income stream. The 
Department understands that this provision is included to recognize 
that the Mineral Leasing Act currently provides that 50% of all the 
money received by the United States in accordance with Section 35 of 
the Mineral Leasing Act shall be paid to the State within the 
boundaries of which the leased lands or deposits are or were located.
    This provision provides that the transaction value of Federal 
leased properties will be the market value less the percentage of the 
Federal revenue sharing obligation under Section 35 of the Mineral 
Leasing Act. We should note that the bill assumes that an appraisal 
would conclude that the highest and best use of this property would be 
mineral resource production and that may not be the case.
    The overall result of the proposed valuation methods will be a 
greater number of Federal acres exchanged for a lesser number of state 
acres. This may be the desired outcome given the bill's stated public 
policy objectives.
Other Concerns
    The Department opposes section 5(d) of the bill requiring a 
``resource report'' on the lands to be transferred out of Federal 
ownership. Under S. 390 the Secretary has no discretion regarding the 
lands to be transferred out of Federal ownership; therefore the intent 
and usefulness of this section is unclear. Resource reports on the 
parcels will be time-consuming and costly, will delay the purposes of 
the bill, and will not ultimately affect the directed exchange. We urge 
the Committee to delete this provision.
    Additionally, the Department has serious concerns with section 
6(a)(2)(B) which places permanent withdrawals from the mineral leasing 
and mineral materials laws on certain state parcels once they are 
transferred to the Federal government. We would support the short term 
withdrawals envisioned in 6(a)(2)(A) because they are consistent with 
the present public planning process. Generally, the Department prefers 
to identify lands for permanent withdrawal from mineral entry or 
leasing through the public land use planning process because it gives 
all interested parties an opportunity to be heard. A short-term 
withdrawal of these lands from mineral leasing would preserve the 
option of more permanent withdrawal for any final record of decision. 
This is standard BLM practice.
    We would like the opportunity to continue to fine tune and clarify 
some provisions, including section 4(a), to insure that the 
implementation of the exchange is correctly and appropriately 
completed. Finally, we would like to work with the sponsors and the 
Committee on new maps for the legislation. It is our understanding that 
a number of technical corrections need to be made to the maps.
Conclusion
    The Department of the Interior supports the intent of this 
legislation. Large-scale land exchanges can resolve management issues, 
improve public access, and facilitate greater resource protection, and 
we support such exchanges. To that end, we are ready to work with the 
Committee and the sponsor to resolve remaining issues in the bill. I 
would be happy to answer any questions.
          s. 1139, national landscape conservation system act
    Thank you for inviting me to testify on S. 1139, the National 
Landscape Conservation System Act. The National Landscape Conservation 
System (NLCS) is a significant part of the Bureau of Land Management's 
(BLM) conservation efforts and is integral to the BLM's overall 
multiple-use mission. The BLM is proud to oversee this system which 
includes areas nationally recognized for their outstanding values. 
These lands are not simply places to visit; they help define who we are 
as a Nation and tell the story of our nation as it unfolded in the 
unforgettable natural landscapes of the West.
    The Department supports S. 1139, a bill that would legislatively 
establish the NLCS in order to conserve, protect, and restore 
nationally significant landscapes. The bill would provide for the 
inclusion in the NLCS of Congressionally and Presidentially designated 
special places administered by the BLM. S. 1139 would provide 
legislative support to the NLCS and its conservation mission within the 
BLM.
Background
    In June 2000, the Department of the Interior administratively 
established the NLCS within the BLM bringing into a single organized 
system many of the BLM's outstanding ecological, cultural and 
scientific landscapes. The BLM is charged with managing the public 
lands for a wide range of uses. This multiple-use mission directs the 
balanced management of public lands for many uses, including 
conservation, recreation, livestock grazing, energy development, and 
timber production. The NLCS is an integral part of that mission and 
includes National Monuments, National Conservation Areas (NCAs), 
National Scenic and Historic Trails, Wild and Scenic Rivers, 
Wilderness, and Wilderness Study Areas (WSAs). The BLM, under the 
authority of section 603 of FLPMA, manages WSAs so as not to impair 
their wilderness character. The establishment of the NLCS would not 
change the status of the WSAs or the authority of Congress, at some 
future time, to designate them as units of the National Wilderness 
Preservation System or to release them for non-wilderness multiple use.
    The NLCS currently includes 20 million acres of archaeological and 
historic treasures such as Canyons of the Ancients National Monument in 
Colorado and the Oregon National Historic Trail, wildlife havens such 
as Snake River Birds of Prey NCA in Idaho and Aravaipa Canyon 
Wilderness in Arizona, and hiking challenges such as King Range 
National Conservation Area along the lost coast of northern California 
and significant sections of the Continental Divide National Scenic 
Trail as it winds its way through New Mexico, Colorado, Wyoming and 
Montana.
    Over the last six years, since its inception, the NLCS has 
established successful, collaborative relationships with local 
communities, States, tribes, friends groups, and private citizens. 
These partnerships are critical to the on-the-ground success of NLCS 
units.
    In an increasingly crowded and fast-changing West, NLCS units 
provide some of the best examples of open space. For the most part, 
NLCS units are not highly developed. Rather, they provide visitors a 
different kind of outdoor experience--an opportunity to explore, 
discover and relax. These are places to get lost and find oneself.
    Many NLCS units were designated specifically for their scientific 
values. Recent discoveries at some NLCS units include cave-dwelling 
millipedes previously unknown to science and numerous new species of 
dinosaurs. In 2006, at Grand Staircase-Escalante National Monument, the 
discovery of one of the largest known oviraptor in the world (a giant 
7-foot tall, 14-foot long flesh-eating, feathered dinosaur) was 
revealed. The diverse opportunities for scientific inquiry allow NLCS 
units to be used as outdoor laboratories by a wide range of 
universities, colleges, and high schools including Brigham Young 
University, Montana State University, Colorado State University, 
Northern Arizona University, Universidad de Sonora (Mexico), Stanford 
University, Boise State University, University of New South Wales 
(Australia), Oregon State University, University of Utah, and the 
University of Witwatersrand (South Africa). Their efforts also directly 
benefit local communities. For example, studies of lava flows at 
Craters of the Moon National Monument in collaboration with Idaho State 
University contribute to hands-on science curriculum for local 
elementary students.
    Much of the support for NLCS units comes from local communities 
that work with the BLM to engage in cooperative conservation that 
enhance local economies, cultures, and resources. At New Mexico's 
Kasha-Katuwe Tent Rocks National Monument, an inter-governmental 
cooperative agreement between the BLM and the Pueblo de Cochiti has 
successfully provided for enhanced visitor services while improving the 
health of the land at this spectacular geologic wonder. In southern 
Arizona, Las Cienegas NCA is collaborating with local ranchers, water 
districts, the State and county to develop innovative solutions to 
managing this precious watershed in a desert environment--all in the 
context of a historic ranching community.
    Many NLCS units are adjacent to growing urban centers and provide 
respite from the city as well as recreational opportunities. Santa Rosa 
and San Jacinto Mountains National Monument adjoins the burgeoning Palm 
Springs area of California; McGinnis Canyons NCA lies near Grand 
Junction, Colorado; and Red Rock Canyon NCA is located just outside of 
Las Vegas, Nevada. Red Rock Canyon NCA has some of the highest 
visitation of any BLM-administered site and serves as an adventurous 
alternative for locals and visitors from Las Vegas' other attractions. 
The many communities in California's Coachella Valley welcome the 
undeveloped open spaces of the Congressionally designated Santa Rosa 
and San Jacinto Mountains National Monument. Partnerships with the Agua 
Caliente Band of Cahuilla Indians, the Friends of the Desert Mountains, 
and the cities of Palm Desert, Palm Springs, La Quinta, Cathedral City, 
Indian Wells, Rancho Mirage and Indio have enhanced BLM's ability to 
improve recreational opportunities while also providing for improved 
habitat for the endangered Peninsular bighorn sheep. Colorado's growing 
recreation industry promotes McInnis Canyon as a place for outdoor 
activity including wilderness hiking, rafting and mountain biking.
    From the remote, wild Steens Mountain Cooperative Management and 
Protection Area in the eastern part of the State, to coastal Yaquina 
Head Outstanding Natural Area's lighthouse and tidal pools, the 
diversity of NLCS units can be viewed across the breadth of Oregon. The 
Oregon National Historic Trail and the interpretive center in Baker 
City provide a window into our pioneer past and the 300,000 emigrants 
who used this pathway to the Pacific. Three ecosystems collide in 
Cascade-Siskiyou National Monument in southwestern Oregon forming a 
unique assemblage of rare plants and animals. Oregon's 802 miles of 
wild and scenic rivers provide unparalleled opportunities for fishing, 
hunting and boating which contribute to economic diversity in local 
communities.
    S. 1139 proposes to establish in statute the current administrative 
structure of the BLM's National Landscape Conservation System. The bill 
would not alter the management of its individual units. It recognizes 
the diverse nature of the component parts of the BLM's NLCS by 
directing that the units be managed in accordance with the laws related 
to each individual unit. As each unit is unique, we strongly support 
this recognition of their individual management frameworks.
    By formalizing the NLCS, S. 1139 would give Congressional support 
and direction, strengthening this special system of lands within the 
context of the BLM's multiple-use mission. This will assure that these 
landscapes of the American spirit would be conserved, protected, and 
restored for the benefit of current and future generations.
    Thank you for the opportunity to testify in support of S. 1139. I 
will be happy to answer any questions.
 h.r. 276, piedras blancas historic light station outstanding natural 
                                area act
    Thank you for inviting me to testify on H.R. 276, the Piedras 
Blancas Historic Light Station Outstanding Natural Area Act which would 
designate the Piedra Blancas Light Station as an Outstanding Natural 
Area (ONA) within the BLM's National Landscape Conservation System 
(NLCS). The Department supports H.R. 276.
Background
    The 18-acre Piedras Blancas Light Station sits on the coastal side 
of California scenic route 1 (California Coastal Highway) near Hearst 
Castle halfway between Los Angeles and San Francisco. It is an active 
lighthouse which began continuous operation in 1875 and is on the 
National Register of Historic Places. Formerly run by the Coast Guard, 
it has been managed by the BLM since 2001. Today, in addition to its 
safety role, the Light Station is a beacon of community support and 
activism.
    The proposed Piedras Blancas Historical Light Station ONA is 
adjacent to the Monterey Bay National Marine Sanctuary, administered by 
NOAA. The designation of the Piedras Blancas Light Station would 
provide a compatible and valuable shore-based presence for this 
important national treasure and promote historical and educational 
opportunities consistent with the NLCS.
    Community partnerships and an active volunteer force have allowed 
the BLM to begin the important work of restoration of the light 
station. Over 80 volunteers are actively involved in Piedras Blancas 
projects contributing 8,000 hours of service over each of the last 
three years. With strong local community support our partners include: 
The Friends of the Piedras Blancas Light Station, Hearst San Simeon 
Historic Monument, California State Parks, the Central Coast Maritime 
Museum, the Cambria Historical Society and a wide-range of other 
federal, state and local governmental agencies. In addition, monthly 
tours of the light station are being conducted in conjunction with 
Hearst Castle.
    H.R. 276 recognizes both the historical significance of the Piedras 
Blancas Light Station and the community support for its preservation. 
By designating the light station as an Outstanding Natural Area, the 
bill follows in the footsteps of the Yaquina Head Outstanding Natural 
Area along the Oregon coast established by Congress in 1980. In order 
to safeguard the buildings and public lands immediately surrounding 
them the bill provides protections for the area while encouraging and 
enabling active community support and involvement. In addition, the 
bill recognizes the importance of administering this area for 
educational, scientific uses as well as for traditional Native American 
purposes.
    Thank you for the opportunity to testify in support of H.R. 276. I 
will be happy to answer any questions.

    Senator Wyden. Thank you, why don't we just start with the 
traditional 5-minute rounds for Senators.
    First, Mr. Rey, we thank you for working closely with us. 
Your folks have reached out to our people and Senator Smith's, 
and we've got a broad coalition, as you know, that's especially 
interested in this North side of Mount Hood. We've been working 
with Forest Service staff to improve the land exchange and your 
folks have been very constructive. I think we've been able, as 
your testimony suggests, to improve a variety of aspects of the 
bill and we're going to continue to work with you on it.
    Our legislation includes a requirement for new appraisals 
under the Forest Service requirements. We will keep working on 
that.
    Let us start, first; can you give us the assurance that we 
can just continue to work with you all, as we've done in the 
past to be able to implement this exchange, in particular?
    Mr. Rey. Absolutely. Over my right shoulder, you'll see our 
Regional Forester here to participate in this and to carry 
forward, back to the Northwest, the results of this hearing to 
continue to work with the delegation staff.
    Senator Wyden. That's very helpful and we appreciate it.
    Now, for both of the administration witnesses, just so we 
can see if we can sort this out.
    Mr. Rey stated the administration's concern relates to S. 
647 requirements that depart from the nationally-recognized 
appraisal standards. But, Mr. Hughes, your testimony on S. 
390--as it relates to the Department's appraisal process--
recognizes there may be times when Congress will direct or the 
Department will propose use of alternative methods of valuation 
other than, or in addition to, the ``standard appraisal.'' Your 
testimony continues later, on page three, ``to meet legitimate 
policy objectives, Congress may determine that alternative 
methods of valuation are consistent with the intent of the 
legislation.''
    So, let us say again, we're very appreciative of both of 
your agencies; you're working with us constructively; we've got 
folks here from the Forest Service; but we're kind of 
scratching our heads, saying, ``What do we do? We've got BLM 
and the Forest Service, in a sense, same administration, taking 
approaches that are different.'' How do we reconcile this to 
try to be able to go forward in a responsible way and do it in 
a timely fashion?
    Mr. Rey and Mr. Hughes.
    Mr. Rey. I think the short answer is that Mr. Hughes' 
testimony acknowledges that there are circumstances when the 
standard appraisal systems may not serve us well, and there may 
be some justification for congressionally- or legislatively-
designated options to that, but the exchanges in the Mount Hood 
bill don't strike us as ones where that's necessary. The 
standard appraisal process can, if allowed to work, serve us 
well in executing these exchanges, if Congress directs us to do 
so.
    Mr. Hughes. I would concur with my colleague here. I think 
if you looked--and I think Senator Bennett alluded to it--that 
we've been trying to conduct exchanges with the State land 
system in Utah for well over 15 years now. In many cases we 
would come up to the edge of the door and we could not agree on 
appraisals at the end of the day. This is because, in some 
cases, we were trying to appraise lands with unknown minerals, 
where we had no way of comparing sales of these types of land, 
as well as trying to identify the appraised value of lands for 
a view shed, or for some special geographic or geological 
feature on the side. We just couldn't get there using 
recognized Federal appraisal standards.
    So, we say there are exceptions when it is in the public 
interest to try and acquire some of those parcels.
    Senator Wyden. Let me just get to one other area for this 
round. I think my point is, both of you and your agencies have 
been working constructively with us. We've got to sort this 
out, because if we're saying that the administration is 
advocating one approach as it relates to the Department of 
Agriculture and another approach as it relates to the 
Department of the Interior--not only are we going to have 
headaches in terms of resolving this, but I'm sure we're going 
to get to the point where people are going to ask about 
precedent-setting and other areas. Let us just continue to work 
constructively, and both of you've indicated you'd do that.
    One last question on this round. Mr. Rey, you expressed 
some concern that areas adjacent to proposed wilderness areas 
have inconsistent activities. Now, the Wilderness Act seems to 
state clearly that wilderness that doesn't have buffers, and 
therefore adjacent areas, aren't required to be managed 
consistently with wilderness. So, what is your reaction to that 
point?
    Mr. Rey. I think the problem here is not that the 
Wilderness Act requires buffers, it's that the wilderness 
experience that individuals would enjoy when there are 
inconsistent or nonconforming uses immediately adjacent to a 
wilderness area, are things that we take into account when we 
designate wilderness.
    So, for instance, if you are in the wilderness and looking 
immediately adjacent to Bonneville Powers' power line, high-
tension lines, you're not really getting a wilderness 
experience. That's the kind of thing we look at when we make 
wilderness recommendations.
    Now, that having been said, we have a number of wilderness 
areas that have nonconforming uses within them. We have a 
number of wilderness areas that have nonconforming uses 
adjacent to them. But, one of the things we try to evaluate in 
deciding whether something should be designated as wilderness, 
or whether something should be designated with some other 
protective designation like National Recreation Area is, is the 
person going to get a wilderness experience if they're in that 
area? In this case, we think the answer is no.
    Senator Wyden. I'll have some additional questions.
    But, Senator Smith, your turn.
    Senator Smith. Thanks, Senator Wyden.
    Mark, thank you and the administration for, in your budget, 
fully funding the Northwest Forest plan this year. It's my hope 
that that means a significant infusion of operating resources 
in and for the Mount Hood Wilderness, and Mount Hood National 
Forest, among others.
    With that in mind, do you believe that this legislation 
that we're proposing, if it becomes law this year--would we see 
an increase or decrease in timber volume because of the 
wilderness designation?
    Mr. Rey. With the adjustments that we've made in the 
wilderness boundaries in discussions with your staff, we have 
excluded nearly-completed or existing timber sales from some of 
the wilderness areas where we had boundary issues to begin 
with. So, I would not expect the passage of this legislation to 
affect timber harvest levels next year.
    Senator Smith. That's important. In your written testimony, 
which you didn't read, but, which I think is very important, I 
note this, these few sentences: ``However, it would be 
difficult to implement the proposed zones in a manner 
consistent with the Mount Hood National Forest Management Plan. 
The area around Government Camp is Spotted Owl habitat. 
Previous fuel reduction projects in the vicinity have been 
limited because effective treatment would change the stand 
composition, conflicting the Spotted Owl habitat. More 
flexibility in bill language would address this concern.''
    I guess my question is, the draft recovery plan for the 
Spotted Owl is now out, and I'm wondering--how you see all of 
this working out? Do we need to modify our legislation in a way 
that it has an impact on Spotted Owls? What does the draft 
proposal need for recovery of Spotted Owls and this wilderness 
designation?
    Mr. Rey. Well, I'm not sure it has any direct relation to 
the wilderness designation per se. The draft recovery plan is 
our effort to utilize the science that's been acquired in the 
last 20 years about the Spotted Owl to develop a plan that will 
lead, eventually, to the owl's recovery. Among the issues that 
the status review and the draft recovery plan discuss, are 
issues associated with fire risk in owl habitat, with some 
suggestion that additional flexibility there may be needed.
    Senator Smith. If I understand your testimony, though, you 
said that there might be a conflict between fuels reduction 
projects and conserving Spotted Owl habitat.
    Mr. Rey. As the present Northwest Forest Plan provides for, 
there is a conflict between the aggressiveness of the fuel 
reduction activities proposed in this legislation, and what 
sorts of habitat modification may be allowed in those specific 
areas. What we would like to do is to work with you to 
harmonize those and, to the extent that we agree on them, if 
need be, make it clear that that governs.
    Senator Smith. Am I correct to understand that the draft 
Recovery Plan now says that logging is not the issue with 
respect to the Spotted Owl? Or that it has a de minimus impact, 
and that the real impact is the Barred Owl?
    Mr. Rey. I wouldn't put it quite that way. I think what the 
status review indicated and the draft Recovery Plan discusses, 
and tries to address, is that habitat loss is, today, a 
somewhat less significant factor than it was 20 years ago. The 
significant fact, the more significant fact of today, is 
competition with the Barred Owl, which is a species that's 
expanding its range at the expense of the Spotted Owl. It is a 
species that both preys on the spotted and/or mates with it, 
given the particular circumstances in a specific situation.
    Senator Smith. How does catastrophic wildfire----
    Mr. Rey. Catastrophic wildfire is the second issue that is, 
we think, becoming more important in affecting the owl's 
recovery over the last 20 years.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Wyden. I thank my friend.
    Senator from Alaska.
    Yesterday, we were learning about the bole, b-o-l-e, which 
apparently is the main stem of the tree. So, today we learned 
about the Barred Owl.
    We recognize the Senator from Alaska.
    Senator Murkowski. It's always a learning opportunity and 
adventure here.
    Senator Wyden. There you are.
    Senator Murkowski. Gentlemen, thank you for your testimony. 
Mr. Hughes, I appreciate your comments on the CVEA legislation. 
We have had a discussion with CVEA regarding the issue of past 
compensation, that you have noted, and the concerns there. It's 
my understanding that they are okay and willing to work with us 
on adding language relating to that past compensation.
    So, if I might ask you, within your agency, to help us with 
some language. If you could submit something that we can work 
to address your concerns, we would certainly like to do that.
    Mr. Hughes. We'd be happy to do that.
    Senator Murkowski. I appreciate that. Now, I've got a 
question, I believe probably to you Mr. Hughes, or to you, Mr. 
Rey, as well. And, this is as it relates to S. 1139.
    I was interested in the response to Senator Thomas's 
question about, why--if we have the National Landscape 
Conservation in place already as a result of this internal 
decision--do we need to, through Congress, legislate such a 
system? He indicated raising the recognition, wanting 
codification of the system, but then he went on to indicate 
that perhaps it's possible to provide greater protection to 
certain areas.
    Can you speak to the need to provide for the legislation? 
Will this perhaps in a backhand way, provide litigants greater 
opportunities to challenge the BLM management, within the 
systems that they do today? I don't know, maybe I'm being too 
paranoid about it, but----
    Mr. Hughes. Senator, if you look at the individual 
components of the NCLS wilderness areas, they're protected by 
law and Congress has set up laws to protect wilderness areas. 
They've set up laws to protect wild and scenic rivers, and 
we've issued regulations on how to do that. In our mind, the 
idea of the system--all around the countryside we are getting a 
huge number of volunteers coming in to these different units to 
help us. They will actually help us, in some cases, police 
these units that Mr. Moe was concerned about. We have a huge 
number of interests, in terms of our environmental education 
program, people wanting to come out there--scientists--to look 
at them.
    So, in our opinion, it's probably more of a higher profile 
with this overall, overriding designation that the bill 
proposes. That's probably the main thing, is increasing that 
profile so Americans know what's out there.
    Senator Murkowski. Let me ask you again, more as it relates 
to the lands in Alaska. The bill provides that the Secretary 
will manage the system in a manner that protects the values for 
which the components of the system were designated. So, the 
question would be, when you're managing the lands within the 
systems that were put there by way of ANILCA, will BLM manage 
according to the dictates of ANILCA first? Or in accordance 
with, perhaps, some other values? How does the interplay there 
work?
    Mr. Hughes. I believe we would manage them under the 
provisions of ANILCA.
    Senator Murkowski. Okay.
    Mr. Hughes. But there's nothing in this bill that says we 
should not do that.
    Senator Murkowski. Okay. Then, in section 3(b) of the bill, 
indicating the areas that are administered, then, by the BLM, 
are there any lands in Alaska, other than those that are 
enumerated in this section, that would become part of the 
National Landscape Conservation System, if it were to be 
enacted?
    Mr. Hughes. I think there's already two existing units, 
recreation areas that are in the system today, but we wouldn't 
create any additional units.
    Senator Murkowski. No new designated unit, then?
    Mr. Hughes. Right, right.
    Senator Murkowski. Then, just one last question. This, of 
course, relates to the dollars and the budgets. No secret that 
the Federal Land Management budgets are stressed and there's no 
specific dollar amount that's authorized to implement this 
legislation. Will there be more resources devoted to these 
lands if this legislation is adopted? What does it mean in 
terms of management of the non-designated lands for the BLM 
inventory?
    Mr. Hughes. Our budget, which we prepare and send to the 
Hill, will remain the same whether or not we have this 
designation. We will continue to manage those lands with the 
funds that are provided by the Congress this year and next 
year. We do not anticipate this having a budgetary impact.
    Senator Murkowski. You wouldn't be shifting from one area 
of the BLM budget to another? If these are, and I hate to say, 
more highly-valued, but lands that were referred to as the 
crown jewels, will the crown jewels get more protection than 
the other BLM lands that are not designated as such?
    Mr. Hughes. They will continue to get the attention that we 
give them today. We will not take money from the rest of our 
lands, our multiple-use, to pay for some new programs in these.
    Senator Murkowski. Okay.
    Thank you, Mr. Chairman.
    Senator Wyden. Let me turn to just a few additional areas, 
with respect to Mount Hood, we want to clear up.
    Mr. Rey, you have, in the past, expressed some concern that 
some of the areas that we put in were too small and were 
isolated. I and Senator Smith felt that these were really 
special places to a lot of folks, and that's why we put them 
in. Now, my understanding is that you all do manage scores of 
Wilderness Areas that are under 5,000 acres. Is that right?
    Mr. Rey. That's correct, size is not the sole issue in 
that.
    Senator Wyden. Okay.
    Well, we'll work with you on that. We also want to be clear 
on one other point. I guess, at some point there was some 
discussion about how some of the larger communities were close 
to the Wilderness Areas that we were interested in, Hood River 
and Cascade Locks and Bonneville. Hood River, just so we're 
clear on that, is miles and miles away from the nearest 
wilderness proposal and then there are buffers built in around 
Cascade Locks, and Bonneville Dam, and I-84, and the power 
lines, and as we go forward with additional discussions, I want 
to make sure that we keep that in mind as well.
    Now, one last point that would be helpful to have you on 
the record, Mr. Rey, and I picked this up when I had the big 
town meetings and the like, and we had a little bit of 
discussion. That's the misconceptions that folks have about 
what kinds of activities can go on in Wilderness Areas.
    Now, my understanding is, that the Forest Service can 
manage to curtail the possibility of wildfire and disease 
outbreak, for example, by setting prescribed fires or 
performing hazardous fuel and disease reduction projects in the 
Wilderness Areas. Is that right?
    Mr. Rey. That is correct. Although, there are many 
Wilderness Areas where we do not do that, but we are not 
precluded from doing it.
    Senator Wyden. That's the key. As I say, I'm doing this 
because this has come up so often at the meetings, and so we 
have it in the record. That's section 23.24.1, Management of 
Insects and Disease and 23.24.2, Management of Fires.
    Now, the second area, Mr. Rey, is mechanized equipment 
allowed to fight fires and do search and rescue in Wilderness 
Areas?
    Mr. Rey. Those are both permitted in wilderness areas.
    Senator Wyden. Very good. That's section 23.26.1 and I am 
glad that we have been able to, at least put on the record, 
some of the issues there, and that's helpful.
    One last question for you, Mr. Hughes. Our legislation 
includes what amounts to a small amount of BLM land, 
essentially the ONC lands. These are the ones where you have 
the no net loss requirement. Now, are you familiar with your 
Agency's past experience with performing re-designation of 
those lands?
    Mr. Hughes. No, I am not. We can get back to you for the 
record on that, sir.
    Senator Wyden. Okay. I think that would be helpful. We'd 
just like to know a little bit more information about how the 
process goes forward.
    Senator Smith, any additional questions?
    Okay, we thank you both and, again, we especially 
appreciate the fact that since last session, we've been working 
very constructively together, and the folks that I and Senator 
Smith represent feel very strongly about this, as I think 
you're aware. We appreciate the pledge of more cooperation and 
we'll stay at it until we get it done. We thank you. You all 
are excused.
    Okay. Our next panel is Mr. Ron Suppah, chairman of the 
Confederate Tribes of the Warm Springs Reservation of Oregon, 
Warm Springs, Oregon; the honorable Martha Schrader, chair of 
the Clackamas County Board of Commissioners in Oregon City; 
John Sterling, executive director of Outdoor Industry 
Conservation Alliance in Bend; Kevin Carter, director of the 
Utah School and Institutional Trust Lands Administration in 
Salt Lake and Ty Cobb, board member, Grand Canyon Trust, 
Flagstaff, Arizona.
    So, we welcome all of you, Mr. Suppah, why don't we begin 
with you. Mr. Chairman, welcome. We appreciate all of the many 
areas that I and Senator Smith work with the tribe in a 
cooperative way and in which you all work with the Congress. 
Please proceed.

 STATEMENT OF RON SUPPAH, CHAIRMAN, THE CONFEDERATE TRIBES OF 
    THE WARM SPRINGS RESERVATION OF OREGON, WARM SPRINGS, OR

    Mr. Suppah. Thank you. Mr. Chairman, members of the 
subcommittee, good afternoon.
    I am Ron Suppah, chairman of the Warm Springs Tribes. I 
appreciate the opportunity to be here today to talk about S. 
647, the Lewis and Clark Mount Hood Wilderness Act.
    Mr. Chairman, about one-third of the Warm Springs 
Reservation's boundaries adjoins the Mount Hood National 
Forest. The people of Warm Springs have lived, since time 
immemorial, within and around the forest, and we continue to do 
so today, exercising our treaty rights and interests.
    Warm Springs welcomes S. 647 as a means to address the 
growing demands placed on the Forest by the expanding 
population in Portland and other nearby areas.
    There is much to like about this legislation, both in its 
broad goals, and its specific provisions. However, we note that 
issues bearing upon our Tribe have eroded from last year's 
legislation, and that is a matter of concern to us.
    But, before discussing those concerns, I'd like to touch 
upon several of the positive aspects of S. 647. First, we thank 
the authors of this bill for making sure that the wilderness 
additions preserve our access to huckleberry patches. Our 
elders often have to rely on transportation to get to the 
huckleberries, and we understand this legislation closes very 
few existing forest roads.
    We approve of the deletion of identifying and interpreting 
archeological and other sites. Publicly identifying such sites 
can lead to vandalism, and sometimes the best way to protect 
them, is not to identify them.
    We particularly like the forest stewardship assessment and 
sustainable biomass utilization study. We are developing a 20 
megawatt biomass plant, and expect that needed forest health 
projects on our Reservation, and on the Mount Hood National 
Forest will help fuel the facility.
    Of course, we fully support the savings provisions 
regarding our 1855 treaty and trust interests. This provision 
is essential in this bill. We thank the bill's sponsors for 
adding affected Indian tribes among nominators for the 
Recreational Working Group. We would only suggest it apply to 
adjacent affected tribes.
    Among our concerns is the extension of the Marco-Hatfield 
wilderness down the face of the ridge behind Cascade Logs. This 
is one example where encroaching wilderness could interfere 
with a city's efforts to improve its economy within its 
borders. The proximity of new wilderness near non-wilderness 
activities makes the no-buffer zone language especially 
important, and we prefer last year's House language as clearer 
and firmer than that in S. 647.
    We also question the deletion of the Class One Airshed 
Waiver for the Gorge. The Gorge is both a beautiful area, and a 
main commercial corridor between Portland and Eastern Oregon, 
Washington and Idaho, and those roles need to be balanced.
    With particular regard to our tribe, we are very 
disappointed S. 647 does not allow temporary closure of Mount 
Hood National Forest lands for our traditional cultural and 
religious activities. The National Forest is becoming more 
crowded, and limited closure would help ensure we can practice 
our ancient traditions in peace.
    The Forest Service can already close lands for a wide 
variety of reasons. S. 647 allows closure for municipal water 
sheds and in at least three instances, Federal National 
Parklands can be closed for tribal traditional and cultural 
purposes. We would appreciate similar protections from Mount 
Hood's crowds.
    In Recreation Area purposes, protection of cultural and 
spiritual values is eliminated, and the area can only be 
managed for recreational, ecological, scenic, watershed, and 
fish and wildlife purposes. We wonder if that limitation would 
ban our traditional activities in these areas. We also ask 
again that Warm Springs be included with other regional 
governments in the transportation plan in process. Other 
Reservations within the Mount Hood Region, numerous highways 
and roads come off the forest onto our Reservation, including 
heavily-used Highway 26, and there are winter snowmobiles on 
the roads around Timothy Lake. We would like to take part in 
the plan.
    Finally, we object to S. 647's unilateral removal of tribal 
first foods priority areas, dedicated for tribal use. We have 
treaty rights to gather our foods, such as huckleberries, yet 
non-Indians are destroying the huckleberry patches around Mount 
Hood. Provisions to allow us limited exclusive use in both of 
last year's House and Senate bills have been removed without 
anyone talking to us about it. When this bill allows 
municipalities exclusive use of whole water sheds, why can't 
some huckleberry patches be saved for us?
    Mr. Chairman, as Mount Hood is turned into Portland's 
playground, we hope that our old and traditional interests in 
the area are acknowledged and addressed as well. We look 
forward to working with you and the committee on these matters.
    Thank you.
    [The prepared statement of Mr. Suppah follows:]
Prepared Statement of Ron Suppah, Chairman, the Confederated Tribes of 
        the Warm Springs Reservation of Oregon, Warm Springs, OR
    Mr. Chairman, Members of the Subcommittee, I am Ron Suppah, 
Chairman of the Tribal Council of the Confederated Tribes of the Warm 
Springs Reservation of Oregon. I appreciate the opportunity to testify 
today regarding S. 647, the Lewis and Clark Mount Hood Wilderness Act 
of 2007.
    Mr. Chairman, the Confederated Tribes of Warm Springs Reservation 
of Oregon support S. 647's basic premise of updating the Wilderness 
Areas and other land use designations within the Mount Hood National 
Forest to address the growing demands placed on the Forest by the 
expanding population in the Portland metropolitan area and other nearby 
areas in the State. There is much to like about this legislation, both 
in its broad goals and its specific provisions. However, we note that 
the treatment of several issues affecting the Warm Springs Tribe in the 
Mount Hood National Forest has eroded from last year's legislation, and 
that is a matter of concern to us.
    As we noted in our testimony on last Congress's Mount Hood bills 
(S. 3854 and H.R. 5025), the people of the Confederated Tribes have 
lived since time immemorial within and around what is today the Mount 
Hood National Forest. We have been nourished by its fish, game and 
plants, and enjoyed its sanctuary, protection and beauty. We arose from 
this land and have long been its stewards. In more recent times, as a 
contemporary government in Oregon's community of governments, we also 
enjoy and exercise our rights and interests both along side and within 
the Mount Hood National Forest, including our unique treaty reserved 
rights and our traditional and religious practices.
    Against this background, we set forth our comments below on 
specific provisions of S. 647.
    First, we appreciate the deletion of the Findings section from last 
year's Senate bill. Several of the Findings' statements did not aptly 
reflect our Tribe's beliefs or our relationship with the Mount Hood 
National Forest. Although the bill does not now have a Findings 
section, this legislation's extensive legislative history, including 
introductory statements, correspondence and committee hearings, should 
provide a comprehensive portrait of the context within which this 
legislation is being developed.
    Title I--Designation of Wilderness Areas. As a first order of 
business regarding the addition of wilderness to the Mount Hood 
National Forest in S. 647 and last year's bills, S. 3854 and H.R. 5025, 
we want to express our appreciation for the efforts made, as we 
understand it, to consider huckleberry patches and particularly to 
preserve our ability to get to the huckleberry areas to exercise our 
treaty protected right to gather. It is our understanding that the 
wilderness additions in the Mount Hood bills avoid the closing of all 
but a very few existing forest roads in the National Forest, which will 
allow our Tribal members, particularly our elder members, to continue 
to take a car or a van to the huckleberry areas.
    Section 101(4). Mark O. Hatfield Wilderness Addition. In Warm 
Springs testimony last year on S. 3854, we supported added acreage to 
the Mark O. Hatfield Wilderness only to the extent it stops at the top 
of the ridge above the City of Cascade Locks and does not extend down 
the face of the ridge. Full Wilderness designation on the very face of 
the ridge running down toward the City of Cascade Locks could unduly 
constrain the City's economic options. In S. 647 before the 
Subcommittee today, we note that the map and acreage describing the 
addition to the Mark O. Hatfield Wilderness appear essentially 
unchanged from the map and acreage proposed last Congress in S. 3854. 
However, upon closer inspection, we note that the wilderness proposal 
does come significantly down the face of the ridge (as it may have last 
year), and that the descriptive name of the addition has been changed 
from ``Gorge Ridge'' to ``Gorge Face.'' We remain concerned about this 
encroachment on Cascade Locks, and ask the Committee to work with the 
City to assure that its capabilities to pursue a full range of economic 
opportunities, as expressly intended in the Columbia Gorge National 
Scenic Area Act, are not hampered.
    We note and object to the deletion from S. 647 of the Columbia 
Gorge Airshed provision carried in Section 102(b)(2) of S. 3854 and 
Section 102(c)(4) in H.R. 5025 last Congress, where it noted that the 
new Mark 0. Hatfield Wilderness addition was not to result in its 
classification as a Class I airshed. Removal of that provision poses 
the potential that Class I airshed designation could be applied to the 
new Wilderness, creating a difficult-to-implement restriction on rail, 
marine and highway travel through the Gorge that could interfere with 
one of the important commercial corridors between the Portland 
metropolitan area and eastern Oregon and Washington and Idaho. We urge 
that the Airshed provision be reinstated in S. 647.
    Section 104. Administration. As we noted in our testimony last year 
regarding S. 3854, we today note S. 647's omission of the ``Continued 
Use by Members of Indian Tribes'' provisions in last Congress's H.R. 
5025. That bill's Section 103(i)(1), (2) and (3) authorized access and 
temporary closure of new Mount Hood Wilderness for tribal traditional 
and religious purposes. As we said last year, throughout our history, 
the ancestors of people who today are members of the Confederated 
Tribes of Warm Springs have used what is currently called the Mount 
Hood National Forest for traditional cultural and religious purposes. 
In S. 647, which is predicated on providing Wilderness, Recreation Area 
and Wild and Scenic River designations for the benefit of the surging 
majority population, it is particularly essential that our people be 
assured that we will be able to continue the sacred and ancient 
traditions that have bound us to the land forever, as in last 
Congress's H.R. 5025. It is also essential that today's Senate bill 
include the temporary closure provision from H.R. 5025 so that we can 
continue to practice our traditional cultural and religious activities 
without fear of intrusion or interruption. Such closures would have to 
be arranged with the Forest Service, and would be for the smallest area 
and the least amount of time practicable to carry out these activities. 
Additionally, these activities would have to be in accord with the 
Wilderness Act, as well as the American Indian Religious Freedom Act.
    Mr. Chairman, the closure of Forest Service land for limited unique 
purposes is already authorized. Forest Service regulations (36 CRF 
261.53) today allow closure for endangered species, special biological 
communities, historical interest, scientific experiments, public health 
and safety, and protection of property. We note that Section 604 of S. 
647 itself authorizes public closure of Mount Hood National Forest land 
for watershed purposes where appropriate. We further note that the 
temporary closure of federal land for tribal traditional cultural and 
religious purposes is already authorized in three instances for 
National Park lands. So closure of Forest Service land is already 
authorized for certain circumstances and closure of federal land for 
tribal traditional cultural and religious purposes is not a new 
precedent. S. 647's own introductory statement clearly describes the 
burgeoning demands that the majority population's recreational users 
are placing on Mount Hood's lands, and we only ask that you provide the 
Agriculture Secretary the discretion, in the face of that rising tide, 
to allow our people to be able to continue our traditional beliefs and 
practices in peace.
    Section 105. Buffer Zones. Given that S. 647 extends wilderness 
designations close to established urban areas in some instances, it is 
important that ``no buffer zone'' language is included in the bill. Our 
preference for such language is that used in Section 103(j) of last 
year's H.R. 5025, which is clearer than the current language. The old 
House language states that ``nothing in this Act creates protective 
perimeters or buffer zones'' while the current language of S. 647 
states that ``Congress does not intend for designation of wilderness . 
. . to lead to the creation of protective perimeters or buffer zones.'' 
S. 647 also states that nonwilderness activities or uses up to 
boundaries shall not, ``of itself,'' preclude the activities. There is 
some ambiguity in these provisions, and we believe a clear and firm 
statement like that in last year's House bill is preferable.
    Section 107. Fish and Wildlife; Hunting and Fishing. We prefer the 
Fish and Wildlife provisions from Section 108 of last year's S. 3854, 
which expressly allowed activities to maintain or restore fish and 
wildlife populations and habitat in new wilderness additions, so long 
as those activities are consistent with applicable wilderness 
management plans. Fish and wildlife are precious to us, particularly 
salmon. Tremendous efforts have been and continue to be made to restore 
Columbia salmon populations. It appears to make sense that, if salmon 
populations and habitat can be improved inside new wilderness, in 
keeping with the management plans, that should be permitted.
    Title III. Mount Hood National Recreation Area. Section 301. 
Designation. As we stated in testimony last year, the designation of 
specific Recreation Areas within the Mount Hood National Forest raises 
for us the prospect of ``loving the Mountain to death.'' Intensive 
recreational activity, even in nonmechanized forms such as mountain 
biking, can be destructive. Accordingly, we approach this Title with 
some caution.
    With regard to Sections 301(a) and (d) of S. 647, our caution is 
heightened when we note that text from last year's S. 3854 assuring 
protection of ``cultural'' and ``spiritual'' values in the Recreation 
Area is deleted. The removal of this language suggests that locations 
of cultural and spiritual sensitivity for our Tribe are not to be 
protected. Further, the directive in (d) that ``the Secretary shall 
only allow uses that are consistent with the purposes and values 
identified in subsection (a)''--recreational, ecological, scenic, 
watershed, and fish and wildlife--could be interpreted as banning our 
use of those lands for traditional cultural and religious purposes. We 
would like to work with the Committee to resolve this difficulty.
    We do appreciate that this year's bill does drop the language from 
last year that the Recreation Area ``interpret'' archeological and 
paleontological sites. ``Interpretation'' could have led to the 
identification of sites, and once sites are publicly identified, they 
can be subject to vandalism. Often the best way to protect such sites 
is to not identify them.
    Section 301(f). Road Construction. Warm Springs appreciates the 
inclusion of treaty and statutory rights in the Recreation Area road 
construction exception. Often, the exercise of treaty rights by our 
Tribal elders can only be accomplished by their driving, or being 
driven, to a particular area, say to a huckleberry patch. Over time, as 
huckleberry patch locations may change, new roads may be needed.
    Title IV--Transportation and Communication Systems. As our 
testimony noted last year for S. 3854, significant areas of the Warm 
Springs Reservation are included in the Section 401 Definition of the 
``Mount Hood region.'' Highway 26 and numerous other State and Forest 
Service roads come off the Mount Hood National Forest directly onto our 
land. The road to Timothy Lake traverses our Reservation, and is used 
by snowmobilers in the winter. Additionally, the scope of the 
Transportation Plan encompasses travelers traversing the Mount Hood 
region, which involves a long stretch of Highway 26 crossing the Warm 
Springs Reservation, often snow covered in winter. Finally, members of 
our Tribe frequently travel deep within the Mount Hood National Forest, 
as we have for thousands of years, and transportation access within the 
Forest is important to us. Accordingly, our Tribal government should be 
included in the transportation planning process, and we ask that ``the 
Warm Springs Tribal government'' be added in Section 402(b)(2)'s listed 
Mount Hood regional governments involved in the planning.
    Title VI--Mount Hood National Forest and Watershed Stewardship. 
Section 602. Forest Stewardship Assessment. The Warm Springs Tribe 
supports this provision, which is identical to the provisions in last 
year's S. 3854. Our Reservation has an extensive forested border in 
common with the Mount Hood National Forest. In many ways, the 
management and health of our forest are closely linked to the 
management and health of the Mount Hood National Forest. The required 
development of a stewardship assessment and its implementation for the 
Mount Hood Forest will help protect our forest, for which the United 
States government as a whole, including the U.S. Forest Service, has a 
trust responsibility.
    Section 603. Sustainable Biomass Utilization Study. We support this 
Section, which is identical to last year's bill. Our Tribe, through 
Warm Springs Forest Products Industries, is deeply involved in a 20-
megawatt biomass electric generation project that would accept 
significant amounts of excess biomass material from the Mount Hood 
National Forest. Our Tribe and the U.S. Forest Service, including the 
Mount Hood National Forest, entered into a Memorandum of Understanding 
early in 2006 to facilitate both fuels reduction on the Mount Hood 
National Forest and the provision of biomass for the Tribe's biomass 
generation project.
    An immediate example of this is the Warm Springs Tribe's working 
with the Mount Hood National Forest Clackamas Ranger District on the 
Cascade Crest Forest Health Improvement Project. Around Olallie Butte, 
both on our Reservation and on adjoining National Forest lands, more 
than 60,000 acres of forestland are overstocked and infested with 
Mountain Pine Beetle. Under the MOU and the Tribal Forest Protection 
Act, we are developing a stewardship agreement to remove hazardous 
fuels and thin overstocked stands in this area that will also provide 
fuel for our biomass facility.
    Title VIII--Local and Tribal Relationships. Section 801. Findings 
and Purpose. Section 802. First Foods Gathering Areas. The Warm Springs 
Tribe objects to the unilateral elimination of the exclusive use 
authority for those first foods gathering areas identified as Priority 
Use Areas in last years bill. This provision was a critical element for 
us in last year's legislation. It was in both the House and Senate 
bill. Now, in S. 647, it has been eliminated without so much as a 
courtesy call to us. No one has bothered to tell us even why they 
believe this provision should be dropped. Accordingly, we register our 
strong objection to both the elimination of the provision and the 
manner in which it was removed.
    The Priority Use First Food Gathering Area provisions, including 
exclusive use, are critical to protecting and preserving the Tribe's 
treaty protected right to gather roots, berries and plants within the 
Mount Hood National Forest. In recent years when our Tribal members 
have gone to long-established huckleberry patches for the traditional 
annual harvest, we have been alarmed to see others wantonly stripping 
the berries with rakes and other tools, with no regard for the 
permanent destruction they are causing the huckleberry bushes. The 
establishment of exclusive Priority Use Areas for tribes with treaty 
gathering rights in the Mount Hood National Forest is an exercise of 
the federal trust obligation to protect treaty resources, and is 
essential today to protect our roots, berries and plants from the 
destructive practices of non-Indians. It is disturbing that this 
current bill, S. 647, offers to exclusively protect the watersheds of 
various municipalities, but deliberately reverses course when 
addressing Indian treaty protected resources. We urge the sponsors of 
S. 647 and the Committee to work with us to try to correct this 
situation. We believe the former provisions allowed flexibility in 
establishing the exclusive Tribal Priority Use Areas, enabling the 
Tribe and the Forest Service to establish these areas through 
collaborative discussions to bring a desperately needed measure of 
protection to our treaty protected roots, berries and plants.
    Section 804. Savings Provisions Regarding Relations with Indian 
Tribes. This Section preserving the full scope of the Warm Springs 1855 
Treaty rights and protecting our trust lands and allotments, including 
our fishing access sites, as well as our hunting and fishing rights, 
are essential to this legislation. Tribal treaties are the highest law 
of the land, and their preservation from any potential 
misinterpretation, alternation or diminishment, intentional or 
otherwise, as a consequence of this Act is absolutely essential for 
this bill.
    Section 905. Mount Hood National Forest Recreational Working Group. 
The Warm Springs Tribe supports this provision and wishes to express 
our appreciation to S. 647's sponsors for including affected tribal 
governments in the list of governments that may make nominations for 
Working Groups members to the Regional Forester. We would suggest one 
further revision to Section 905(d)(10), making it ``Affected adjacent 
Indian tribes.'' Given the bill's emphasis on adjacent governments, 
including just ``affected'' tribes could potentially include non-
adjacent tribal governments, who may assert their rights are affected 
by Mount Hood related issues.
    Mr. Chairman, that concludes the S. 647 testimony of the 
Confederated Tribes of the Warm Springs Reservation of Oregon. We look 
forward to working with the sponsors of the bills and the Committee in 
revising and advancing this important Mount Hood wilderness 
legislation.
    Thank you.

    Senator Wyden. Thank you, Mr. Chairman. Just one question 
at this point, since it's timely.
    First, you know, both I and Senator Smith want to work very 
closely with you and the tribe, and I would be interested in 
your thoughts--if we can look at an approach to add to the bill 
some priority use areas, would that move in the direction of 
what the tribe would like to see?
    Mr. Suppah. Yes, we're fairly engaged with the Forest 
Directors already and we also are establishing those 
stewardship contracts. The only thing that we have some problem 
with is other users such as hunters, or other tourists that are 
in the area when we are fathering the huckleberries, because 
some of them can be quite mean.
    Senator Wyden. Well, we'll work closely with you, Mr. 
Chairman, and you all have been very constructive. I think this 
is always a question of how you balance the various uses, and 
I've told the staff to follow up, and particularly on this 
question of whether we can find a way to possibly add some 
priority use areas, and see if we can work this out among all 
of us, all of the parties.
    Senator Smith. Mr. Chairman, let me just add my complete 
agreement, Senator Wyden, Ron, and you've got ideas for what we 
can do, how we can change this, priority use, those kind of 
things. Please come see us, because we're anxious to get it 
right for you all.
    Mr. Suppah. All righty, we appreciate that, and we will 
stay engaged and participate with you guys. Thank you Matt, 
Michelle, we appreciate the time you give us when we do come to 
town. I guess we'll be looking forward, Senator Smith, to the 
14th and your event there. We hope to see you soon, Ron.
    Senator Wyden. You can count on it, we'll keep it within 
the Rons.
    Mr. Suppah. Okay.
    Senator Wyden. I thank you for that, Mr. Chairman. We'll 
put the staffs of both our offices on trying to work this out 
in a way that's acceptable to you, and all of the various other 
parties. I think everyone wants to be constructive and to get 
this done, and we'll follow up with you.
    Ms. Schrader is next, and we welcome you, my lunch-time 
seat-mate from the earlier business meeting. So, Ms. Schrader, 
please proceed, and thank you for all of your assistance.

STATEMENT OF MARTHA SCHRADER, CHAIR, CLACKAMAS COUNTY BOARD OF 
                 COMMISSIONERS, OREGON CITY, OR

    Ms. Schrader. Thank you, Senator, and I would like to begin 
by wishing you a very happy birthday.
    Senator Wyden. There you are. My kids asked me, who many 
more years do I have to go to be really a true senior Senator?
    Ms. Schrader. Hopefully many more.
    Senator Wyden. Thank you.
    Ms. Schrader. You do a wonderful job for Clackamas County.
    Senator Wyden. Thank you.
    Ms. Schrader. Mr. Chairman and members of the committee, I 
appreciate the invitation to come before you today to talk 
about S. 647, the Lewis and Clark Mount Hood Wilderness Act of 
2007.
    Mount Hood isn't just an icon, it's the first thing that 
people see that fly into the Portland Airport. At Clackamas 
County, the end of the Oregon Trail, the county I am fortunate 
enough to represent as chair of the Board of Commissioners, is 
the gateway to Mount Hood. It contains some of the most 
beautiful wilderness and forest lands in the Oregon Country, 
providing ample opportunities for hiking, camping, fishing, 
biking and skiing, all within the shadow of this great 
mountain.
    Federal forest lands on Mount Hood contain the watersheds 
that provide drinking water for many communities in Clackamas 
County, and beyond. Mount Hood also provides plenty of natural 
resources, creating timber jobs through responsible forest 
management.
    The mountain is extremely important to Clackamas County, 
and I am pleased that the U.S. Senate is taking steps to 
protect this treasure for future generations.
    Reaching this point has taken several years, and many hours 
of work by both of you wonderful Senators, Senator Wyden and 
Senator Smith, and your staffs.
    Senator Wyden, you first introduced this legislation on 
Mount Hood in 2004, and several other iterations of this bill 
have been introduced, debated, changed and perfected. I'm 
pleased that our delegation has been able to work so diligently 
together to get us to this point, and look forward to the 
passage of S. 647.
    The bill I am here to talk about today, the Lewis and Clark 
Mount Hood Wilderness Act, contains 128,000 acres of new 
wilderness, 79,000 of which is located within the boundaries of 
Clackamas County. Forty-seven miles of new Wild and Scenic 
River are within our Clackamas County boundaries. Determining 
exactly which acres merit wilderness designation has been part 
of the process I mentioned earlier, and Senator Wyden and 
Smith's offices have worked tirelessly with our county to make 
these decisions.
    At the beginning of this process, Clackamas County support 
a list of principles through which we examine the bill. Based 
on these principles, we made a number of suggestions, which we 
believed would improve the bill, and many of these improvements 
were made.
    For example, the county wanted to ensure that local 
government would have a voice in transportation planning 
process on Mount Hood, and changes were made to accommodate 
this request. The county specifically requested that a number 
of Forest Service roads be excluded from the Wilderness portion 
of the bill, and most of these roads were left out of S. 647.
    The county has further requested that the Hunchback 
Mountain Land Exchange be included in this legislation. This 
exchange will preserve an important view shed and has the 
support of local community organizations, including the Mount 
Hood Area Chamber of Commerce and the Hoodland Community 
Planning Organization.
    The legislation before you today is a good bill. I hope to 
see it pass. It protects important and sensitive areas of Mount 
Hood, preserving them for generations to come, and it includes 
measures to promote economic development in villages and 
communities where development should happen in a well-planned 
and organized fashion. I am looking forward to working with all 
of you to improve the bill even more as we move forward.
    Finally, Oregon is a growing State and Mount Hood is so 
precious and so important to many Oregonians because of its 
proximity to much of our State's population. Promoting managed 
planned growth in certain areas is essential to allowing 
Oregonians to continue to enjoy the beauty, and the majesty 
that is Mount Hood.
    So, let me end by saying, thank you, Senator Wyden, and 
Senator Smith for inviting me to testify before you today, I 
hope that you will work to pass the Lewis and Clark Mount Hood 
Wilderness Act, and Clackamas County stands forward to be your 
partner in this endeavor. Thank you.
    [The prepared statement of Ms. Schrader follows:]
Prepared Statement of Martha Schrader, Chair, Clackamas County Board of 
                 County Commissioners, Oregon City, OR
    Mr. Chairman, Members of the Committee, I appreciate the invitation 
to come before you today to talk about S. 647, the Lewis and Clark 
Mount Hood Wilderness Act of 2007.
    Mount Hood is an Oregon icon. The thing most people see on their 
first trip to Oregon is that of Mount Hood while flying into the 
Portland Airport.
    Clackamas County, the County I am fortunate enough to represent as 
Chair of the Board of County Commissioners, is the gateway to Mount 
Hood, and contains some of the most beautiful wilderness and forest-
land in the country, providing ample opportunities for hiking, camping, 
fishing and biking, all within the shadow of this great mountain. 
Federal forestlands on Mount Hood contain the watersheds that provide 
drinking water for many communities in Clackamas County and Beyond. 
Mount Hood also provides plenty of natural resources, creating timber 
jobs through responsible forest management. Mount Hood is extremely 
important to Clackamas County, and I am pleased that the U.S. Senate is 
taking steps today to protect this treasure for future generations.
    Reaching the point we are at today has taken several years, and 
many hours of work by both of our state's Senators and our House 
delegation. Senator Wyden first introduced his legislation on Mt. Hood 
in 2004, and several other iterations of this bill have been 
introduced, debated, changed, and perfected. I'm pleased that our 
delegation has been able to work so well together to get us to this 
point, and look forward to passage of S. 647.
    The bill I am here to talk about today, the Lewis and Clark Mount 
Hood Wilderness Act, contains 128,000 acres of new wilderness, 79,000 
of which is located within the boundaries of Clackamas County. 47 miles 
of new Wild and Scenic River are within the boundaries of Clackamas 
County.
    Determining exactly which acres merit wilderness designation has 
been part of the process I mentioned earlier, and Senator Wyden's and 
Smith's offices have worked with me and others in my County tirelessly 
to make these decisions. At the beginning of the process the County put 
forward a list of principles through which we examined the bill. Based 
on these principles we made a number of suggestions which we believed 
would improve the bill, and many of these improvements were made.
    For example, the County wanted to insure that local governments 
would have a voice in the transportation planning process on Mt. Hood, 
and changes were made to accommodate this request. The County 
specifically requested that a number of Forest Service roads be 
excluded from the wilderness portion of the bill, and most of these 
roads were left out of S. 647.
    The County requested that the Hunchback Mountain land exchange be 
included in the legislation. This exchange, which will preserve an 
important view shed, and has the support of local community 
organizations including the Mt. Hood Area Chamber of Commerce and the 
Hoodland Community Planning Organization, has been included.
    The legislation before you today is a good bill, and I hope to see 
it passed. It protects important and sensitive areas of Mount Hood, 
preserving them for generations to come, and it includes measures to 
promote economic development in villages and communities where 
development should happen in a well-planned and organized fashion. I am 
looking forward to working with all of you to improve the bill even 
more going forward.
    Oregon is a growing state, and Mount Hood is so precious and so 
important to so many Oregonians because of how close it is to so much 
of our state's population. Promoting managed, planned growth in certain 
areas is essential to allowing Oregonians to continue to enjoy the 
beauty and the majesty that is Mount Hood.
    Again, I want to thank Senator Wyden for inviting me to testify 
before you today, and I hope that you will pass Lewis and Clark Mount 
Hood Wilderness Act.

    Senator Wyden. Thank you very much, Ms. Schrader, and we 
thank you and all of the folks in Clackamas County for 
cooperating closely with us, and we'll have some questions here 
in just a minute.
    Mr. Sterling, welcome. Senator Smith and I had a town 
meeting in Bend not too long ago, and we appreciate the chance 
to hear from you.

      STATEMENT OF JOHN STERLING, EXECUTIVE DIRECTOR, THE 
                CONSERVATION ALLIANCE, BEND, OR

    Mr. Sterling. Thank you, Chairman Wyden.
    Chairman Wyden, Senator Smith, thank you for the 
opportunity to testify today in support of S. 647.
    As you mentioned, my name is John Sterling, and I am the 
executive director of the outdoor industry Conservation 
Alliance, we're a group of roughly 140 outdoor industry 
companies that work together to protect wild places and rivers 
for their habitat and recreational values. Many of our key 
member companies are based in Oregon, and the organization 
itself is based in Bend.
    Eight months ago, I had the honor of standing with the two 
of you on a beautiful day in downtown Portland as you unveiled 
your proposal for new protections on Mount Hood. The 
Conservation Alliance stood behind that vision then, and we 
enthusiastically support the legislation under consideration 
today.
    It's encouraging to see legislation that has such strong 
bipartisan support, and I want to acknowledge your colleagues 
in the House of Representatives, Congressmen Blumenauer and 
Walden, who share your vision for new protections on Mount Hood 
and proved their ability to cross party lines to work to move 
that vision forward. I encourage you to work closely with 
Oregon's House delegation to ensure that a Mount Hood 
Wilderness bill passes this year.
    I'm here to talk about the economic benefits of wilderness. 
The Conservation Alliance supports this legislation, because 
wilderness is good for business. In Oregon, 76 percent of the 
population, some 2 million Oregonians, participate in some form 
of non-motorized, outdoor recreation every year, and those 
people spend roughly $125 million a year, annually, in the 
State of Oregon, on the gear, clothing and footwear that they 
need to enjoy recreation activities in those wildlands.
    In particular, outdoor customers look to our protected 
public lands for their recreation destinations, and passage of 
this bill would ensure long-term recreational destinations for 
outdoor customers.
    Our protected Wilderness Areas and Wild Rivers are, 
perhaps, our most valuable economic asset, not only because 
they provide outdoor recreation opportunities, increasingly 
economic growth in Oregon and throughout the West, depends on 
providing services to the rising number of people who flock to 
our communities to live, work, and retire in places that are 
surrounded by protected natural areas.
    Our protected lands also draw businesses attracted to 
Oregon's high quality of life. I want to mention three of those 
businesses that are members of the Conservation Alliance, and 
that support this legislation.
    In 2005, Yakima Products moved its operations from Northern 
California to the Portland Area. In part, they made that move 
because of the high quality of life that the Region offers. 
Yakima now employs 75 people in Beaverton, many of whom look to 
Mount Hood for their recreational outlets.
    The following year, KEEN footwear--perhaps the fastest-
growing footwear company in the country--moved its base from 
the San Francisco Bay Area to Portland. They hired a native 
Oregonian to run the company, and they now employ about 60 
people in downtown Portland. As a fast-growing company, KEEN 
regularly has to compete with other brands for footwear talent, 
and in trying to attract people to the Portland area, they 
regularly tout easy access to protected public land as an asset 
to living in Portland.
    Finally, I just want to mention Columbia Sportswear, a 
company with a rich history in Oregon, a company started in 
Portland in 1938, and it is now one of the largest 
manufacturers of outdoor clothing in the world, employing 
roughly 2,700 people worldwide.
    These three companies share a vision of preserving Oregon's 
high quality of life, and they also support this bill, because 
it's good for their customers, and good for their employees.
    By protecting 128,000 miles of wilderness, and 80 miles of 
rivers on Mount Hood, you're not only responding to the demands 
of an overwhelming majority of Oregonians who want to see these 
protections, but you're also making an important investment in 
Oregon's economic future.
    Now, economics aside, I just wanted to throw in a personal 
note. I'm a native Portlander. I grew up in the shadow of Mount 
Hood. Senator Smith calls it an ``icon,'' Chairman Wyden calls 
it a ``special treasure,'' it's all those things. When I was a 
kid, my siblings and I simply called it ``our mountain,'' and 
now I have two small children of my own, and it's sometimes 
hard to be away from them and traveling back East is a long 
trip for me, so I always take photos of those kids with me, so 
I remember why we do this kind of work.
    I thank you and Senator Smith for working hard to protect 
Mount Hood.
    [The prepared statement of Mr. Sterling follows:]
     Prepared Statement of John Sterling, Executive Director, The 
                    Conservation Alliance, Bend, OR
                     testimony in support of s. 647
    Chairman Wyden and members of the subcommittee, thank you for this 
opportunity to testify in support of S. 647, the Lewis and Clark Mount 
Hood Wilderness Act of 2007. My name is John Sterling, and I am 
Executive Director of the outdoor industry Conservation Alliance. We 
are a group of roughly 140 outdoor businesses nationwide that sell 
products for active use in the outdoors. Our member companies work 
together to protect wilderness and rivers for their habitat and 
recreational values. Several of our key member companies have deep 
connections to Oregon including Columbia Sportswear, KEEN Footwear, 
REI, Patagonia, Yakima Products, and Mountain Hardwear.
    Eight months ago, I had the honor of standing with Senators Wyden 
and Smith on a beautiful day in downtown Portland as you unveiled your 
proposal for new Wilderness and Wild and Scenic River designations on 
Mount Hood. The Conservation Alliance stood behind their vision then, 
and we enthusiastically support the legislation under consideration 
today. It is encouraging to see legislation that enjoys strong 
bipartisan support. I also want to acknowledge the hard work of your 
colleagues in the House of Representatives--Congressmen Walden and 
Blumenauer--who share a vision for more protection on Mount Hood, and 
who have proven their ability to cross party lines to work together for 
that vision. I encourage you to work closely with Oregon's House 
delegation to ensure a bill passes this year.
    The Conservation Alliance supports the effort to secure new 
Wilderness designations on Mount Hood because wilderness is good for 
business. In Oregon, 76 percent of the population--more than 2 million 
Oregonians--participate in some form of nonmotorized outdoor recreation 
each year. Consumer spending on outdoor recreation merchandise 
contributes roughly $125 million to Oregon's economy each year. 
According to a new study by the Outdoor Industry Association (The 
Active Outdoor Recreation Economy, Fall 2006*), the overall outdoor 
recreation economy--which includes retail gear purchases and trip-
related expenditures--contributes more than $5.8 billion to Oregon's 
economy and supports 73,000 jobs across Oregon.
---------------------------------------------------------------------------
    * The information referred to has been retained in subcommittee 
files.
---------------------------------------------------------------------------
    Outdoor customers in Oregon look to federal lands for recreation 
opportunities, and securing Wilderness and Wild and Scenic River 
protection for special places on Mount Hood will ensure long-term 
recreational destinations for outdoor industry customers.
    Our protected wilderness and rivers are among our most valuable 
economic assets. Increasingly, economic growth in Oregon is based on 
providing services to the rising number of residents who flock to our 
communities to live, work, or retire in places surrounded by protected 
natural areas. Our protected lands also draw businesses attracted to 
Oregon's high quality of life. I want to tell you about some of those 
businesses.
    In 2005, Yakima Products, manufacturer of some of the finest 
bicycle, ski, paddling and cargo rack systems in the world, moved their 
business from Northern California to the Portland area. They made this 
move in part because of the high quality of life the region offers. 
Yakima now employs 75 people in Beaverton, many of whom look to Mount 
Hood as a recreational outlet.
    The following year, KEEN Footwear, perhaps the fastest growing 
footwear brand in the U.S., moved to Portland from the San Francisco 
Bay Area. KEEN hired a native Oregonian to run the company and now 
employs more than 60 people at its offices in Portland's Pearl 
District. As a fast-growing brand, KEEN has been adding personnel 
constantly since landing in Portland. In recruiting employees, KEEN 
regularly touts easy access to protected public lands as an asset to 
living in the Portland area. Further, KEEN actively looks for employees 
that share the company's commitment to conservation.
    Finally, I want to mention Columbia Sportswear, a company with a 
rich history in Oregon. To those of us who are native Oregonians, 
Columbia is a household name. The company started in Portland in 1938 
and is now one of the largest manufacturers of outdoor clothing in the 
world, employing 2,700 people worldwide.
    These three companies have at least two things in common. One is 
that each supports Senators Wyden and Smith's vision for Mount Hood 
Wilderness. The other is that each company's most valuable asset is its 
employees. And in attracting and retaining good employees, quality of 
life plays an important role. Protecting wilderness and wild rivers on 
Mount Hood will help ensure that the quality of life in Oregon remains 
high.
    These are anecdotes. But they support a growing body of evidence 
that protected public lands play a key role in stimulating and 
sustaining economic development in the West.
    As our economy shifts away from traditional industries--mining, 
wood products, farming and ranching--Oregon's economic growth is coming 
from the diverse sectors of finance, high-tech, real estate, business 
services, and outdoor recreation. A recent study by the Sonoran 
Institute (Prosperity in the 21st Century West, July 2004) concludes 
that: ``Wilderness, National Parks, National Monuments, and other 
protected public lands, set aside for their wild characteristics, can 
and do play an important role in stimulating economic growth--and the 
more protected, the better.''
    My home town of Bend is a perfect example of how protected public 
lands support economic growth in the new West. Bend is among the 
fastest growing towns in the country. Though that growth poses 
challenges for the community, it is irrefutable that Bend's economy is 
vibrant and strong. People move to Bend for a variety of reasons that 
all revolve around quality of life. Bend lies within 20 miles of the 
Three Sisters Wilderness and the Badlands Wilderness Study Area, and 
within 40 miles of the Newberry Crater National Monument. Likewise, the 
town is surrounded by BLM and Forest Service lands that provide open 
space and recreation opportunities, and serve as a de facto urban 
growth boundary.
    People flock to Bend to take advantage of the outdoor opportunities 
provided by these public lands. These lands play a key role in 
attracting tourists and new residents alike. Prosperity in the 21st 
Century West found that, from 1970 to 2000, the closer a county was to 
protected lands, the faster that county's economy grew. Central to this 
study's findings is that the economy of the rural West has changed. 
Communities once dependent on logging, mining, and ranching have built 
new prosperity on high-end service industries like finance, 
engineering, real estate and business services. The reason for this 
shift is that people are increasingly moving to rural Western towns for 
their unique landscapes and quality of life. Many of these new arrivals 
are retirees with investment income. They buy or build new homes, eat 
out, and appreciate the public lands in their new communities.
    The study concludes that rural communities benefit substantially 
from protected public lands--Wilderness, National Parks, National 
Monuments--particularly when coupled with improvements in schools, 
transportation infrastructure, and the arts.
    This perspective is compelling when placed in the context of the 
proposal to designate new Wilderness areas on Mount Hood. If we accept 
that protected public lands are an important economic asset, then S. 
647 is an investment in Oregon's economic future. By protecting 128,000 
acres of wilderness and 80 miles of rivers on Mount Hood, this 
legislation responds to the demand from an overwhelming majority of 
Oregonians to ensure that future generations can enjoy Oregon's natural 
heritage the same way we have. It would also help safeguard Oregon's 
quality of life, and give Oregon's economy a competitive edge over 
states that lack our bounty of spectacular public lands.
    Economics aside, I want to thank Senators Wyden and Smith, and 
Oregon's House delegation for their hard work. I am a native 
Portlander. Anyone who was raised in the shadow of Mount Hood cannot 
look at that mountain without feeling a deep sense of pride and good 
fortune at being born in Oregon. Thank you for your commitment to 
protecting Wilderness on Mount Hood.

    Senator Wyden. Very good. I thank you for your comments, 
and it's our intention to work very closely with the House 
Delegation. I'm glad you pointed out their efforts, as well.
    Okay, let's now hear from Utah and Arizona.
    Mr. Carter, director, Utah School and Institutional Trust 
Lands Administration.

    STATEMENT OF KEVIN S. CARTER, DIRECTOR, UTAH SCHOOL AND 
  INSTITUTIONAL TRUST LANDS ADMINISTRATION, SALT LAKE CITY, UT

    Mr. Carter. Mr. Chairman, thank you for the opportunity to 
testify today.
    As you mentioned, my name is Kevin Carter. I am the 
director of the Utah School and Institutional Trust Lands 
Administration, and the legislation before you is a product of 
more than 4 years of discussions between the State, local 
governments, the environmental community and Federal land 
managers.
    At a time when most issues relating to Utah's public lands 
are accompanied by controversy and dispute, this exchange is 
supported by rural county governments, various environmental 
groups, representatives of the outdoor recreation industry, 
Governor Huntsman and the Utah State Legislature.
    It is common for land exchange proposals to become 
entangled in disputes over valuation. On this issue, we have 
committed to an independent and transparent appraisal process 
that will fully involve the Department of the Interior's new 
appraisal services directorate.
    The legislation contemplates that all lands included in the 
exchange will be subject to independent appraisals, using the 
existing appraisal standards contained in FITMA, and its 
implementing regulations, prior to conveyance, and that the 
lands to be exchanged will be conveyed on an equal-value basis.
    The legislation contains two provisions, addressing 
specific mineral evaluation issues. These provisions are 
discussed in my written testimony, and I would also be happy to 
respond to any questions regarding valuation.
    The legislation before the committee today has a 
complementary bill before the House of Representatives, H.R. 
1210. One recently-negotiated difference between the bills is a 
provision in the House bill which would ultimately ensure 
complete transfer of all acreage described in the accompanying 
exchange maps.
    Consequently, concerns raised in previous Department 
testimony regarding the respective number of acres transferred 
by each party, should be somewhat ameliorated. We anticipate 
that the committee will incorporate additional changes, 
suggested by staff, to allow more flexibility in meeting 
deadlines, clarify appraisal standards, and provide additional 
options to the parties in the event that land values are 
determined by the appraisal process to be unequal.
    We have very much appreciated the opportunity to work with 
you staff on negotiating through some of the difficult parts of 
this exchange, and the support which we've received from the 
administration and from the environmental community.
    Thank you for the opportunity, and we would urge your 
support of this bill.
    [The prepared statement of Mr. Carter follows:]
   Prepared Statement of Kevin S. Carter, Director, Utah School and 
      Institutional Trust Lands Administration, Salt Lake City, UT
    Mr. Chairman, and members of the Subcommittee, thank you for the 
opportunity to testify today. I would also like to thank Senators 
Bennett and Hatch of the Utah Congressional delegation, and their 
colleagues in the House of Representatives, for their work and 
assistance in connection with the legislation now before the 
Subcommittee.
    My name is Kevin S. Carter, and I am the Director of the Utah 
School and Institutional Trust Lands Administration (``SITLA''), an 
independent state agency that manages more than 3.5 million acres of 
state school trust lands within Utah that were granted by Congress at 
statehood for the financial support of public education.
                       the proposed land exchange
    I encourage the Subcommittee, and Congress, to act favorably on S. 
390, the Utah Recreational Land Exchange Act of 2007. This legislation 
is the product of several years of discussions between the State, local 
governments, the environmental community, and federal land managers. At 
a time when most issues relating to Utah's public lands are accompanied 
by controversy and dispute, the proposed exchange is supported by rural 
county governments, various environmental groups, representatives of 
the outdoor recreation industry in Utah, Governor Huntsman and the Utah 
legislature. We have worked hard to put together an exchange that will 
be fair and transparent financially, workable in implementation, and 
conducive to more effective land management by both state and federal 
governments. We believe that the Utah Recreational Land Exchange Act 
meets all of these goals.
    In summary, S. 390 authorizes the conveyance to the United States 
of approximately 46,000 acres of Utah state school trust lands and 
minerals within and near Utah's Colorado River corridor, the Book 
Cliffs, and areas near Dinosaur National Monument. In return, the State 
of Utah will receive approximately 44,000 acres of federal lands in 
eastern Utah with lesser environmental sensitivity but greater 
potential for generating revenue for Utah's public education system--
again, the purpose for which Congress originally granted trust lands to 
Utah and the other western states.
             revisions to previously-introduced legislation
    The proposed Act was originally introduced in 2005 in the House of 
Representatives as H.R. 2069. The House Subcommittee on Forests and 
Forest Health held a hearing on H.R. 2069 on September 27, 2005. In 
response to testimony from the Department of the Interior (``DOI'') and 
several environmental organizations at that hearing that raised 
concerns about specific provisions of H.R. 2069, the House Subcommittee 
invited interested parties to work with subcommittee staff and the 
State to attempt to resolve these concerns. The committee discussions 
included both majority and minority subcommittee staff, representatives 
of DOI and the Bureau of Land Management (``BLM''), Utah state 
government, and several environmental organizations.
    After multiple meetings and telephonic conferences, and many hours 
of discussions and negotiations, the various parties reached compromise 
legislative language that we believe resolved all of the primary 
concerns raised by DOI and the environmental community. These 
compromises were incorporated in Senate legislation in the 109th 
Congress designated as S. 2788. This Subcommittee conducted a hearing 
on S. 2788 on May 24, 2006. S. Hrg. 109-582. With the negotiated 
changes, H.R. 2069 passed the House of Representatives in September, 
2006. Unfortunately, the Senate was unable to take action on the House 
Bill or its Senate counterpart, S. 2788, prior to the end of the 109th 
Congress.
    In the current Congress, we have continued to work with committee 
staff to ensure that S. 390 and its companion legislation, H.R. 1210, 
are consistent with the priorities of the relevant Committees, and that 
the proposed legislation continues to have broad, bipartisan support. 
We anticipate that the Committee will incorporate additional changes 
suggested by staff to make certain deadlines more flexible, incorporate 
the Uniform Appraisal Standards for Professional Appraisal Practice in 
the appraisal standards, and provide additional options to the parties 
in the event that land values are determined by the appraisal process 
to be unequal.
                     reasons for the land exchange
    It is worthwhile and necessary to describe the lands that are 
involved in the exchange, although the accompanying photographs make it 
clear that these lands are in many ways beyond description. The 
Colorado River corridor is a uniquely scenic area, in a state known for 
its scenic beauty. Huge redrock arches such as Corona and Morning Glory 
arches are found in proximity to the deep canyons carved by the 
Colorado River as it winds downstream from the Colorado border to 
Canyonlands National Park. The area supports thriving recreational 
activities, including whitewater rafting in the Westwater wilderness 
study area and downstream, mountain biking on the famous Kokopelli and 
Slickrock bike trails, and myriad other activities. The importance of 
outdoor recreation in the area to local economies and the state as a 
whole has led the Utah Governor's task force on outdoor recreation to 
designate the area as one of Utah's critical focus areas for promotion 
and protection of recreation opportunities.
    As you can see from the map included in my submittal, the majority 
of land in the Colorado River corridor is federal land managed by BLM. 
Notable exceptions are the Utah school trust lands scattered in 
checkerboard fashion throughout the area. As the Subcommittee is aware, 
state school trust lands are required by both federal and state law to 
be managed to produce revenue for public schools. Revenue from Utah 
school trust lands--whether from grazing, surface leasing, mineral 
development or sale--is placed in the State School Fund, a permanent 
income-producing endowment created by Congress in the Utah Enabling Act 
for the support of the state's public education system.
    In contrast to state lands, BLM lands are managed for multiple use, 
with an emphasis in this area on recreation and conservation use. 
Limitations on the use of surrounding federal lands, through 
establishment of wilderness study areas, areas of critical 
environmental concern, or mineral withdrawals can limit the usefulness 
of the inheld state trust lands for economic uses such as mineral 
development. Likewise, state efforts to generate revenues from its 
lands through sale of the lands for recreational development and 
homesites have been viewed by federal land managers as conflicting with 
management of the surrounding federal lands. Over the years, disputes 
over access to and use of state school trust lands within federally-
owned areas have generated significant public controversy, and often 
led to expensive and time-consuming litigation between the State of 
Utah and the United States.
    Land exchanges are an obvious solution to the problem of 
checkerboarded state land ownership patterns. Exchanges can allow each 
sovereign--the State of Utah and the United States--to manage 
consolidated lands as each party's land managers deem most advisable, 
without interference from the other. In the last eight years, the State 
of Utah and the United States worked successfully to complete a series 
of large legislated land exchanges. In 1998, Congress passed the Utah 
Schools and Land Exchange Act, Public Law 105-335, providing for an 
exchange of hundreds of thousands of acres of school trust lands out of 
various national parks, monuments, forests and Indian reservations into 
areas that could produce revenue for Utah's schools. Then, in 2000, 
Congress enacted the Utah West Desert Land Exchange Act, Public Law 
106-301, which exchanged over 100,000 acres of state trust land out of 
proposed federal wilderness in Utah's scenic West Desert for federal 
lands elsewhere in the region.
    The hallmark of each of these exchanges was their ``win-win'' 
nature: school trust lands with significant environmental values were 
placed into federal ownership, while federal lands with lesser 
environmental values but greater potential for revenue generation were 
exchanged to the State, thus fulfilling the purpose of the school land 
grants--providing financial support for public education.
                response to land exchange controversies
    More recently, a proposed state-federal land exchange involving 
state trust lands in Utah's San Rafael Swell area failed due to 
questions raised about its financial fairness and environmental 
effects. We recognize that the controversy over the San Rafael proposal 
raised many questions about land exchanges generally. In working to 
develop the current exchange proposal, the State of Utah has worked 
hard to address the issues raised in the aftermath of the San Rafael 
proposal. In particular, we have sought to work closely with local 
governments and citizens, the environmental community, and local BLM 
offices to obtain consensus about the lands to be included in the 
proposed exchange. On the issue of valuation, we are committed to an 
independent and transparent appraisal process that will fully involve 
the Department of the Interior's new Appraisal Services Directorate 
(``ASD'') in developing and reviewing appraisals for the properties 
involved in the exchange. As noted above, since the time that this 
legislation was originally introduced, we have continued to work with 
Congressional staff from both parties, DOI and the BLM, local 
communities, and the environmental community to ensure that any 
questions or concerns are addressed. With the various changes from the 
original legislation, we believe that S. 390 will direct a fair and 
equitable land exchange that is clearly in the interest of both the 
citizens of the United States and of Utah's school children.
                               valuation
    The legislation contemplates that all lands included in the 
exchange will be subject to independent appraisals using the existing 
appraisal standards contained in FLPMA and its implementing regulations 
prior to conveyance, and that the lands to be exchanged will be 
conveyed on an equal value basis. The independent appraisal will be 
subject to review by each party (including the DOI-ASD), and any 
disputes over valuation will then be subject to resolution through 
established dispute resolution mechanisms.
    The legislation contains two valuation provisions that may require 
some further explanation. The first relates to mineral lease revenue 
sharing under the federal Mineral Leasing Act. Certain of the federal 
lands are prospective for oil & gas development, and are currently 
under federal mineral lease. Under section 35 of the federal Mineral 
Leasing Act (30 U.S.C.  191), the federal government is required to 
pay 50 per cent of all bonus, rental and royalty revenue from federal 
lands to the state in which the lands are located. Under Utah statute, 
these revenues are largely distributed from the state Mineral Lease 
Account to local counties to mitigate community impacts of energy 
development. These distributions are a crucial funding source for rural 
public land counties.
    The proposed legislation would keep this revenue stream to rural 
counties intact by adjusting values proportionately to reflect the 
United States' obligation to share 50% of all revenue from the lands. 
Put another way, those federal lands found to have mineral values would 
be valued taking into account the United States' existing statutory 
obligation to pay 50% of the revenue from the lands to the State for 
distribution to the counties. Utah's school trust would collect these 
revenues and distribute them in the same manner as federal mineral 
lease funds, so the school trust would not receive any additional 
benefit from this provision. Similarly, the proposed legislative 
language would be revenue-neutral to the United States, because the 
United States currently retains only 50% of mineral revenue from the 
subject lands. There is specific precedent for adjustment of mineral 
land valuation to take into account the preexisting obligation of the 
United States to share revenue with the states under the Mineral 
Leasing Act. For example, section 8(c) of the Utah Schools and Lands 
Improvement Act of 1993, Pub. L. 103-93, provides that if the State 
shared revenue from selected federal properties, the value of the 
federal properties would be adjusted downward by the percentage of 
state revenue sharing. The Utah Schools and Lands Exchange Act of 1998, 
Pub. L. 105-335, ratified an agreement between the State of Utah and 
the Department of the Interior containing similar provisions. State 
revenue sharing payments have also been recognized and protected in 
land exchange legislation involving states other than Utah. See e.g. 16 
U.S.C. 46011-3(b)(3) (Montana's right to receive cash payment for coal 
tracts used as exchange consideration protected).
    A second mineral issue involves the bill's provisions obligating 
the State to pay to the United States future mineral revenues from 
currently unleased federal lands, in a share equal to what the United 
States would have received had the lands been retained in federal 
ownership. This payment obligation eliminates the need to appraise 
leasable mineral values under those lands, since the United States will 
continue to receive all leasable mineral revenues it would have 
received notwithstanding the exchange.
    Significant portions of the federal lands to be transferred to Utah 
are currently not leased for oil, gas or other hydrocarbon minerals 
(e.g. tar sands, oil shale), but are thought to be prospective for such 
minerals. Appraisals of prospective but nonproducing mineral lands are 
expensive and inherently unreliable due to the many unknowable 
variables involved in determining potential resources and their 
likelihood of production. To avoid the expense and potential 
controversy that could arise from appraisal of these non-producing 
resources, section 5(b)(4) of the proposed legislation proposes an 
alternative means of compensating the United States for leasable 
minerals underlying currently unleased federal lands. The lands will be 
appraised for surface values and for all minerals other than minerals 
leasable under the federal Mineral Leasing Act. Upon acquisition of the 
lands, the State also commits to pay the United States all revenue that 
the United States treasury would have received from leasable minerals 
had the U.S. retained ownership of the lands, i.e. 50% of bonuses and 
rentals, and a share of royalties equal to the federal share of 
production royalties (6.25% in the case of oil and gas, less for tar 
sands and oil shale). The U.S. treasury is thus held harmless with 
respect to the exchange. The State of Utah's school trust would also 
continue to pay the 50% state share to the Utah mineral lease account. 
In addition to protecting future revenue-generating opportunities for 
the United States, the administrative costs of preparing the lands for 
development, administering any subsequent mineral leases, and the 
distribution of revenues generated on the lands will be borne solely by 
the State of Utah through the Trust Lands Adminstration.
    These provisions leave Utah's school trust with a commitment to pay 
the United States and the State of Utah's mineral lease account all 
amounts that could be derived from the lands under federal law. 
However, because the school trust has legal flexibility to issue leases 
for royalty rates greater than permitted under existing federal law, it 
hopes to achieve some economic return from leasable minerals on the 
subject lands based upon this flexibility. This risk is solely borne by 
the Utah school trust; the legislation commits the required payments to 
the United States as a covenant running with the land. The U.S. is thus 
compensated for leasable minerals on the subject lands as if it 
retained ownership, as well as being paid appraised surface values and 
non-leasable mineral values. Again, this provision is revenue neutral 
to the United States.
              post-exchange land management and wilderness
    Substantial portions of the state trust lands to be exchanged to 
BLM are located in wilderness study areas (``WSAs'') created under 
Section 603 of FLPMA, or areas proposed for wilderness in pending 
federal legislation. Other portions are not within proposed wilderness. 
The legislation provides that exchanged lands that lie within existing 
WSAs or other formally-designated federal areas will automatically 
become part of those areas upon conveyance. For other state lands 
exchanged to BLM, some lands recognized by the parties to have special 
significance, as designated on the exchange map, will be withdrawn from 
mineral entry by the terms of the legislation. For all other state 
lands exchanged to BLM, the lands will be withdrawn pending revisions 
of BLM's resource management plans to determine appropriate management 
of the lands. The proposed exchange is not intended as an endorsement 
of any particular configuration of wilderness, which is a matter that 
is for Congress to decide at some future time. Rather, the intent of 
the exchange is to allow BLM land managers to determine, on a landscape 
scale, how best to manage the lands without having to deal with inheld 
state trust lands.
                               conclusion
    Again, if I may refer to the accompanying map, the islands of state 
trust land intermingled throughout the public domain in Utah present 
historic, current and future opportunities for contention between the 
United States and the State of Utah. These scattered sections create 
never-ending complications for both federal and state land managers, 
and often hinder federal land managers from accomplishing Congressional 
mandates. S. 390 represents a significant great step toward simplifying 
land management in Utah, protecting Utah's natural heritage, supporting 
local economies through increased opportunities for outdoor recreation, 
and adequately funding public education. It is the product of public 
outreach and compromise that has led to a better proposal than 
originally crafted. In addition, it provides a template that may help 
to rationalize the ``kaleidoscope'' that is the Utah land ownership 
map. I respectfully urge the Subcommittee to approve it expeditiously.
    Thank you again for the opportunity to testify today.

    Senator Wyden. Thank you very much, Mr. Carter.
    Mr. Cobb, welcome.

    STATEMENT OF TY COBB, BOARD MEMBER, GRAND CANYON TRUST, 
                         FLAGSTAFF, AZ

    Mr. Cobb. Thank you very much, Mr. Chairman.
    My name is Ty Cobb. I'm a partner at the law firm of Hogan 
& Hartson here in Washington, D.C., but I have the distinct 
honor of serving on the Board of Trustees for the Grand Canyon 
Trust, with whom I've been associated with for many years, and 
we are now in our 22nd year, as the Grand Canyon Trust, it's a 
non-profit conservation organization, headquartered in 
Flagstaff, Arizona, with an office in Moab, Utah.
    Our mission is to protect and help restore the Colorado 
Plateau, its spectacular landscapes, flowing rivers, clean air, 
the diversity of the plants and animals in areas of solitude 
and beauty. In the course of that effort, we have worked very 
closely with Congress, historically, most notably during the 
passage of the Grand Canyon Protection Act in the early 1990's. 
But we value our constructive relationship with your staff, and 
with Mr. Carter's organization, and I would like to take the 
opportunity early in my remarks, if I might, Mr. Chairman, to 
compliment Mr. Carter, who has just done an extraordinary job 
in this matter.
    S. 390, the Utah Recreational Land Exchange Act of 2007 
would protect the valuable recreation lands, critical 
watersheds, cultural resources, essential wildlife habitat and 
lands that are extraordinary in scenic beauty. The preservation 
of this landscape is very much in the interest of the members 
of the Grand Canyon Trust, whom I'm representing here today, 
but also the American public, this Congress, and all Americans 
to follow us.
    In that regard, and to underscore this point more elegantly 
than I am able to put into words, I've brought for the 
committee, or the subcommittee's benefit today, a book which 
I'd like to present to the subcommittee, ``Utah, A Celebration 
of the Landscape,'' which includes, actually, many photographs 
of some of the lands that are subject to the Exchange, and I'll 
leave that with your staff.
    Senator Wyden. Very good.
    Mr. Cobb. Because this matter has been refined over the 
past 4 years, I think it represents one of the most well 
thought-out pieces of legislation of this type in history. 
Since the House hearing on the proposed legislation in 
September 2005, the Grand Canyon Trust has worked with your 
subcommittee, the House Subcommittee on Forests and Forest 
Land, officials from the Department of Interior, Bureau of Land 
Management and the Utah State Trust Lands to help refine the 
legislation as it is moved forward.
    As Senator Bennett noted, like him, we were disappointed 
that it didn't make it through last time, but we very much 
appreciate this subcommittee's support and interest in this 
bill, and its efforts to move it quickly through Congress at 
this stage.
    As has been emphasized by Senator Bennett, and by Mr. 
Carter--rarely has a piece of legislation of this type had the 
broad coalition of support that this legislation brings. There 
are rural county commissioners, very bipartisan support, as 
many of them are Republicans, there's a Democratic Governor, 
Mr. Huntsman, Senator Bennett, others--everybody sees the value 
of this, and the wisdom of this, both for the State and for the 
Federal Government. The checkerboard that Senator Bennett 
referred to in his remarks, you know, will be harmonized by 
this legislation in a way that benefits the intended 
beneficiaries of the Utah, and particularly, in the education 
area, as intended by their legislation, as well as the Federal 
Government, in protecting very valuable resources.
    I thank you very much for the honor of an invitation to 
participate today, and encourage the passage of this 
legislation in harmony with the pending House bill.
    [The prepared statement of Mr. Cobb follows:]
   Prepared Statement of Ty Cobb, Board Member, Grand Canyon Trust, 
                             Flagstaff, AZ
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify. Grand Canyon Trust strongly supports S. 390, 
the Utah Recreational Land Exchange Act of 2007, with modifications to 
bring the bill into alignment with H.R. 1210 the House version of the 
bill. Changes to the bill which are evident in H.R. 1210 were very 
carefully negotiated in the House National Parks, Forests and Public 
Lands Subcommittee and should be entirely incorporated into S. 390.
    The Grand Canyon Trust, now in our 22nd year, is a non-profit 
conservation organization headquartered in Flagstaff, Arizona with an 
office in Moab, Utah. Our mission is to protect and restore the 
Colorado Plateau--its spectacular landscapes, flowing rivers, clean 
air, diversity of plants and animals, and areas of solitude and beauty.
    S. 390, The Utah Recreational Land Exchange Act of 2007, will 
protect valuable recreational lands, critical watersheds, cultural 
resources, essential wildlife habitat, lands of extraordinary scenic 
beauty and lands in Wilderness Study Areas by conveying sensitive 
state-owned lands in the Colorado River corridor to the Bureau of Land 
Management. The area is currently a checkerboard of federal lands and 
Utah State Trust Lands (SITLA) which the state is mandated to manage 
for benefit of Utah's school children by raising dollars for the 
Permanent School Fund. This is accomplished primarily through leasing 
the lands for minerals development or selling the lands for private 
development. Since conservation dollars cannot keep pace with the 
disposition of state lands, the proposed land exchange is the only 
viable way to keep such a broad and cherished landscape from becoming 
fragmented. Preservation of this landscape is in the interest of 
members of the Grand Canyon Trust and the American public, since the 
existing federal estate in southeast Utah is a national treasure.
                             the landscape
    In southeast Utah, the spectacular 1200 square mile basin of 
Canyonlands National Park lies at the geographic heart of the Colorado 
Plateau. Here, 300 million years of geologic history are revealed in 
the deep canyons of the Colorado and Green Rivers. The downward cutting 
movement of the rivers and their tributaries, through layers of 
sedimentary rock, continues to form one of the largest and most 
intricate canyon systems on earth. Upstream on the Green River are 
Labyrinth and Stillwater Canyons, and on the Colorado River, the twin 
jewels of Arches National Park and Westwater Canyon. S. 390 will 
consolidate federal lands for consistent management in this landscape 
of the Colorado River corridor.
    This extraordinary geologic province is filled with the greatest 
density of natural arches in the world; Morning Glory Arch and Corona 
Arch will be conveyed to the federal estate in the proposed exchange. 
Pinnacles, rock fins, grottos, balanced rocks, hoodoos and natural 
bridges abound, sheltering a richness of species in diverse habitats. 
Mountain ranges provide watersheds that give life to the adjacent 
desert country. Vast expanses of bare red rock are broken by lush 
riparian areas, ephemeral pools, grassland and sage steppes. In this 
land of extremes, temperature fluctuations of 50 degrees in one day are 
common, animals and plants have evolved unique adaptations to survive 
and many of these species are endemic to the region. In addition, 
southeast Utah contains one of the world's great archaeological 
districts where priceless treasures from the past are abundant. S. 390 
will convey lands like these to the BLM where they can be managed to 
protect their values for the American public.
                          conservation values
    There have been numerous acquisitions of SITLA lands in Grand 
County in recent years by individuals and conservation organizations 
for the purposes of preserving open space and recreational lands, and 
for protecting watersheds and wildlife habitat. This reflects a very 
strong desire and commitment of private resources for protecting this 
spectacular landscape. During the same period, developers and even Off-
Highway Vehicle groups have outbid conservationists and purchased SITLA 
lands in the area for their private uses, fragmenting the surrounding 
federal estate. In this competitive market, conservation sales have 
necessarily become comparable sales. S. 390 provides for appraisers to 
determine these values with respect to the actual parcels included in 
the exchange.
    With escalating land values, it has become difficult to procure 
funding for conservation initiatives on a scale commensurate with the 
problems posed by checkerboard federal/state patterns of ownership. 
Legislative land exchanges can be a rational solution in such cases and 
are now a very important conservation tool. Approximately 350,000 acres 
of SITLA lands remain in Grand County and some naturally possess 
conservation values, such as those adjacent to Arches National Park. It 
would be impossible to purchase all sensitive SITLA lands to protect 
them. Therefore the Grand Canyon Trust and other conservation 
organizations working in the state support this kind of carefully 
negotiated land exchange legislation as a common sense solution for 
protecting these important landscapes.
                            public benefits
    In addition, protecting these lands is consistent with Grand 
County's economy, which is based on tourism. In 2006, the Governor's 
Office of Planning and Budget reported that the tourism industry 
provided over $100 million dollars to Grand County's economy. On the 
other side of the ledger, SITLA will receive federal oil and gas 
development property in Uintah County, slated for development 
regardless of ownership, ensuring new revenues for their beneficiaries. 
We support this public benefit for education in the state of Utah. In 
Uintah County, minerals development is the primary force in the local 
economy, which is why elected officials there also support S. 390.
                           review and support
    We also approve of the process through which this legislation was 
developed. Cooperating with Grand Canyon Trust, Southern Utah 
Wilderness Alliance and Utah Wilderness Coalition, SITLA vetted the 
proposed exchange lands and these groups now approve of the selected 
lands. Grand Canyon Trust worked with The Nature Conservancy and the 
Utah Natural Heritage Program to map Threatened, Endangered, and 
Sensitive species, both plant and animal, on the proposed exchange 
lands. Using current data, we found no habitat overlap on lands SITLA 
would acquire for development while TES species do exist on lands being 
conveyed to BLM, where they would ostensibly have better protection 
under federal laws.
    Groups supporting this legislation include Grand County, Uintah 
County, San Juan County, Castle Valley Town, Moab City, Governor 
Huntsman's Task Force on Outdoor Recreation, the Utah Legislature, Utah 
Open Lands, The Nature Conservancy, Southern Utah Wilderness Alliance, 
Grand Canyon Trust, Utah Guides and Outfitters, Utah Rivers Council, 
National Parks and Conservation Association, Outdoor Industry 
Association, area ranchers, Grand County Backcountry Council, Grand 
County resort and tourist business owners, Utah Education Association, 
National Education Association. Other groups reviewing and commenting 
on the legislation included Utah Natural Heritage Program, Center for 
Native Ecosystems, Utah Wilderness Coalition, The Wilderness Society, 
Moab Field Office Bureau of Land Management, Utah Department of Natural 
Resources and the Utah Division of Wildlife Resources.
                       revisions and endorsement
    Since the House hearing on the proposed legislation in September 
2005, Grand Canyon Trust has attended meetings of the House 
Subcommittee on Forests and Forest Health. Committee staff and 
officials from Department of the Interior, Bureau of Land Management 
and Utah State Trust Lands have revised H.R. 2069, the Utah 
Recreational Land Exchange Act of 2005, to address issues raised at the 
House hearing and Senate hearing in 2006. We are grateful to the staff 
and agencies for their cooperation with one another and many hours of 
time, over two years, devoted to drafting a better bill which is 
reflected in the House version of the 2007 bill, H.R. 1210.
    Under Section 4(d)(1), we favor changing the timing language so 
that the set period for implementation is not mandatory and allows 
sufficient time for any actions necessary to properly implement the 
exchange.
    Grand Canyon Trust supports the fair and equal exchange of values 
for the trade. We also support rolling conveyance of the lands as 
provided in the legislation.
    Grand Canyon Trust is also in favor of permanent mineral leasing 
withdrawals for this exchange under Section 6(2)(B) which refers to 
some 20,000 acres of high value scenic and recreation lands being 
conveyed from SITLA to the BLM.
                      management of conveyed lands
    Southeast Utah's living Eden of canyons mesas and deep river gorges 
attracts recreational users from all over the world who come to hike, 
mountain bike, climb, run rivers, ride horses, ski and explore via 
jeeps and all-terrain vehicles. In recent years, an exponential 
increase in visitation to the public lands has demonstrated the 
necessity for good planning to accommodate the multiple use mandates on 
federal lands.
    The Moab BLM Field Office is currently revising its Resource 
Management Plan. Lands being conveyed to the BLM in the exchange will 
be managed according to the plan that is now being designed for lands 
currently in BLM ownership which surround exchange parcels. The Moab 
BLM planning team has stated that, in the Colorado River corridor, they 
are working to be consistent with the Three Rivers withdrawal signed by 
Secretary Norton in September 2004. This withdrawal protects two 
hundred miles of the Colorado, Green and Dolores river corridors and an 
additional fifty miles of side canyons from nuisance mining claims on 
locatable minerals for twenty years. Moab BLM planners have written 
special management designations into their preferred alternative to 
protect scenic and recreational values in the river corridor.
                               conclusion
    The Utah Recreational Land Exchange Act of 2007 has a very broad 
coalition of support, from rural Republican county commissioners to 
conservation organizations. In Utah, it is rare to have consensus of 
this kind for a public lands management proposal. S. 390 is an 
extraordinary conservation opportunity for protection of federal lands 
in Utah. Grand Canyon Trust believes S. 390, with the above stated 
modifications, provides the opportunity for a successful legislative 
land exchange. We respectfully urge the Subcommittee to approve a 
version of this bill with our recommended changes. Thank you again for 
the opportunity to testify.

    Senator Wyden. Well, Thank you very much, Mr. Cobb, and for 
you and Mr. Carter, I just know we'll work closely with both of 
you and your organizations. I don't think there's a Senator who 
is more fastidious about trying to make sure that everybody's 
included, and the stakeholders involved, than Senator Bennett. 
You're absolutely right, he's done a very good job in terms of 
trying to bring folks together; the staff has some areas 
they're going to follow up with you on, but we really 
appreciate your input, and look forward to getting it done, and 
done quickly.
    For the folks in Oregon, Ms. Schrader, you all, at this 
point, feel comfortable in terms of the inclusiveness. I 
gather, from your testimony, that people have had the 
opportunity to participate. How do you feel about, on the 
recreation side in terms of rafting and fishing--these are 
extraordinarily important activities for folks in Clackamas 
County. I think rafting and fishing are probably embedded in 
the gene pool of folks in Clackamas County--do you feel we're 
moving in the right direction there?
    Ms. Schrader. Thank you for that question, Senator, 
because, indeed tourism and recreation is one of the key 
economic engines of our country at this point in time, and as a 
traded sector and as you've heard in other testimony, we work 
closely with the businesses that provide the footwear and the 
things that people need to recreate in the forest. We recently 
had a recreation technology showcase in our County, under the 
auspice of Clackamas County, and the Oregon Science and 
Technology Partnership, that was working to work with those 
individuals that produce these recreational materials for 
folks.
    So, indeed, it is a key part of what we do in our county, 
and I certainly do think that this bill will help our efforts.
    Senator Wyden. Well, we'll continue the discussions with 
all of you. I know that there are a host of some issues that 
you all feel strongly about, related communities, drinking 
water, and we'll continue to work with all of you, and please 
tell folks on the Clackamas County staff that we very much 
appreciate their cooperation, and their good-faith efforts to 
help us resolve some of these issues.
    I know, when I put that bill in the first time, and we'd 
had the two, you know, long meetings, and everybody said, 
``Wow, where in the world is this coming from, Ron, where did 
Ron get this idea with respect to Clackamas County, or that 
idea,'' your folks stepped in and began to do a lot of work 
with us, given the fact that it was new to them.
    A lot of people, despite the two big town meetings and 
forums, so we just appreciate your good work.
    Mr. Sterling, your thoughts about the National Recreation 
Area: I think you were here when I talked about the fact that, 
if there's been one part of the legislation over the years that 
we've been working on this that has surprised us, it's been the 
National Recreation Area. I mean, we thought there was going to 
be a lot of interest, and it's been even greater than we 
expected, and that's why we expanded it, and are going to 
continue to talk with folks about it. But what's your reaction 
to the National Recreation Area and what are folks in the 
Outdoor Industry Conservation Alliance saying about that?
    Mr. Sterling. Well, as a group of businesses, many of which 
make products for a variety of outdoor recreation activities, I 
would say on balance, our membership is most strongly dedicated 
to the wilderness component of the legislation. But clearly 
there are some areas in there that have significant conflicts 
with the mountain bike community, and Yakima Products, one of 
the companies I mentioned, actually makes bike racks, so that's 
something they're certainly concerned about.
    But, you know where you can't designate wilderness, 
sometimes you have to find a compromise that works for 
everyone, and so I think that our members feel comfortable with 
some of the areas that have been designated as a National 
Recreation Area.
    Senator Wyden. We'll follow up with you as well, and I 
think it touches on the point that Ms. Schrader made with 
respect to tourism. Tourism and recreation in many parts of 
Oregon go hand in hand. People come to our State and come from 
one part of Oregon to another because of the spectacular 
recreation opportunities, and certainly in the area of mountain 
biking, there's an enormous interest.
    We had thought earlier about one kind of model approach--
you probably both know Mary Gautreaux who does terrific work in 
our office--and we thought about a Hood PDX, an almost 
experimental approach to promote mountain biking, and the 
mountain bikers thought that there were probably other ways to 
do it, although they complimented us on our creativity, in 
terms of out-of-the-box thinking. I think thus far, the 
mountain biking provisions seem to have gotten a good response; 
we're going to continue to work to refine those, as well.
    So, you all from Utah and Arizona have learned an awful lot 
about Oregon wilderness policy here in the course of the 
afternoon, I want to give you all a chance to have the last 
word with respect to the good work that Senator Bennett and the 
Utah folks are doing. Is there anything you all would like to 
add?
    Mr. Carter. I think our message, again, would be we very 
much appreciate his support, and his willingness to have his 
staff work with us, and work with committee staff and working 
through some always difficult issues when it comes to land 
exchanges, and we're very appreciative of that, and for your 
time. Thank you.
    Mr. Cobb. I would echo that. I think that Mr. Carter, 
likewise, deserves credit for getting this accomplished, and 
there are difficult analytical issues, political issues, and 
geological and other issues, in a manner that's complex, and 
was done with great skill, and serious engagement by a broad 
and bipartisan group.
    If I might, Senator. I've been moved all afternoon, having 
heard so much about Mount Hood, drawn to my own recollection of 
the first time I saw it, and it was as a bicyclist riding at 
night along the Columbia River Gorge as a 23-year-old, and it 
appeared to me for the first time, as a triangle, white 
triangle hovering in the sky. Because, you could see the snow 
cap, but you couldn't see the mountain. It was a beautiful, 
moonlit night, and it was one of the most stupefying memories 
that I have, so I congratulate you on that work as well.
    Senator Wyden. Thank you, that bike ride's about as good as 
it gets.
    Mr. Cobb. It is.
    Senator Wyden. You have obviously remembered it forever, 
and we'll have to figure out a special exchange, or something, 
between, we'll call it the Bennett-Smith-Wyden Exchange, in 
terms of wilderness efforts and visitation.
    Mr. Cobb. Excellent.
    Senator Wyden. We thank you for your good work.
    We're going to get these bills moving, and we're going to 
get them moving expeditiously. A last word for the Oregon trio 
there, Mr. Chairman? Ms. Schrader, Mr. Sterling. Anything you 
all would like to add?
    Mr. Suppah. I guess two elaborations. We get to--our 
neighbors, our legislators and we--continue, as stewards of our 
country, to make a better Oregon. Thank you.
    Senator Wyden. That sums it up.
    Ms. Schrader, Mr. Sterling.
    Ms. Schrader. Thank you, Senator, for asking me to come 
today, and as someone who started out in environmental 
conservation and biology, I just wanted to say how thrilling it 
is to be part of this great legislation as it comes forward, so 
thank you.
    Senator Wyden. You're going to continue to be a big part.
    Mr. Sterling.
    Mr. Sterling. Well, I just want to thank you, again, for 
the invitation and I know that there are other places in Oregon 
after Mount Hood that you are interested in protecting, and we 
hope that this the a first of a series of conservation measures 
that will ensure future quality of life for Oregon.
    Senator Wyden. You can count on it.
    The subcommittee is adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Robert A. Wilkinson, Chief Executive Officer, Copper 
                      Valley Electric Association
    Mr. Chairman, Honorable members of the Subcommittee, my name is 
Robert Wilkinson. I am from Glennallen, Alaska, and serve as Chief 
Executive Officer of the Copper Valley Electric Association. CVEA is a 
non-profit, member-owned, rural electric cooperative founded in 1954 by 
the residents of Glennallen in the Copper River Basin region of Alaska. 
Thank you for this opportunity to submit testimony on S. 205, the 
Copper Valley Native Allotment Resolution Act of 2006. This bill is 
very important to the 3,600 members of this Cooperative and will 
resolve a long standing problem which has been created by an 
unfortunate disconnect between Congressional passage of the Alaska 
National Interest Lands Conservation Act in 1980 and subsequent federal 
administrative rulings by the Department of Interior, Interior Board of 
Land Appeals.
    CVEA provides electric service to a large geographic area along 240 
miles of the Glenn and Richardson Highways in eastern Alaska. This area 
was one of the earliest settled areas in the State and has the oldest 
public road, the Richardson Highway running from tidewater to the 
Interior of the state. CVEA is headquartered in Glennallen, Alaska, and 
maintains a district office in Valdez.
    CVEA's mission is to provide exceptional customer service through 
safe, reliable, cost-effective electric service and programs. The 
native allotment issue is contrary to a number of core cooperative 
principles including a requirement that customers provide easements 
without cost to the Cooperative. Second, cooperatives operate at cost 
and purchasing rights of way from allottees will increase the cost to 
provide service. Finally, cooperatives strive to serve customers in a 
nondiscriminatory manner. Purchasing rights of way from allotment 
owners creates an unfair advantage at the expense of other customers 
who have to foot the bill. S. 205 corrects longstanding problems, 
allows us to operate consistent with our core 50-year old principles, 
and we strongly support the passage of S. 205 this session.
                               background
    S. 205 addresses a problem created by an inadvertent combination of 
federal law and Interior Department administrative rulings that have 
created a conflict for 14 Alaska native allotments located in the 
Copper River Basin. This conflict was not intended by the Congress, and 
CVEA is the unintended victim of the conflict. This problem jeopardizes 
the validity of electric transmission lines and rights of way, all of 
which Congress intended to protect as valid existing rights when it 
passed ANILCA in 1980. CVEA has invested millions of dollars in these 
transmission lines in reliance on BLM decisions to grant these rights 
of way. After many years of fruitless ongoing discussions concerning 
the problem, a detailed study was conducted by the Government 
Accountability Office: Alaska Native Allotments: Conflicts with Utility 
Rights-of-Way Have Not Been Resolved through Existing Remedies, GAO-04-
923, September 7, 2004. The GAO report identified several alternative 
solutions which have been incorporated into S. 205 which was introduced 
by Senators Stevens and Murkowski on May 24, 2006. CVEA strongly 
endorses this legislation and urges its swift passage.
                        the inadvertent problem
    Much of the factual record is documented by the GAO in the 
background section of its report.
    The GAO found the following:

          CVEA located, applied for and was granted proper transmission 
        line easements and rights of way both prior to and following 
        Alaska's admission to the Union in 1959. The rights of way were 
        confirmed by the BLM and permits were issued to cover these 
        rights of way.
          In 1971, Congress repealed the Alaska Native Allotment Act, 
        but many native allotments were not adjudicated prior to repeal 
        which was part of the Alaska Native Claims Settlement Act.
          In 1980, Congress legislatively approved all but a few 
        pending allotments because the BLM adjudication process was 
        bogged down and would take decades to conclude. These 
        allotments were approved subject to valid existing rights of 
        which CVEA's rights of way were assumed to be.
          In 1986, the Interior Board of Land Appeals, an 
        administrative court of the Department of Interior applied the 
        doctrine of ``relation back'' to rights of way such as CVEA's 
        to Alaska native allotments. This decision effectively voids 
        CVEA rights of way where native use and occupancy is claimed to 
        predate the date CVEA was granted its right of way. There are 
        14 such cases where the theory of the relation-back principle 
        has been applied.

    Since the IBLA rulings, the Bureau of Indian Affairs has engaged in 
periodic efforts to levy trespass claims against CVEA. The BIA, through 
real estate contractors, has also periodically threatened litigation to 
either void these rights of way or to collect on alleged trespass 
claims. This has been very costly and disruptive to CVEA.
    Over the years, CVEA has also made good faith efforts to resolve 
this problem by using the BIA's regulatory processes. However, these 
processes are extremely cumbersome, slow, and expensive, require the 
continuous involvement of lawyers and land consultants, and have not 
achieved a satisfactory resolution of CVEA's easement problems.
    This cumbersome process, and the threatened litigation by the BIA 
and others, has resulted in substantial administrative cost and legal 
bills to defend against these claims brought against CVEA, and 
ultimately has led CVEA to ask Congress to correct this inequity 
through legislation.
    Furthermore, it has created member relation problems for the 
Cooperative. As a non-profit cooperative electric utility, CVEA's 
Bylaws prohibit paying any customer for a right of way to provide 
service to that customer. Therefore, we are in a no-win position that 
we cannot provide service to some allotment owners because so long as 
this conflict continues, CVEA cannot get a right of way from the 
allottee even if the allottee wants to provide it. That decision is 
left in the hands of the BIA as allotment trustee. This is yet one more 
troubling and difficult problem created as a result of the IBLA's 
application of the relation-back doctrine to rights of way granted to 
CVEA.
                                 s. 205
    After consultation with Senator Stevens, following release of the 
GAO report, it was determined that the problem cannot be solved by 
existing remedies. The only alternative is federal legislation.
    The terms of S. 205 are simple. All CVEA past and present rights of 
way for electric transmission lines in conflict as identified by the 
GAO report are confirmed legislatively as was intended by ANILCA. A 
compensation procedure is established to compensate any allottee 
affected by this legislative action. The appropriate compensation will 
be determined by the BLM and paid to the allottee. The rights of other 
property owners to other lands are protected in this legislation.
    CVEA strongly supports this legislation and urges its rapid passage 
into law.
                               conclusion
    Mr. Chairman, this problem is a local issue limited to 14 native 
allotments in the Copper Basin in eastern interior Alaska. As 
demonstrated by the GAO report, this problem needs a solution that only 
Congress can provide. CVEA cannot properly serve its customers until 
this problem is solved. CVEA is a small, non-profit, rural electric 
cooperative. CVEA has expended significant resources to solve these 
problems over a period of many years, and we remain threatened with 
imminent trespass litigation if this problem is not corrected. We 
cannot afford time consuming and costly litigation and we can no longer 
withstand the continuing threat of litigation.
    In that regard, and on behalf of the 3,600 members of Copper Valley 
Electric Association, I urge this Committee and the Congress to solve 
this longstanding problem by passing this legislation as rapidly as 
possible. Thank you for the opportunity to submit testimony on S. 205.
                                 ______
                                 
   Joint Statement of the American Hiking Society, American Rivers, 
American Society of Landscape Architects, Arizona Wilderness Coalition, 
 Arizona Zoological Society, California Wilderness Coalition, Campaign 
 for America's Wilderness, Center for Biological Diversity, Center for 
 International Environmental Law (CIEL), Citizens Action Committee for 
    Tule Springs (CACTuS), Coalition for Sonoran Desert Protection, 
Defenders of Wildlife, Earthjustice, Environmental Defense, Friends of 
the Agua Fria National Monument, Friends of the Earth, Friends of Gold 
   Butte, Friends of Ironwood Forest, Friends of the Missouri Breaks 
Monument, Friends of Sloan, Grand Canyon Trust, Grand Canyon Wildlands 
Council, Grand Staircase Escalante Partners, Idaho Conservation League, 
Idaho Wildlife Federation, Montana Wildlife Federation, National Trust 
  for Historic Preservation, National Wildlife Federation, New Mexico 
  Wilderness Alliance, New Mexico Wildlife Federation, Oregon Natural 
Desert Association, Outdoor Industry Association (OIA), Partnership for 
    the National Trails System, Public Employees for Environmental 
Responsibility (PEER), Republicans for Environmental Protection (REP), 
    Rincon Institute, San Juan Citizens Alliance, Sierra Club, Soda 
     Mountain Wilderness Council, Sonoran Institute, Southern Utah 
     Wilderness Alliance, Tuleyome, US PIRG, The Wilderness Society
    Chairman Wyden and Senator Burr, on behalf of our 44 national and 
regional organizations and our many members, we write in support of The 
National Landscape Conservation System Act, S. 1139.
    As you know, the 26-million-acre National Landscape Conservation 
System was established by the Secretary of the Interior to recognize 
and protect the outstanding lands and waters managed by the Bureau of 
Land Management (BLM). The Conservation System is comprised of BLM 
lands and waters designated for conservation by Congress or the 
President: National Monuments, National Conservation Areas, Wild and 
Scenic Rivers, National Scenic and Historic Trails, Wilderness Areas, 
Wilderness Study Areas, and other congressionally designated BLM 
conservation areas. The System, which comprises 10 percent of BLM-
managed lands, protects the BLM's crown jewels, from Montana's Upper 
Missouri River Breaks National Monument to Colorado's Gunnison Gorge 
National Conservation Area.
    Hundreds of thousands of Americans each year enjoy these nationally 
significant landscapes, through recreation such as hunting, river 
rafting and hiking, as well as outdoor education for local schools, 
scientific research on valuable paleontological and archaeological 
resources, and more. For example, hikers, ecologists and other visitors 
to Oregon's biologically diverse Cascade-Siskiyou National Monument 
enjoy an unparalleled diversity of butterflies, animal species, unique 
fish and mollusks, and rare plants.
    The National Landscape Conservation System is a network of some of 
the last places where visitors can experience the history and wild 
beauty of the American West. Although the most recent Democratic and 
Republican administrations have both supported the System 
administratively, it lacks statutory recognition keeping the great 
recreational, natural and scientific resources of the Conservation 
System hidden from many Americans who stand to benefit from them. By 
enacting codifying legislation, Congress will ensure the System's 
permanence and an enduring legacy of the West's natural and cultural 
heritage for future generations.
    In conclusion, enactment of S. 1139 will permanently establish 
perhaps the last great American system of protected lands, and we hope 
the Committee will favorably report this important piece of public 
lands legislation.
                                 ______
                                 
                               Audubon Society of Portland,
                                                      Portland, OR.
Subcommittee on Public Lands and Forests, Senate Energy and Natural 
        Resources Committee, 304 Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Wyden, Senator Smith and Members of the Subcommittee: 
On behalf of the Audubon Society of Portland and its 10,000 members, I 
am pleased to provide testimony on S. 647, the Lewis and Clark Mount 
Hood Wilderness Act of 2007.
    Portland Audubon is grateful to you for advancing the Mount Hood 
Wilderness legislation, which would protect Mount Hood, the Columbia 
River Gorge and the Clackamas watershed. Oregonians and visitors alike 
overwhelmingly support protecting these awe-inspiring landscapes that 
shelter old-growth forests, community watersheds, wildlife habitats, 
salmon and steelhead spawning streams, whitewater rivers and hiking 
trails.
    Among the places that would be protected which are near and dear to 
the hearts of Portland Audubon members is Bonney Butte. Bonney Butte is 
a designated Oregon Important Bird Area because it is home to the 
largest known fall concentration of migrating raptors in Oregon.
    Other special places that would be protected include:

  <bullet> White River's scenic alpine canyons and rare plants;
  <bullet> the exceptional big-game habitat of Sisi Butte;
  <bullet> the ancient forests of Fifteenmile Creek; and
  <bullet> the wetlands and fish and wildlife habitat in Salmon River 
        Meadows.

    We applaud your leadership and thank you for your efforts.
            Sincerely,
                                             Meryl Redisch,
                                                Executive Director.
                                 ______
                                 
               International Mountain Bicycling Association
                                          Boulder, CO, May 3, 2007.
Senator Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        & Natural Resources, U.S. Senate, 364 Dirksen Senate Office 
        Building, Washington, DC.
    Dear Chairman Wyden: On behalf of the International Mountain 
Bicycling Association (IMBA) and the Oregon Mountain Bike Alliance 
(ORMBA), I write to support S. 647, the Lewis and Clark Mount Hood 
Wilderness Act of 2007.
    IMBA and ORMBA first thank the Oregon Senators and staff for their 
tireless efforts to craft land protection language for Mount Hood. We 
applaud the collaboration that has resulted in this legislation, 
preserving natural resources and many mountain bicycling opportunities.
    Specifically, we are pleased the bill includes:

  <bullet> National Recreation Areas to allow diverse, muscle-powered 
        recreation to continue,
  <bullet> An investment of almost $800,000 of unobligated special use 
        permit fees to be retained for trails and recreation on Mount 
        Hood,
  <bullet> A seat on the Mount Hood National Forest Recreational 
        Advisory Council for a mountain bike representative,
  <bullet> Recognition of recreation as a dynamic social and economic 
        component of Mount Hood.

    Mountain biking is a very popular sport, with 39 million 
participants nationally and close to 400,000 participants in Oregon 
(according to a recent study by the Outdoor Industry Association). 
Outdoor recreation is a way of life for Oregon residents, and many 
tourists travel to the state to experience Oregon trails via mountain 
bikes.
                        wilderness designations
    Bicyclists love to ride remote backcountry areas on narrow trails--
just like hikers and equestrians--and feel conflicted when Wilderness 
is proposed that affects significant biking trails. On the one hand, we 
want to protect the areas we ride. Yet we don't want to lose access to 
the trails we have ridden for almost two decades.
    To preserve the lands we care about, bicyclists support protection 
of many pristine areas and undeveloped public lands. The challenge is 
the agencies have defined Wilderness to ban bicycle access. Bicyclists 
therefore must seek modifications of Wilderness proposals that will 
allow our quiet, low-impact, muscle-powered form of recreation to 
continue.
    Nationally, our organization hopes to shift the land protection 
discourse from Wilderness only conversations to one that is more 
inclusive of other designations. We need a toolkit of strong 
protections to apply the right designation to suit each area's distinct 
history and its future.
    S. 647 bodes well for mountain bicycling and maintains many 
boundary adjustments that will accommodate access to significant 
trails. Some of the most popular and scenic places for cycling will 
remain open in the bill, such as Fifteenmile Creek, Larch Mountain, Dog 
River, Surveyors Ridge, Boulder Lake, Shellrock and Mount Defiance. 
With a few key amendments to the legislation, we believe it can protect 
the land and allow our existing, historical use to continue.
    Most promising for cyclists, the bill creates the Mount Hood 
National Forest Recreation Area (NRA) that will allow mountain biking 
to continue in areas such as Fifteen Mile Creek, Boulder Lake, and 
Shellrock Mountain. Instead of taking away trails our community has 
enjoyed for decades, National Recreation Areas are a way to protect 
Mount Hood for our children to enjoy and also to engage more of the 
Oregon bike community in land protection. National Recreation Areas 
have been used in many places around the country and on National Park 
Service, Bureau of Land Management, and USDA Forest Service lands.
    ORMBA and IMBA strongly endorse the NRA proposal and suggest 
expanding it to several other key areas, such as Hell Roaring Creek; 
and including provisions to prohibit mining, resource extraction, 
commercial logging, and motorized access.
                     specific trail recommendations
    ORMBA and IMBA strongly support protecting the lands around Mount 
Hood, and are asking for two minor but important changes to the bill.
    First, we suggest preserving a popular trail, known as the Bonny 
Butte Trail (Trail #471) under the aegis of Wild and Scenic River 
status. The Bonney Butte Trail starts in the Twin Lakes area and 
travels east toward Boulder Lake. This 5. 2 mile trail provides a 
critical connection across three key areas for mountain biking: Boulder 
Lakes, Bonney Meadows, and Twin Lakes. It currently enjoys Wild and 
Scenic River designation status--one of the most protective land 
designations afforded by Congress.
    As proposed, the Mount Hood bill would change the status of the 
Bonney Butte Trail to Wilderness protection. Layering this area with 
Wilderness unnecessarily prohibits continued bike access and blocks a 
connector trail to other key trail systems. Keeping this trail 
protected by a Wild and Scenic designation, removes less than 1,000 
acres from the overall proposal and only a few hundred acres if the 
boundary is narrowly drawn.
    As a low-impact, quiet and human-powered activity, mountain biking 
is compatible with Wild and Scenic areas. We ride on many trails 
protected under this designation. Mountain bikers care deeply about 
these areas and want the lands protected for our existing use.
    IMBA also asks the committee for a minor boundary adjustment to 
help re-open the Clackamas River Trail. IMBA advocates have started 
conversations with the Forest Service concerning this area and this 
narrow adjustment would help restore a trail that was open to our use 
for many years.
    It is important to note that there are many differences between the 
16-year-old Forest Plan and what is happening on the trail. There are 
many, many miles of trails that, in the 16 years since the Forest Plan, 
have remained legally open to mountain bike use because the Forest 
Service has actively maintained these trails and chosen not to close 
them. These trails are not posted closed nor has there been a Forest 
Order, the final step in closing a trail, as required by the Forest 
Plan and Forest Service regulations. Actual signage posting a closed 
trail is important because the Mount Hood National Forest Plan requires 
that ``Roads, areas, and trails closed or restricted to recreational 
use shall be posted.'' [MHNF Forest Plan, page 4-95, emphasis added]. 
In addition, IMBA has confirmed with Forest Service on other occasions, 
that ``National Forest System lands are open to a wide variety of 
recreational activities, including hiking, equestrians, bicycling, and 
motor vehicles, except where, specific activities are restricted by 
regulation, closure orders, programmatic direction or land allocations 
identified in a Forest Land and Resource Management Plan.'' According 
to Forest Service Handbook (FSH) 2309.18, 2.31c, ``mountain bikes can 
utilize trails and routes constructed for other purposes and can be 
ridden on hike, pack and saddle, motorized bike trail, and four-wheel 
drive ways'' in addition to riding on trails specifically designated 
for mountain bike use through Trail Management Objective (TMO) 
determinations.
    Consequently, the general Forest Service policy is that a trail is 
open to bikes unless specifically closed. Meanwhile these trails have 
experienced continued and active use by the mountain bike community. 
Approximately 100 miles of trails would close under S. 647. To the best 
of our knowledge all these trails are open to bikes in compliance with 
Forest Service rules and regulations and are actively used by mountain 
bicyclists, despite guidance in the 16-year old plan appendix listing 
many of them as closed.
    In light of the increasingly out-of-date Mount Hood National Forest 
Plan, IMBA and ORMBA look forward to working with the Forest Service 
develop new singletrack trail opportunities for mountain biking. 
Mountain bicyclists are avid trail stewards and contribute thousands of 
hours of volunteer trailwork across the state and on Mount Hood. If 
more lands are designated Wilderness, and thus made off-limits to 
cyclists, an important constituency will be shut out.
    Mountain biking is a healthy, human-powered outdoor activity with 
minimal environmental impact and a positive economic influence for 
Oregon. Mountain biking is an inherent use on Mount Hood and many 
accommodations have been made in the legislation for other historical 
and existing uses.
    Oregon is known for being solutions-minded and looking for new ways 
to tackle old problems. Thank you for your dedicated efforts to craft 
legislation protecting Mount Hood in that spirit; and for the 
opportunity to submit comments on this important legislation.
            Sincerely,
                                                 Jenn Dice,
                                       Government Affairs Director.
                                 ______
                                 
  Statement of Gary Sisson, General Manager, Mammoth Community Water 
                      District, Mammoth Lakes, CA
    On behalf of the Mammoth Community Water District (District), I am 
submitting this written testimony in support of H.R. 356 and ask that 
it be submitted for the record. The District is located in the Eastern 
Sierra Nevada Mountains in Mono County, California and provides the 
drinking water supply and wastewater treatment services to the Town of 
Mammoth Lakes (Town). The Town has approximately 7,500 year-round 
residents and during the peak winter season the population swells to 
over 35,000. The Town is surrounded by lands administered by the Inyo 
National Forest, and the economy of the area is primarily based on 
recreation and tourism.
    On behalf of the District and the residents we serve, we are very 
grateful for the Subcommittee's willingness to hold a hearing on H.R. 
356 which was introduced by Representative Buck McKeon. I also want to 
express our public appreciation to Senator Dianne Feinstein and her 
staff for their continued strong support of this legislation.
    H.R. 356 addresses an unintentional consequence of existing law as 
it relates to real property that the federal government transferred to 
our community several years ago. The legislation will provide our 
community with the ability to make the most of lands that have remained 
under utilized over several years because of advances in the way in 
which our community treats wastewater flows. Essentially, H.R. 356 
would remove certain restrictions on the Mammoth Community Water 
District's ability to use property we acquired from the federal 
government.
    Under H.R. 356, the District is seeking authority to allow 
specified land patented to the Mammoth County Water District in Mono 
County, California, to be used for alternative purposes from those that 
were in existence at the time of land conveyance. This is an important 
bill since the geography of our area limits the way we can accommodate 
drinking water and wastewater infrastructure.
    The legislation is strongly supported by all elements of the 
Mammoth Lakes community and Mono County. Recently the Mono County 
Sheriffs Department expressed an urgent need for property to store 
equipment for their Search and Rescue Team (letter attached). The U.S. 
Forest Service has testified in support of this minor technical change 
in land use.
    The issue that requires this subcommittee's attention and action is 
a function of the law that allowed the original conveyance of the 
federal lands to the District. I will attempt to summarize the 
circumstances of the law and where we are today in our planning efforts 
to better utilize the property.
    In 1987, the Mammoth Community Water District (formerly Mammoth 
County Water District) acquired 25 acres from the U.S. Forest Service 
under Public Law 90-171. The District had occupied these lands for many 
years prior to the conveyance through a special use permit. The 
District used the lands for two primary purposes; its administrative 
offices and its wastewater treatment operations.
    Under the terms of the conveyance, Public Law 90-171, the transfer 
was conditioned in that the lands could be used only for the purposes 
for which they were being used prior to the time of the conveyance. Of 
the 25 acres acquired by the District, the District continues to use 
approximately 13 acres for its offices and wastewater treatment 
facilities. The remaining 12 acres were used for the storage of 
materials and oxidation ponds related to wastewater treatment. However, 
these activities are no longer necessary for the District or the 
community at large.
    As a consequence of the conditions imposed by federal law, the 
District is unable to utilize the 12 acres for other purposes that are 
needed by the District and the Mammoth Lakes community. The area in 
question is within the existing city limits and would not affect the 
outlying area. Prior to the actual construction of any industrial park, 
an environmental impact review would be conducted to ensure compliance 
with appropriate mandates.
    H.R. 356 removes an impediment to the District's ability to use the 
property to meet its current and future needs and those of the Mammoth 
Lakes community which it serves. Again, we are grateful for the 
subcommittee's consideration of this important legislation.
                               appendix 1
                                       Mono County Sheriff,
                                                    Bridgeport, CA.
Gary Sisson,
General Manager, Mammoth Community Water District, P.O. Box 597, 
        Mammoth Lakes, CA.
    To Gary Sisson: The Mono County Sheriffs Department Search and 
Rescue Team has for sometime been looking for property in and around 
the Mammoth Lakes Basin. However, due to a limited budget, and a lack 
of adequate suitable property available, these efforts to date have not 
been successful. If property could be made available to the Mono County 
Sheriff's Department Search and Rescue Team at the Mammoth Community 
Water District a huge hurdle would be overcome.
    To date, the Mammoth Community Water District has been the only 
entity willing to step to the plate and assist Search and Rescue with 
the identified need of land. A building would be placed on this land 
that would house Search and Rescue equipment. It would allow this 
equipment to be removed from the elements, and would greatly improve 
the teams' ability to respond to calls for service when time is 
sometimes a matter of life and death.
    Your assistance with this matter is greatly appreciated. If I can 
be of any assistance please do not hesitate to give me a call.
            Sincerely,
                                        Daniel A, Paranick,
                                                   Sheriff/Coroner.
                                 ______
                                 
  Statement of David Garbett, Public Lands Fellow, the Southern Utah 
     Wilderness Alliance on Behalf of the Utah Wilderness Coalition
    Thank you for the opportunity to submit this testimony on behalf of 
the Utah Wilderness Coalition, an alliance led by Sierra Club, Southern 
Utah Wilderness Alliance, The Wilderness Society, and the Wasatch 
Mountain Club and representing over 220 groups who together work to 
protect Utah Wilderness. We have a common interest in preserving our 
nation's public lands and natural legacy, and in pursuing lasting 
protection for the Utah public lands proposed for wilderness in 
America's Redrock Wilderness Act.
    The Utah Wilderness Coalition is supportive of the Utah 
Recreational Land Exchange Act of 2007, which would enable public 
acquisition of spectacular public lands along the Colorado River 
corridor in Utah. Many of the public lands to be acquired by the Bureau 
of Land Management (BLM) in this exchange qualify as wilderness and we 
believe this legislation advances protection for these proposed 
wilderness landscapes by bringing them into common public ownership. At 
the same time, the State of Utah and its school children will benefit 
by receiving lands more appropriate for development and the ensuing 
revenues that development would provide.
    We appreciate the efforts of Senator Bennett, Congressman Matheson, 
the State Institutional Land Trust Administration (SITLA), and the 
Grand Canyon Trust in crafting this legislation. We thank the Committee 
for considering this legislation and we support the Committee's effort 
to fully vet the legislation, including aspects such as exchange 
methodology, valuation, and the bill's effect on existing laws. We also 
note below a few recommended improvements to the bill that we hope the 
Committee will consider.
    The Utah Recreational Land Exchange Act of 2007 would direct the 
BLM to enter into a beneficial land exchange with SITLA. Specifically, 
this bill would instruct the BLM to acquire environmentally sensitive 
and recreationally valuable lands located along portions of the 
Colorado and Green rivers, including spectacular scenic lands such as 
Westwater Canyon, the Fisher Towers, Behind the Rocks, Mary Jane 
Canyon, and Mill Creek; and lands near Arches National Park and 
Dinosaur National Monument.
    The vast majority of the state-owned lands identified in the 
legislative map are located within areas proposed for wilderness under 
the Utah Wilderness Coalition's citizens' wilderness proposal, 
introduced in this Congress as America's Red Rock Wilderness Act (H.R. 
1919/S. 1170).
    In exchanging these proposed wilderness lands, S. 390 has the 
potential to achieve its stated purpose of providing the public with 
lands that are important for their conservation, scenic, and recreation 
values--assuming that the proposed lands are acquired and adequately 
protected thereafter. In particular, the bill would help protect some 
of the most sensitive and spectacular lands that would be acquired by 
the BLM by permanently withdrawing selected parcels from future mineral 
leasing and entry. Such action is necessary to help fulfill the 
recreational, scenic, and conservational purposes of this legislation. 
The legislation also temporarily withdraws all federally acquired lands 
from mineral leasing. We strongly support this measure as it would 
permit the BLM to draft adequate management plans for these areas that 
would take into consideration the addition of these valuable 
conservation and recreation parcels.
    The BLM lands identified for conveyance to the State do not 
conflict with proposed wilderness areas of America's Red Rock 
Wilderness Act. We greatly appreciate that Senator Bennett's 
legislation does not propose to convey to SITLA BLM lands that are 
proposed for wilderness designation.
    Finally, we recommend that the Senate adopt a few minor 
improvements to S. 390 already included in the House version of this 
bill (H.R. 1210). These suggested modifications include the following: 
1) the inclusion of ``special account'' provisions found in Section 
5(b)(4)(C) & (D) of H.R. 1210, which create a special account that may 
be used in the future to purchase sensitive and significant lands for 
public ownership from revenues generated by this land exchange; 2) the 
adoption of the equalization of value instructions found in Section 
5(c)(1) of H.R. 1210, which instruct the BLM to compensate the State of 
Utah in the event that the appraisals show Utah stands to lose from 
this exchange, rather than removing important recreational and 
environmental parcels from the trade; 3) the adoption of the compliance 
provision found in Section 4(e) of H.R. 1210; and 4) the removal of the 
qualifying ``notwithstanding any other provision of law'' phrase found 
in Section 4(a) of S. 390, but absent from the same section in H.R. 
1210.
                               conclusion
    We appreciate the substantial efforts made by Senator Bennett, 
Congressman Matheson, SITLA, and the Grand Canyon Trust in writing this 
legislation and commend them for meeting with such a diverse group of 
stakeholders and involving so many interested parties. This land 
exchange is a noteworthy example of how diverse stakeholders can work 
constructively together. Further, this legislation provides a good 
example of balancing conservation and development needs in a mutually 
beneficial way. The Utah Wilderness Coalition looks forward to working 
with the Committee to help move this important land exchange bill 
forward. We are hopeful the Committee will consider adopting the minor 
modifications already in the House version of the bill discussed above, 
and we are hopeful that Congress will support and pass this 
legislation.
                                 ______
                                 
 Statement of the Maxine Natchees, Chairwoman, Ute Tribe of the Uintah 
                         and Ouray Reservation
                              introduction
    Good afternoon Chairman Wyden, Senator Burr, and Members of the 
Subcommittee on Public Lands and Forests. My name is Maxine Natchees 
and I am the Chairwoman of the Ute Indian Tribe of the Uintah and Ouray 
Reservation (U&0 Reservation) in northeastern Utah.
    The U&O Reservation comprises some 8% of the entire State of Utah 
and ranges 120 miles north and south, east and west, and 150 miles 
diagonally. The Ute Tribe has become an aggressive energy producer and 
has leased tribal land for oil and gas resources for many years. In 
fact the Ute Tribe recently opened up an additional 400,000 acres of 
tribal land that had never before been developed. Today you will 
receive testimony on a number of legislative proposals including S. 
390, legislation to direct the exchange of certain land in Grand, San 
Juan and Uintah Counties in the State of Utah. This bill was introduced 
by Senator Bennett and co-sponsored by Senator Hatch. I note that 
companion legislation (H.R. 1210) has been introduced in the House by 
Congressman Matheson and co-sponsored by Congressmen Bishop and Cannon.
    In brief, S. 390 directs the Secretary of the Interior to convey 
certain Federal lands to the State of Utah in exchange for certain non-
Federal land in Grand, San Juan, and Uintah Counties, Utah. The bill 
also contains provisions regarding the administration of the exchanged 
lands including mineral leasing and occupancy, grazing permits, and a 
number of other matters. The Ute Tribe respectfully submits the 
following statement because it too is confronting the challenges 
created by so-called ``split-estate'' issues that bedevil land 
management, hinder resource development, and often deny the full 
protection of the law to areas that are of cultural and religious 
significance to the Ute Tribe.
               split-estate issues on the u&0 reservation
    Beginning in 1948, the U.S. Congress took action related to the 
boundaries of the U&0 Reservation by adding an area known as the ``Hill 
Creek Extension'' (Extension) which included lands then owned by the 
State of Utah and managed by the School and Institutional Trust Land 
Administration (SITLA). This congressional action also authorized the 
State to relinquish lands within the U&0 Reservation and make in lieu 
selections of Federal lands in other areas within the State. In 1955, 
Congress authorized the State to make in lieu selections that are 
``mineral in character''. As a result, SITLA holds some 20,000 acres of 
mineral lands in the southernmost portion of the Extension and the Ute 
Tribe holds the surface rights to these lands. SITLA's mineral lands 
lie south of the Grand County line in an area of great cultural 
significance to the Tribe. In addition, the Ute Tribe maintains these 
lands as a wildlife conservation area. If SITLA were to lease these 
lands it would create great conflict with the Tribe and might 
ultimately prevent these lands from being developed.
              tribe-sitla land exchange and relinquishment
    To rectify this problem the Ute Tribe negotiated a comprehensive 
land exchange and relinquishment agreement with SITLA and in June 2006 
submitted the agreement with all necessary documentation to the Utah 
State Director of the U.S. Bureau of Land Management. The proposed 
exchange and relinquishment has the support of Duchesne, Grand, and 
Uintah Counties as well as the majority of the Utah delegation.
    Under the terms of the proposal, SITLA would relinquish state-owned 
mineral lands south of the Grand County line within the Extension. The 
Tribe and SITLA have similarly identified Federal subsurface minerals 
to the north of the Grand County line in the Extension area that SITLA 
can select under the 1948 and 1955 congressional enactments. SITLA's in 
lieu selections would be in an area of potential oil and gas 
development and it and the Tribe have entered a letter of intent under 
which SITLA would lease these minerals to the Tribe which would, in 
turn, develop them.
    Simply put, the proposed land exchange and relinquishment would 
protect sacred tribal lands; align Federal, tribal and State interests 
related to mineral development of tribal lands; and reduce the 
potential use of these sensitive lands by third parties. At the same 
time, it would ensure the State of Utah of a revenue stream made 
possible by the development of oil and gas resources that are not 
currently being deployed. If, on the other hand, the proposed land 
exchange and relinquishment is not approved, the split-estate problems 
will prevent the development of mineral resources, and wilderness and 
culturally significant areas will not receive the certain protection 
they would under the terms of the agreement.
    I thank the Chairman for including my statement in the record of 
today's hearing and look forward to answering any questions the 
Subcommittee might have.
                                 ______
                                 
         Statement of Robert Freimark, Senior Policy Analyst, 
                         The Wilderness Society
    On behalf of The Wilderness Society and our 204,000 members, I wish 
to convey The Society's views regarding S. 647, the Lewis and Clark 
Mount Hood Wilderness Act of 2007.
    The Wilderness Society greatly appreciates the efforts by Senators 
Ron Wyden and Gordon Smith to develop legislation that preserves an 
outstanding part of Oregon's wilderness heritage. Oregon is fortunate 
to have two Senators who work in bipartisan effort to protect such an 
important part of Oregon's landscape.
    The Wilderness Society takes pride in our nation having a network 
of public lands that can be enjoyed by all Americans. Mount Hood and 
the Columbia River Gorge are recognized nationally as two of the crown 
jewels of this public lands network, as well as revered in the Pacific 
Northwest as regional icons. The National Wilderness Preservation 
System helps provide the strong safeguards necessary to ensure these 
special places are protected now and for our great-grandchildren. 
Congress has previously designated wilderness on Mount Hood, first in 
1964 with passage of the Wilderness Act, and again in 1978 through the 
Endangered American Wilderness Act. Additional areas on the Mount Hood 
National Forest were protected as wilderness in 1968 with the creation 
of the Mount Jefferson Wilderness and also in the Oregon Wilderness Act 
of 1984.
    Roaring River, Bull of the Woods, Tilly Jane, Big Bottom, Bonney 
Butte, Clackamas Canyon, Gorge Ridgeline are names of special places in 
the hearts of Oregonians and Americans that would receive wilderness 
designation by S. 647. They all deserve the strongest protection now 
and for future generations. The Wilderness Society strongly supports 
the 128,600 acres of wilderness and 81 miles of wild and scenic river 
designations in S. 647. In addition, we believe Boulder Lake and 
Fifteenmile Creek are two areas that should be upgraded to a wilderness 
designation from the National Recreation Area designation directed in 
the legislation.
    Based on our initial review of this legislation we have concerns 
and recommendations about the following provisions of S. 647.
    Protecting the North Side of Mount Hood is Essential.--Perhaps the 
greatest threat facing the Mount Hood region is from inappropriate and 
expansive developments proposed on the north side of the mountain. We 
support the efforts in the legislation to protect this area through 
wilderness and a special watershed protection area. We also support the 
effort to exchange private land at Cooper Spur for land at Government 
Camp, where development is more appropriate. We support the 
preservation of trails and wetlands in the 120 acres of Government Camp 
land as directed by the legislation.
    However, The Wilderness Society has concerns about the appraisal 
portion of the land exchange provision. While the bill appropriately 
calls for uniform federal appraisal standards, it then alters those 
standards by fixing the date of valuation to the spring of 2005 and 
providing potentially interested parties with the shared authority to 
approve the appraisal.
    Under accepted professional appraisal standards, land should always 
be valued as close to the date of transaction as is feasible. 
Otherwise, it fails to consider inflating land values. To date, we see 
no compelling rationale for disregarding this well-established 
appraisal and valuation principle.
    Approval of appraisals for government land exchanges is normally 
solely at the discretion of the Secretary. We believe that mandating 
that parties other than the Secretary (here Mount Hood Meadows and the 
County) must share approval authority with the Secretary is 
inappropriate. Here, there is a particular concern because the 
additional parties involved have a potential interest in the outcome of 
the appraisal. Outside parties should--and do--have the opportunity to 
provide appraisers with market information relevant to the appraisal. 
But we believe it is important that appraisal authority for federal 
lands remain solely within the Secretary's discretion.
    Thus, we recommend that section 503(d)(2)(B) be deleted. We also 
recommend that section 503(d)(2)(C) be modified to only require the 
appraisal to be approved by the Secretary (deleting required approval 
by the County and Mt. Hood Meadows).
    BLM Land Reclassification is Unnecessary and Inappropriate.--
Section 109 requires a process for eventually reclassifying BLM land in 
Oregon as comparable replacement acreage for a perceived loss of Oregon 
and California (O&C) Railroad Grant lands in portions of the Clackamas 
Wilderness designated by S. 647. This reclassification is not necessary 
since wilderness designation does not change the fact that the land is 
still classified as O&C Railroad Grant lands. Congress has previously 
designated wilderness within O&C lands but to the best of our knowledge 
has never reclassified ``replacement'' O&C land in wilderness 
legislation (see, for example, the Table Rock Wilderness and the Wild 
Rogue Wilderness designations). We believe such reclassification is 
neither necessary nor appropriate in the context of wilderness 
designation.
    We recommend that section 109 be deleted.
    Community Support for Fire Safe Zones is Important.--Section 106 
mandates vegetation management activities around the communities of 
Cascade Locks and Government Camp. We believe this forest management 
should be planned in close collaboration with the affected communities. 
The Forest Service should be directed to work with these communities, 
and should not be legally obligated to undertake forest management 
activities without solid local support. We believe this section should 
also clarify that forest management activities adjacent to Cascade 
Locks must be consistent with the Columbia River Gorge National Scenic 
Area Act.
    The Wilderness Society commends Senators Smith and Wyden for their 
public outreach efforts and for advocating for legislation to protect 
the values that Mount Hood and Mount Hood National Forest provide to 
Oregonians and all Americans. We are committed to working with both 
Senators to make the legislation as strong as possible, and to insure 
swift passage through the Senate.
    Thank you for this opportunity to provide The Wilderness Society's 
views on protecting the special place that is Mount Hood.

                                    

      

</pre></body></html>
